<html>
<title> - HEARING TO EXAMINE CHILD WELFARE REFORM PROPOSALS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





           HEARING TO EXAMINE CHILD WELFARE REFORM PROPOSALS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2004

                               __________

                           Serial No. 108-62

                               __________

         Printed for the use of the Committee on Ways and Means


                    U.S. GOVERNMENT PRINTING OFFICE
99-680                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also, published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________
                                                                   Page
Advisory of June 6, 2004, announcing the hearing.................     2

                               WITNESSES

Pew Commission on Children in Foster Care, Hon. William Frenzel..    16
Utah Department of Human Services, Robin Arnold-Williams, on 
  behalf of the American Public Human Services Association.......    22
Child Welfare League of America, Southern Regional Office, 
  Patricia Wilson................................................    27
Lutheran Social Services of the South, Samuel Sipes..............    33

                       SUBMISSIONS FOR THE RECORD

Alliance for Children and Families, Carmen Delgado Votaw, 
  statement......................................................    56
Child Protection Reform, Minneapolis, MN, J. Holderbaum, 
  statement......................................................    59
Children's Law Center of Los Angeles, Monterey Park, CA, Miriam 
  Aroni Krinsky, statement.......................................    60
Children's Rights, New York, NY, Marcia Robinson Lowry, statement    66
County Welfare Directors Association of California, Frank J. 
  Mecca, Sacramento, CA, statement...............................    72
Duranceau, Paula, Benton City, WA, statement.....................    78
Huckelberry, Cynthia, Redlands, CA, and Sushanna Khamis, Yucaipa, 
  CA, statement and attachment...................................    78
Institute for Human Services Management, Baltimore, MD, Tracey 
  Feild, statement...............................................    82
National Center for Youth Law, Oakland, CA, William Grimm, 
  statement......................................................    89
National Indian Child Welfare Association, Portland, OR, Terry L. 
  Cross, statement...............................................    95
New York State Office of Children and Family Services, 
  Rensselaer, NY, John A. Johnson, statement.....................    99
Seita, John R., Battle Creek, MI, statement and attachment.......   102
Volunteers of America, Alexandria, VA, statement.................   107

 
           HEARING TO EXAMINE CHILD WELFARE REFORM PROPOSALS

                              ----------                              


                         TUESDAY, JULY 13, 2004

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:06 p.m., in 
room B-318 Rayburn House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
June 06, 2004
No. HR-12

                  Herger Announces Hearing to Examine

                     Child Welfare Reform Proposals

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to examine child welfare reform 
proposals. The hearing will take place on Tuesday, July 13, 2004, in 
room B-318 Rayburn House Office Building, beginning at 1:00 p.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include State officials and other individuals familiar 
with child welfare issues. However, any individual or organization not 
scheduled for an oral appearance may submit a written statement for 
consideration by the Subcommittee for inclusion in the printed record 
of the hearing.
      

BACKGROUND:

      
    The Subcommittee recently held several hearings to examine high-
profile cases involving failures to protect children in New Jersey and 
Maryland, as well as reporting and oversight issues that reflect on 
broader program trends and child welfare concerns. These hearings 
provided a detailed review of Federal and State efforts to ensure that 
children are in safe, permanent, loving homes. Some reviews noted that 
Federal foster care and adoption programs provide $7 billion in funding 
to the States for foster care and adoption needs, but only 
approximately $700 million for services designed to prevent abuse and 
neglect of children in or at risk of foster care; recent proposals have 
suggested changes in Federal funding patterns to ensure services are 
available to support families and better protect children, thereby 
minimizing the need for more expensive foster care placement. Other 
proposals would expedite placements for children across State lines to 
prevent lengthy stays in foster care and move children to permanent 
homes.
      
    In announcing the hearing, Herger stated, ``Efforts to better 
protect children and strengthen families are needed to prevent abuse 
and neglect occurring within the child welfare system. Witnesses at our 
hearings have called for Federal action to correct the current 
disparity in funding available for children once they are removed from 
their families as compared to funding to support families and hopefully 
prevent any disruption. This hearing will explore specific proposals to 
correct the inequity--changing child welfare's focus to better support 
families and protect children.''
      

FOCUS OF THE HEARING:

      
    The focus of the hearing is to explore recent proposals to reform 
child welfare financing and move children more quickly into safe, 
permanent homes.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``108th Congress'' from the menu entitled, ``Hearing Archives'' (http:/
/waysandmeans.house.gov/Hearings.asp?congress=16). Select the hearing 
for which you would like to submit, and click on the link entitled, 
``Click here to provide a submission for the record.'' Once you have 
followed the online instructions, completing all informational forms 
and clicking ``submit'' on the final page, an email will be sent to the 
address which you supply confirming your interest in providing a 
submission for the record. You MUST REPLY to the email and ATTACH your 
submission as a Word or WordPerfect document, in compliance with the 
formatting requirements listed below, by close of business Tuesday, 
July 27, 2004. Finally, please note that due to the change in House 
mail policy, the U.S. Capitol Police will refuse sealed-package 
deliveries to all House Office Buildings. For questions, or if you 
encounter technical problems, please call (202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone and fax numbers of each witness.

      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.

      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. Good afternoon and welcome to today's 
hearings. The gentleman from Texas, Mr. DeLay, who is very 
interested in child welfare issues is here with us today. I 
welcome Mr. DeLay and I thank you for the work that you have 
done to improve the lives of vulnerable children. Based on the 
precedent set when Mr. Payne of New Jersey, who is not a Member 
of our Committee, joined us on the dais at our November 6, 
2003, child welfare-related hearing, without objection, Mr. 
DeLay is allowed to sit on the dais and may question the 
witnesses.
    Mr. CARDIN. Mr. Chairman, let me just join you in welcoming 
our distinguished leader. He has been the leader in this 
Congress on foster care issues and it is a real pleasure to 
have his wisdom with us today on the Subcommittee.
    Chairman HERGER. Thank you. Without objection. Today, we 
will review proposals to reform our Nation's child welfare 
programs because the status quo isn't adequately protecting our 
most vulnerable children. Since November, this Subcommittee has 
held five hearings on this topic. Two of these hearings focused 
on specific failures to protect child safety in New Jersey and 
Maryland. The other hearings examined how State and Federal 
officials monitor programs that protect children and whether 
these programs adequately ensure the safety of vulnerable 
children. We have heard from 41 witnesses, plus more than 60 
other individuals and organizations provided input about 
problems with our Nation's child welfare system.
    No one thinks the status quo is acceptable. Every week, 
stories of children lost, abused, or worse yet, killed appear 
in newspapers across America. We owe it to them and to the 
half-million children in foster care to improve this system. 
The Federal Government provides more than $7 billion in foster 
care and adoption funds every year to the States. In 
comparison, as Mr. McDermott noted in our last hearing, funding 
for prevention and support services is only about $700 million. 
As a result, rather than focusing on the prevention of abuse 
and neglect, today's funding structure encourages the removal 
of children and break-up of families. That is unacceptable.
    In May, the nonpartisan Pew Commission on Children in 
Foster Care offered recommendations to overhaul the financing 
of child welfare programs. I am pleased that former Congressman 
Bill Frenzel, Chairman of the Commission, has joined us today 
to outline this proposal. I thank him, another former 
colleague, Vice Chairman Bill Gray, and the other members of 
the Commission for their outstanding work in this area.
    The Commission's report argues that additional resources 
and flexibility are critical to ensure that children are 
protected and families stay together. As we have heard, the 
Administration has proposed changes that also would provide 
more resources and flexibility for States to provide additional 
services. Several of our colleagues have introduced legislation 
that would increase funding for certain activities within the 
child welfare system.
    Today's witnesses will discuss these proposals. I also have 
provided our witnesses and the minority a copy of draft 
legislation I am developing that builds on the Pew Commission's 
recommendations and the Administration's proposal. This 
legislation has three main principles. First, it would provide 
adoption assistance for all children adopted from the public 
child welfare system regardless of their family's income. 
Second, it likewise would provide foster care assistance for 
all children regardless of income, while at the same time 
providing new incentives to keep children from languishing in 
foster care. Third, it would give States more flexibility and 
more resources to protect children and strengthen families, 
encourage greater accountability, and reward improved 
performance in protecting children.
    In all, this legislation increases funding and flexibility 
for States to operate improved programs that do a better job 
protecting children. We welcome comments on this proposal, as 
well. I have received the testimony of our witnesses and I 
expect that as the hearing progresses today, we will clarify 
how the draft bill would prevent children from needlessly 
lingering in foster care for extended periods of time. I hope 
to introduce this legislation shortly, including with the 
addition of helpful suggestions proposed today.
    [The opening statement of Chairman Herger follows:]

   Opening Statement of The Honorable Wally Herger, Chairman, and a 
        Representative in Congress from the State of California

    Good afternoon and welcome to today's hearing.
    Today we will review proposals to reform our nation's child welfare 
programs because the status quo isn't adequately protecting our most 
vulnerable children.
    Since November, this Subcommittee has held five hearings on this 
topic. Two of these hearings focused on specific failures to protect 
child safety in New Jersey and Maryland. The other hearings examined 
how state and federal officials monitor programs that protect children, 
and whether these programs adequately ensure the safety of vulnerable 
children.
    We have heard from 41 witnesses. Plus more than 60 other 
individuals and organizations provided input about problems with our 
nation's child welfare system.
    No one thinks the status quo is acceptable. Every week, stories of 
children lost, abused--or worse yet, killed appear in newspapers across 
America. We owe it to them, and to the half million children in foster 
care, to improve this system.
    The federal government provides more than $7 billion in foster care 
and adoption funds every year to the states. In comparison, as Mr. 
McDermott noted in our last hearing, funding for prevention and support 
services is only about $700 million. As a result, rather than focusing 
on the prevention of abuse and neglect, today's funding structure 
encourages the removal of children and breakup of families. That is 
unacceptable.
    In May, the nonpartisan Pew Commission on Children in Foster Care 
offered recommendations to overhaul the financing of child welfare 
programs. I'm pleased that former Congressman Bill Frenzel, Chairman of 
the Commission, has joined us today to outline this proposal. I thank 
him, another former colleague Vice Chairman Bill Gray, and the other 
members of the Commission for their outstanding work in this area.
    The Commission's report argues that additional resources and 
flexibility are critical to ensure that children are protected and 
families stay together. As we have heard, the Administration has 
proposed changes that also would provide more resources and flexibility 
for states to provide additional services. And several of our 
colleagues have introduced legislation that would increase funding for 
certain activities within the child welfare system.
    Today's witnesses will discuss these proposals.
    I also have provided our witnesses and the minority a copy of draft 
legislation I am developing that builds on the Pew Commission's 
recommendations and the Administration's proposal.
    This legislation has three main principles.
    First, it would provide adoption assistance for all children 
adopted from the public child welfare system, regardless of their 
family's income.
    Second, it likewise would provide foster care assistance for all 
children regardless of income, while at the same time providing new 
incentives to keep children from languishing in foster care.
    Third, it would give states more flexibility and more resources to 
protect children and strengthen families, encourage greater 
accountability, and reward improved performance in protecting children.
    In all, this legislation increases funding and flexibility for 
states to operate improved programs that do a better job protecting 
children.
    We welcome comments on this proposal as well. I have reviewed the 
testimony of our witnesses, and I expect that as the hearing progresses 
today we will clarify how the draft bill wouldprevent children from 
needlessly lingering in foster care for extended periods of time. I 
hope to introduce this legislation shortly, including with the addition 
of helpful suggestions proposed today. Mr. Cardin, Mrs. Johnson and I 
have met to discuss this legislation, and I remain hopeful we can 
proceed in a bipartisan way.
    Another proposal we will explore today is H.R. 4504, the Orderly 
and Timely Interstate Placement of Foster Children Act of 2004. This 
bill is sponsored by our distinguished Majority Leader, Tom DeLay and I 
am pleased to join him and our colleagues Mrs. Johnson, Mr. Camp, Mr. 
Lewis, and Mr. Cantor in cosponsoring this important legislation.
    On average, it takes a full year longer for a child to be adopted 
through an interstate placement, compared with a placement within the 
same state. We must do more to ensure that all children are not 
lingering in foster care when a loving home is readily available for 
them. This proposed legislation we're discussing today takes an 
important step in that direction.
    I thank all our witnesses for joining us today and for their 
dedication and work to ensure a safe, permanent, loving home for 
vulnerable children.
    Mr. Cardin, Mrs. Johnson and I have met to discuss this legislation 
and I remain hopeful we can proceed in a bipartisan way. Another 
proposal we will explore today is H.R. 4504, the Orderly and Timely 
Interstate Placement of Foster Children Act of 2004. This bill is 
sponsored by our distinguished Majority Leader, Tom DeLay, and I am 
pleased to join him and our colleagues, Mrs. Johnson, Mr. Camp, Mr. 
Lewis, and Mr. Cantor, in cosponsoring this important legislation.
    On average, it takes a full year longer for a child to be adopted 
through an interstate placement compared with a placement within the 
same State. We must do more to ensure that all children are not 
lingering in foster care when a loving home is readily available for 
them. This proposed legislation we are discussing today takes an 
important step in that direction. Again, we welcome the Majority 
Leader, who has joined us today to hear testimony on this important 
legislation and I commend him for his dedication and commitment to 
improving our Nation's child welfare programs. I thank all of our 
witnesses for joining us today and for their dedication and work to 
ensure safe, permanent, loving homes for vulnerable children. Without 
objection, each Member will have the opportunity to submit a written 
statement and have it included in the record at this point. Mr. Cardin, 
would you like to make an opening statement?
                                 <F-dash>

    Mr. CARDIN. Yes. Thank you, Mr. Chairman. Let me thank you 
for conducting this hearing in regards to the adoption issues. 
I just want to applaud the efforts that have been made in this 
Congress to advance the issue. The Majority Leader has 
certainly been a true leader on this issue and we very much 
appreciate the continued progress that we can make in this 
regard. In regards to the foster care system, Mr. Chairman, let 
me point out I thank you for holding this hearing and thank you 
for the other hearings that we have held. We have put a 
national spotlight on our foster care system because we know 
that we need to change it. We know that there hasn't been the 
leadership in this Nation to deal with our most vulnerable 
children, and you and the Majority Leader and others have said 
we can do a lot better.
    We have held a lot of hearings to try to understand the 
problem and we have seen firsthand the problem in our foster 
care system. We have seen that the Attorney General of Texas, 
when he said that in many cases, we take children out of abused 
homes and we put them into foster care that is no better than 
the homes that we took them out of. We saw that firsthand with 
the Jackson children in New Jersey, who were malnourished for 
years and developed at one-half of their normal size. No one 
took action to change that.
    We saw firsthand the problems in Maryland, where a foster 
child had a child that was abused and taken away from her. She 
then had twins and showed up in the emergency room as the 
children were being delivered, no prenatal care. The hospital 
had all the red flags going up why those twins should not have 
been returned to that child, and yet they were and they were 
killed. We have seen firsthand the problems in our foster care 
system with the inadequate attention paid to our most difficult 
children and not paying attention to red flags that go up, and 
we know that we can do better and we must do better and we 
wonder whether if we have reformed our system here at the 
Federal level, we could have prevented some of these tragedies.
    We need to do things differently here in Washington, as my 
good friend from Connecticut continues to remind us, that we 
just can't continue to put money into the current system, that 
we need to change the way that we do business here in 
Washington and our expectations of what will happen at the 
State level. We have got to change the way we do business at 
the State level. Literally, the lives of our children are at 
stake.
    Chairman Herger, I congratulate you for submitting a draft 
bill. We need to do things differently here in Washington and 
you give us a bill on which we hopefully can work together in 
order to move forward. I think it is constructive. You provide 
more resources and you modernize the eligibility system. I hope 
it is still a work in progress, Mr. Chairman. You pointed out 
in your opening statement that you wanted helpful suggestions 
and I will make some helpful suggestions and I hope that we 
will be able to continue to make changes in this legislation.
    The first point I would point out is that the proposed cap 
on the foster care payments to me changes the fundamental 
responsibility at the national level to be a safety net in 
regards to the children who enter our foster care system, and 
let me remind you that we have not been very good historically 
in projecting baseline expenditures. I know that you have 
intended this to be a proposal that actually would put more 
money into the child welfare system, but let me remind you that 
we have projected a 19-percent growth in foster care between 
1988 and 1993 and, in fact, it was a 163-percent increase. We 
didn't recognize the epidemic of the crack cocaine babies, and 
that could obviously happen again. That is one area that I hope 
that we can modify. I find that to be a fundamental issue that 
needs to be included.
    Secondly, improving the workforce issues. We have seen over 
and over again that the caseworkers, the people who have the 
most important responsibility of dealing directly with our 
children--if they were pediatricians, we would demand that they 
have certain training. Yet as caseworkers, we put them out 
there with a minimal amount of training. The turnover is less 
than 2 years for people who are actually in the field providing 
the services. The caseloads in some cases are two to three 
times the national standards. We need to have in our 
legislation here ways that we reward workforce improvement, and 
I would hope that we could work in the legislation that we 
develop to include that.
    Then we need to help relatives of children that can't be 
returned to their home, the subsidized guardianship issue. You 
have suggested that in a revenue neutral way. I don't think 
that works, because we are trying to increase the number of 
children actually who are going to be receiving services, and I 
would hope that we could work to improve your legislation in 
that regard. Mr. Chairman, I could be so bold as to suggest 
that we just adopt the bill that I filed earlier that reformed 
the child welfare system. I thought that was a very good bill--
--
    [Laughter.]
    It helps States correct deficiencies identified in the 
Federal review. It improved the child welfare workforce. It 
addressed the connection between substance abuse and child 
abuse. It increased resources for preventive activities. It 
provided assistance for legal guardianship, and it updated the 
foster care eligibility standards, a pretty good bill. Let me 
just suggest that the experiences that we went through on 
welfare reform might serve us well as we look at child welfare 
reform. We passed reform in 1996 that was truly bipartisan. Yet 
in the last 3 years, we have been unable to pass a bipartisan 
bill in the House of Representatives. As a result, no 
legislation has been enacted and our States are really 
suffering under short-term extensions when we all know we need 
long-term extensions. If I could be so bold to suggest that I 
think that my legislation that I would like to see move has 
virtually no chance of enactment. I understand that.
    [Laughter.]
    I want to get bills passed. I think the Pew Foundation has 
brought forward a proposal that can be passed in both the House 
and the Senate and enacted into law and it is something that we 
should take a very serious look at. The Pew Foundation 
maintains the guaranteed payment within the foster care payment 
structure, which to me is fundamental in reaching a bipartisan 
agreement. There are other issues I hope that we can address, 
but if we want to get a bill enacted this year with the current 
membership of this Congress and the White House, then I think 
when you get Bill Frenzel and Bill Gray to agree on a bill, we 
should take very serious consideration of it. Both of these 
individuals are giants in the Congress of the United States on 
fiscal responsibility and on the right role that the Federal 
Government should play in critical issues. There is no more 
distinguished person I served with in the Congress than Bill 
Frenzel, nor a more conservative Member of the Congress that I 
served with than Bill Frenzel, and I think he has given us good 
guidance for a way that we really could get something 
accomplished and to the President's desk and signed into law, 
and I think we should take that good advice.
    Lastly, Mr. Chairman, let me point out that in foster care, 
we are the parents. We have the responsibility. We made the 
decision that we are going to intercede in the care of a child, 
and that is an awesome responsibility. We are not carrying that 
out today and we need to do better and I think it starts with 
legislation here in Washington, and we have a responsibility to 
those children to figure out a bipartisan bill that can be 
enacted into law with the current membership of our government, 
and I think the Pew Foundation has given us a way to get that 
done. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you, Mr. Cardin. Before we move on 
to our testimony, I want to remind our witnesses to limit your 
oral statement to 5 minutes. However, without objection, all 
the written testimony will be made a part of the permanent 
record. This afternoon, we will hear from the Honorable Bill 
Frenzel, Chairman of the Pew Commission on Children in Foster 
Care; Dr. Robin Arnold-Williams, Executive Director of the Utah 
Department of Human Services on behalf of the American Public 
Human Services Association (APHSA); Patricia Wilson, Director 
of the Southern Regional Office for the Child Welfare League of 
America (CWLA); and since we have someone from the State of 
Texas, would the Majority Leader like to introduce our final 
witness?
    Mr. DELAY. Thank you, Mr. Chairman. Mr. Chairman, Mr. 
Cardin, and Members of the Subcommittee, I greatly appreciate 
your courtesy in allowing me to sit on this dais to hear 
testimony on the very important bills, and I thank you, Mr. 
Chairman, for calling this hearing today to discuss important 
reforms in the child protection system. I appreciate the 
comments made by both you, Mr. Chairman, and Mr. Cardin.
    With all States failing the Child and Family Services 
reviews and the increase in child fatalities, it is time to 
closely examine the system. There is a general agreement that 
the way we fund child protection is perverse. We pay for more 
beds and we get more kids in care, not more kids cared for. It 
is time to change all of that. I am especially thankful that 
today we are going to hear testimony on my bill, cosponsored by 
the Chairman and many Members of this Subcommittee, to reform 
the Interstate Compact on the Placement of Children.
    This legislation is designed to help children find the 
loving families they need so that they can grow up able to 
love. Mr. Chairman, we keep track of chickens going across 
State lines. It is time we started doing the same for children. 
Mr. Chairman, I would like to submit for the record a sampling 
of the letters of support for H.R. 4504. These are letters that 
indicate broad support for this bill from organizations like 
the National Foster Care Association and the National 
Association of Psychiatric Health Systems and others.
    Chairman HERGER. Without objection, they will be included.
    [The information follows:]

                                 National Foster Parent Association
                                       Gig Harbor, Washington 98335
                                                      June 14, 2004
Congressman Tom DeLay
242 Cannon HOB
Washington, D.C. 20515

    Dear Congressman DeLay:

    On behalf of the Board of Directors for the National Foster Parent 
Association. I am writing to express the heartfelt thanks of the 
hundreds of foster to mifies who care for our most vulnerable children 
for your leadership in introducing H.R. 4504, ti,e Orderly and Timely 
Interstate Pfacemert of Foster Children Act of 2004. This legislation 
will ensure that children waiting to be placed in safe, loving homes in 
other states do not experience unnecessary bureaucratic delays that rob 
tnem of the opportunity to establish nurturing connections with 
relative care givers or adoptive parents in a timely manner. Moreover, 
the legislation will ensure that a child's foster or kinship parents 
(including preadoptive parents) have the right to be heard at the 
juvenile court proceedings that determine the future of our Nation's 
neediest children. As the individuals with the most day-to-day contact 
with foster children and the most likely candidates to provide 
permanent homes for children who cannot return to their families of 
origin, we value the opportunity to participate in the court 
proceedings that affect them. Research studies show that inclusion of 
children's care givers can have a positive affect on court 
decisionmaking and we appreciate your leadership in ensuring that 
juvenile court judges throughout the country have the benefit of our 
perceptions.
    Our organization, the National Foster Parent Association, works to 
strengthen foster families through nationally focused legislative 
advocacy, training and education, publications, and networking among 
foster parents, state and local foster parent associations, and child 
welfare organizations. We fufiy support. H.R. 4504 and look forward to 
its passage.
            Sincerely,
                                                    Karen Jorgenson
                                                      Administrator
                                 ______
                                 
                            Legal Advocates for Permanent Parenting
                                        San Mateo, California 94404
                                                      June 17, 2004
Congressman Tom DeLay
Majority Leader
United States House of Representatives
242 Cannon HOB
Washington, DC 20515

    Dear Congressman DeLay:

    I am writing in support of H.R.4504, the Orderly and Timely 
Interstate Placement of Foster Children Act of 2004. As an organization 
of attorneys, law professors and other legal professionals, most of 
whom have both personal and professional experience with foster care 
and/or adoption, we believe the legislation will improve outcomes for 
our Nation's most vulnerable children.
    H.R. 4504 will encourage states to implement procedures to ensure 
that foster children waiting to be placed in safe, nurturing homes in 
other states do not experience unnecessary delays. Fiscal incentives to 
states for the completion of timely home studies will result in many 
children finding permanency in a timely manner.
    In addition, H.R. 4504 will ensure that those individuals providing 
day-to-day care for foster children have a right to be heard at the 
juvenile court proceedings affecting the children in their homes. 
Research shows that inclusion of children's care givers in the judicial 
process provides judges with important information on how children are 
faring in out-of-home care. Participation in decisionmaking activities 
is also related to recruitment and retention of quality families to 
provide care for our Nation's 550,000 foster children. Data indicates 
that foster families cite a lack of inclusion in the process as a prime 
reason leading to their decision to discontinue fostering children. 
Finally, children who are unable to return to their families of origin 
but who nevertheless find permanent, loving homes overwhelmingly do so 
in the homes of their foster or kinship parents.
    In light of the important issues H.R. 4504 addresses, our 
organization supports urges its passage.
            Very truly yours,
                                                       Regina Deihl
                                                 Executive Director
                                 ______
                                 
                                      Straight from the Heart, Inc.
                                            Vista, California 92083
                                                      June 17, 2004
Congressman Tom DeLay
Majority Leader
United States House of Representatives
242 Cannon HOB
Washington, DC 20515

    Dear Congressman DeLay:

    I am writing in support of H.R. 4504 and thank you for your 
attention to the important issues contained in this bill.
    My husband and I have been foster/adoptive parents for over 26 
years in Vista, California. We have cared for over 100 foster children 
and had the honor of adopting 8 wonderful children through the foster 
care system. I currently am the director of Straight From The Heart, 
Inc., a non-profit resource center for foster children and the families 
that care for them. In my capacity as a mentor for other foster 
parents, I regularly encounter frustrated families who are waiting and 
waiting for ICPC's to be completed so that their foster children may 
have permanence. A child can wait as long as 9 months before getting on 
a plane to their permanent families. This is so difficult for the 
children and families and I am pleased that you are taking action to 
speed up this process of permanence for our children.
    On a more personal note, I wanted to let you know how very 
important it is for foster parents to have a voice in court for the 
children they foster. Our eighth adopted child came to us as a newborn 
with Down Syndrome, heart surgery, endocrine imbalances, high heart 
rate, breathing difficulties, blindness, deafness, low muscle tone and 
of course drug exposure. She lived her first 34 days in intensive care 
unit at a Children's Hospital. She required early intervention in the 
form of Occupational, Physical and Developmental Therapies, and has 
Deaf and Hard of Hearing, Speech and Language, and Vision Consultants 
to meet her needs. We are entrusted with responsibilities of meeting 
the medical, physical, emotional needs of this special child, working 
with the birth parents, social workers, attorneys, doctors, therapists 
and so forth--and yet are not considered important enough to truly be a 
member of the ``team''.
    I assure you that no one member of the team knows more about the 
child than the caretaker. We are there for the nightmares, the 
bedwetting, the panic attacks, the acting out behaviors, the depression 
and the grief they suffer due to their abuses. We do the therapies, 
doctor appointments, homework, little league and the visitation with 
the birth parents. It makes no sense to ignore the caretaker as a vital 
member of the team, yet that is so often the reality for foster parents 
across this nation. Vital information is kept from us that hinders us 
from doing our jobs under the guise of ``confidentiality''. Foster 
parents struggle to have a voice in court. Some court rights have been 
given to us but need to be strengthened so that we can have our voices 
heard by the judge who makes life changing decisions for these 
children. The foster care system will improve with openness and 
inclusion of all members of the team who impact the life of the 
children we serve. There is no social worker, attorney, judge or doctor 
who impacts the lives of these children more than the foster parents 
who nurture them day in and day out.
    Thank you for caring about our children and caretakers and for 
putting that concern into action in H.R. 4504. Your efforts are truly 
appreciated.
    P.S. I have included a copy of our daughters court report that I 
submitted to the judge during one of her hearings as an example of the 
types of information foster parents can share with the court concerning 
the children in our care.
            Sincerely,
                                                        Patty Boles
                                                           Director
                                 ______
                                 
          Alexandria Juvenile and Domestic Relations District Court
                                         Alexandria, Virginia 22314
                                                       July 8, 2004
Majority Leader Tom Delay
H 107 Capitol
Washington, D.C. 20515

    Dear Congressman DeLay:

    I am pleased to write this letter in support of H.R. 4504, entitled 
the ``Orderly and Timely Interstate Placement of Children Act of 
20O4''. The Interstate Compact on the Placement of Children (ICPC or 
the Compact) is vital to the safe movement of certain at risk children 
from one state to another. While the ICPC is involved in a variety of 
case types, the primary area of concern with the Compact isthe movement 
of children in foster care between states. While assisting in 
protecting children, the ICPC also helps assurethat they receive 
necessary services once they arrive at their new place of residence.
    For too many years, however, the process involved in the movement 
of these vulnerable children who are in foster care has taken too long 
thus delaying permanency for them. Despite repeated studies of problems 
inherent in the ICPC, very little progress has been made to make it 
work more effectively since it came into use over 40 years ago.
    During the summer of 2003, The National Council of Juvenile and 
Family Court Judges (NCJFCJ) and the American Bar Association passed. 
Resolutions supporting the need for improvements in the ICPC. Over the 
past few years I have been, involved in efforts to improve the ICPC, 
including the drafting and passage of the Resolutions mentioned above.
    In addition NCTFCT will be considering the attached Resolution, 
that I have drafted at its upcoming Annual Meeting later this month. 
When the proposed Resolution passes, I will he pleased to provide you 
with a signed copy of it.
    While the proposed Federal legislation will not and cannot solve 
all of the problems inherent in the ICPC, it addresses as much as it 
reasonably should, given that the ICPC is a state compact. If the 
improvements offered through this legislation and the funding mentioned 
in the legislation i states will have every reason to ensure that the 
process is done expeditiously and that delays in movement of children 
are sharply reduced.
            Sincerely,
                                                 Stephen W. Rideout
                                                        Chief Judge
                                 ______
                                 

                               RESOLUTION

    WHEREAS, the INTERSTATE COMPACT ON THE PLACEMENT OF CHILDREN (ICPC) 
has been adopted by all fifty states, the District of Columbia, and the 
U.S. Virgin Islands; and
    WHEREAS, the ICPC has been found in many cases to cause delay in 
the placement of children with family member's who live in another 
state from where the child currently resides, interstate adoptions, and 
placement in residential facilities in these other states; and
    WHEREAS, the National Council of Juvenile and Family Court Judges 
on July 17, 1996, adopted a Resolution that supported improvements in 
the ICPC; and
    WHEREAS, since the passing of that Resolution, problems continued 
to exist with the effective implementation of the ICPC and the 
understanding of the ICPC by judges, lawyers, and social workers who 
are involved with these cases; and
    WHEREAS, the National Council of Juvenile and Family Court Judges 
and the American Bar Association, at their Annual Conferences in July 
and August 2003 adopted Resolutions supporting improvements in regard 
to the ICPC; and
    WHEREAS, proposed Federal legislation entitled the ``Orderly and 
Timely Interstate Placement of Foster Children Act of 2004'' has been 
introduced, which seeks to improve the ICPC process; that the proposed 
legislation, which is attached hereto, among other things (1) seeks to 
have the states expeditiously revise the ICPC to better serve the 
interests of children and reduce mnecessary paperwork (2) seeks to have 
ICPC home studies completed within 60 days of the receipt of the 
request in the receiving state either by the state agency of private 
provider (3) seeks to have the states make its decision concerning the 
interstate movement of the child in a timely manner (4) provides 
incentive moneys for timely ICPC home studies performed by the states 
(5) provides mechanisms for timely registry checks for prospective 
placements (6) requires states to provide health and education records 
to any child who leaves foster care by reaching the age of majority 
under state law (7) allows courts access to parent locator services to 
locate parents in foster care or adoptive placement cases, and (S) 
requires states to notify foster parents, pre-adoptive parents, and 
relative care givers of a child in foster care of any proceedings to be 
held with respect to the child; and
    WHEREAS, the National Council of Juvenile and Family Court Judges 
approves of the proposed legislation and encourages its passage by the 
Congress of the United States and enactment into Iaw:
    NOW THEREFORE, BE IT RESOLVED AS FOLLOWS:
    RESOLVED, That the National Council of Juvenile and Family Court 
Judges supports the proposed legislation and encourages its passage by 
the Congress of the United States and enactment into law.
                                 ______
                                 
                 National Association of Psychiatric Health Systems
                                               Washington, DC 20004
                                                       July 8, 2004
Representative Tom DeLay
House Majority Leader
H-107 Capitol Building
Washington, DC 20515

    Dear Majority Leader DeLay,

    The National Association of Psychiatric Health Systems (NAPHS) is 
pleased to support H. R. 4504, a bill that will improve protections for 
children and hold states accountable for the orderly and timely 
placement of children across state lines. This measure will improve and 
streamline the Interstate Compact on the Placement of Children (ICPG).
    NAPHS represents provider systems that are committed to the 
delivery of responsive, accountable, and clinically effective treatment 
for children, youth, and adults with mental and substance use 
disorders. Members are behavioral healthcare provider organizations, 
including 500 specialty hospitals, general hospital psychiatric and 
addiction treatment units, and mental health residential treatment 
centers.
    NAPHS strongly supports the limitation of the applicability of the 
Interstate Compact for the Placement of Children (1CPC) to children in 
foster care under the responsibility of the state except those seeking 
placement in a residential facility or hospital primarily to access 
clinical mental health services.
    Article II of the current ICPG clearly states that ``placement'' 
means the arrangement for the care of a child in a family home or a 
child caring agency or institution but does not include any institution 
caring for the mentally ill or any hospital or other medical facility. 
Unfortunately, regulations later adopted are contradictory and 
difficult to interpret--leading to confusion for States and providers,
    The inappropriate application of the ICPG to mental health 
residential placements has caused significant delay and harm to 
children and youth with serious mental health disorders without 
providing any additional protections or benefits.
    Mental health residential care and hospital programs differ from 
out-of-state adoptions or foster care placements in every way. Mental 
health residential treatment programs, like hospitals, are temporary 
and operate under an array of State and federal laws and regulations 
aswell as accrediting standards.
    Such placements are designed to provide active treatment in a 
therapeutic environment so that the child will be able, in the 
foreseeable future, to achieve treatment goals and be returned to 
thestate for follow through on next steps.
    Children needing such placement are in crisis and cannot wait for 
the ICPC process that could take an extended period of time. An 
unintended consequence of such delays is that children may deteriorate 
further or be held in inappropriate settings such as juvenile detention 
while waiting. Last, the placing state agency utilizes contracts or 
similar documents that detail, assure, and monitor treatment and 
services. Contracts are time limited and ensure that payment is 
reasonable and made according to state standards. (Further information 
on why the ICPC should not cover such placements is attached for your 
use and inclusion in the record as appropriate.)
    H.R. 4504 would eliminate confusion caused by the current ICPC and 
assure that public or private placements of children and youth made to 
residential care and hospitalsare not subject to the ICPC when the 
programs provide 24-hour care approved by the State for the purpose of 
providing clinical mental health services Again, thank you for your 
leadership on this issue. We are committed to working with you and are 
very supportive of H. R. 4504.
            Sincerely,
                                                        Mark Covall
                                                 Executive Director
                                 ______
                                 
                                            Consortium for Children
                                       San Rafael, California 94901
                                                       July 9, 2004
Congressman Tom DeLay
242 Cannon 11013
Washington, DC 20515

    Dear Congressman DeLay:

    Consortium for Children would like to express our support for your 
bill H.R. 4504 titled ``Orderly and Timely Interstate Placement of 
Children Act of 2004''.
    Placement across jurisdictions (states and counties) is a last 
choicefor most public agency adoption practioneers. Home Studies take 
an inordinate amount of time, the paperwork for interstate placement of 
children is burdensome and the timeframes lengthy. Interstate placement 
of children, as it currently exists, does not serve children or their 
prospective permanent families well.
    Due to the cumbersome and lengthy nature of inter jurisdictional 
placements public child wel f are agencies go to great length to 
identify permanent families within their own.jurisdiction before 
looking outside their purview. This practice can and does limit choices 
for children as well as extend their stay in the foster care system, 
Children who are waiting for permanent families should be viewed as 
``citizens cif the nation'' and all potential families be equally 
considered as a resource for a child no matter where they reside.
    H.R. 4504 will go a long way in ameliorating many of the issues 
mentioned above. The specified time frarnes flor home study completion, 
involving the judiciary, and Federal incentives mentioned in your hill 
should help ease the process as well as the perceptions about the 
inter-state placement cif children and, as a result, shorten their stay 
in foster care.
    For the above reasons the Hoard of Directors of`Consortium for 
Children supports H.R. 4504.
            Sincerely,
                                                        Kate Cleary
                                                 Executive Director
                                 ______
                                 
                                                          KidsPeace
                                       Orefield, Pennsylvania 18069
                                                       July 9, 2004
Representative Tom DeLay
House Majority Leader
H-107 Capitol Building
Washington, DC 20515

    Dear Majority Leader DeLay,

    KidsPeace is pleased to support H.R. 4504, a bill that will improve 
protections for children and hold states accountable for the orderly 
and timely placement of children across state lines. This measure will 
improve and streamline the Interstate Compact on the Placement of 
Children (ICPC).
    KidsPeace is a private charity dedicated to serving the critical 
behavioral and mental health needs of children, preadolescents and 
teens. Founded in 1882, KidsPeace provides specialized residential 
treatment services and a comprehensive range of treatment programs and 
educational services to give hope, help and healing to children facing 
crisis.
    KidsPeace strongly supports the limitation of the applicability of 
the Interstate Compact for the Placement of Children (ICPC) to children 
in foster care under the responsibility of the state except those 
seeking placement in a residential facility or hospital primarily to 
access clinical mental health services.
    Article II of the current ICPC clearly states that ``placement'' 
means the arrangement for the care of a child in a family home or a 
child caring agency or institution but does not include any institution 
caring for the mentally ill or any hospital or other medical facility. 
Unfortunately, regulations later adopted are contradictory and 
difficult to interpret--leading to confusion for States and providers.
    The inappropriate application of the ICPC to mental health 
residential placements has caused significant delay and harm to 
children and youth with serious mental health disorders without 
providing any additional protections or benefits.
    Mental health residential care and hospital programs differ from 
out-of-state adoptions or foster care placements in every way. Mental 
health residential treatment programs, like hospitals, are temporary 
and operate under an array of State and federal laws and regulations as 
well as accrediting standards.
    Such placements are designed to provide active treatment in a 
therapeutic environment so that the child will be able, in the 
foreseeable future, to achieve treatment goals and be returned to the 
state for follow through on next steps.
    Children needing such placement are in crisis and cannot wait for 
the ICPC process that could take an extended period of time. An 
unintended consequence of such delays is that children may deteriorate 
further or be held in inappropriate settings such as juvenile detention 
while waiting. Last, the placing state agency utilizes contracts or 
similar documents that detail, assure, and monitor treatment and 
services. Contracts are time limited and ensurethat payment is 
reasonable and made accordingto state standards. (Further information 
on why the ICPC should not cover such placements is attached for your 
use and inclusion in the record as appropriate.)
    H.R. 4504 would eliminate confusion caused by the current ICPC and 
assure that public or private placements of children and youth made to 
residential care and hospitals are not subject to the ICPC when the 
programs provide 24-hour care approved by the State for the purpose of 
providing clinical mental health services. Again, thank you for your 
leadership on this issue.
            Sincerely,
                                                 C.T. O'Donnell, II
                              President and Chief Executive Officer
                                 ______
                                 
               National Council of Juvenile and Family Court Judges
                                                 Reno, Nevada 89507
                                                       July 8, 2004
Majority Leader Tom DeLay
H 107 Capitol
Washington, D.C. 20515

    Dear Congressman DeLay:

    On behalf of the Executive Committee of the National Council of 
Juvenile and Family Court Judges (NCJFCJ), I am pleased to write this 
letter in support of H.R. 4504, entitled the ``Orderly and Timely 
Interstate Placement of Children Act of 2004''. As our organization 
will not hold its meeting to approve the attached Resolution until 
later this month, I am unable at this time to provide you with any 
other documentation of support from our organization. When the 
Resolution is passed, I will be happy to provide you with a signed copy 
of it.
    The Interstate Compact on the Placement of Children (ICPC or the 
Compact) is vital to the safe movement of certain at risk children from 
one state to another. While the ICPC is involved in a variety of case 
types, the primary area of concern with the Compact is the movement of 
children in foster care between states. While assisting in protecting 
children, the ICPC also helps assure that they receive necessary 
services once they arrive at their new place of residence.
    For too many years, however, the process involved in the movement 
of these vulnerable children, who are in foster care, has taken too 
long thus delaying permanency for them. Despite repeated studies of the 
problems inherent in the ICPC process, very little progress has been 
made to make it work more effectively since it came into use over 40 
years ago.
    Over the past few years our organization through the Advisory 
Committee of the Permanency Planning Department has supported efforts 
to improve the ICPC. During the summer of 2003, NCJFCJ and the American 
Bar Association passed Resolutions supporting the need for improvements 
in the ICPC.
    While the proposed Federal legislation will not and cannot solve 
all of the problems inherent in the ICPC, it addresses as much as it 
reasonably should, given that the ICPC is a state compact. If the 
improvements offered through this legislation are put in place and the 
funding mentioned in the legislation is appropriated, states will have 
every reason to ensure that the ICPC Home Study process is done 
expeditiously and that delays in the interstate movement of children 
are sharply reduced.
            Sincerely,
                                                       James A. Ray
                                                          President
                                 <F-dash>

    Mr. DELAY. Thank you, Mr. Chairman. I would also like to 
welcome my old colleague, Mr. Frenzel, who I had also the 
distinctive pleasure of serving with such a distinguished 
gentleman over the years and really appreciate the work that he 
has done in this area with the Pew Foundation. I also would 
like to welcome Sam Sipes to the hearing. In the interest of 
full disclosure, Sam is actually a personal friend of mine. I 
don't know if that helps him or hurts him, but he also is 
working with my wife and myself in trying to find new ways of 
providing safe, permanent, and loving homes for foster children 
by creating a community of foster homes in my district. His 
organization is helping us. In fact, it may be a partner in 
that.
    Sam is President and Chief Operating Officer of the 
Lutheran Social Services of the South (LSS), which is a 
nonprofit organization that each year serves more than 25,000 
of the children, elderly, and poor in Texas and Louisiana 
Protection Services, LSS has a 123-year history of serving the 
State of Texas, my home State. Sam holds a master's degree in 
social work from the University of Texas at Austin and I am 
just very thankful that he is here today representing LSS and I 
am very grateful for his support of H.R. 4504. I thank you, Mr. 
Chairman, for the time.
    Chairman HERGER. Thank you, Mr. DeLay. With that, our first 
witness is the Honorable Bill Frenzel, Chairman of the Pew 
Commission on Children in Foster Care.

        STATEMENT OF THE HON. WILLIAM FRENZEL, CHAIRMAN,

           PEW COMMISSION ON CHILDREN IN FOSTER CARE

    Mr. FRENZEL. Mr. Chairman, Mr. Cardin, ladies and gentlemen 
of the Subcommittee, Majority Leader DeLay, thank you very much 
for inviting me. After all those nice words, I will probably 
ascend directly into heaven before your very eyes.
    [Laughter.]
    I thank you for uttering them. My statement has been 
submitted. It is a little longer than the Iliad and somewhat 
shorter than the Clinton biography----
    [Laughter.]
    So, I am not going to read it. I will proceed, if I may. 
Probably while I was recognizing Congressman DeLay, I ought to 
say that our commission, of course, was not aware of his bill 
or the details of his bill as we were going forward, but we 
agree that that is an important field that has to be reformed 
and we are very glad that he has submitted a bill and that many 
of you seem to be interested in it. I am also speaking for Bill 
Gray, which you have already noted, and let the record state I 
am not trying to claim an extra 5 minutes.
    [Laughter.]
    Bill has been a great performer on our commission and he 
wishes he could be with us today. I am not going to repeat the 
words of our report except to say that our commission started 
and ended every session that it held with an examination of 
what we called our child-centered principles, and while we 
started with about 16 and worked our way down to probably half 
that number, in shorthand, we used the phrase on the first page 
of my testimony, and that is that every child needs a safe, 
permanent, loving family.
    This was the centerpiece of our deliberation. Each time we 
took on a tough chore and had to reach a compromise where 
certain of our members had to give, we always reverted to our 
principles. We also had some special goals besides that. We 
wanted to be sure that we got the incentives right in the 
financing system, that is that States didn't have an incentive 
to keep children within the foster care system, that the 
incentives were to get out, that there was an incentive to 
improve workforce performance, that other incentives were 
included. One of our goals was flexibility. We wanted to be 
sure that the operators of the system who knew what they needed 
in their own areas had the opportunity to make choices in 
relation to the work that confronted them. Finally, we wanted 
to improve the accountability for the operators of the system 
because we think that is very important, too.
    Mr. Chairman, our bills are very similar, that is, the Pew 
Commission's recommendation and the so-called Herger draft. We 
congratulate you for that. I don't know if you are brilliant or 
we are. I think, rather, it is that the same kinds of subjects 
come up whenever improvement of the foster care system is 
discussed and so perhaps we stumbled down the same alleys 
together and came to similar conclusions. There are a few 
places where I would like to make some of those suggestions 
that you have invited from us and I think you will find them 
quite similar to some of the suggestions Mr. Cardin has already 
made.
    In the first place, we suggested that an entitlement be 
retained for the foster care maintenance costs. We debated this 
very heavily, because we talked about full grant, retaining 
entitlements, capping entitlements, having entitlements 
decline, and so forth. We came to the conclusion as a matter of 
compromise that financing of these expenses is a shared 
Federal-State responsibility for which the States need some 
kind of a guarantee and some kind of a safety net, and I do not 
denigrate the safety net that you have put in your bill. It 
seemed to us that the operators really had to be on board and 
they were very strongly believing that they needed this 
continuing entitlement. The crack cocaine epidemic already 
mentioned is still green in their memories and they have their 
worries. They are also always nervous about grants being cut 
back or eliminated.
    The other suggestion, main suggestion that we have with 
respect to your bill, Mr. Chairman, is our suggestion for 
subsidized guardianship. Thirty States have some form of 
guardianship which they support. The incentives in the system 
today build an over-reliance on foster care, and a State that 
is paying foster care, is being paid foster care by the Federal 
Government, has little incentive other than the adoption 
incentive to move children out.
    We believe a subsidized guardianship payment will really 
help achieve permanence and these safe homes that we want for 
children. Now, we have taken great care to structure our 
recommendation so that there are very strong lines, deep lines 
drawn in the sand, which include, of course, that the child has 
to be in the system already, has to be in the system for a 
fairly long time, and that the court has to make a 
determination that neither reunification nor adoption are 
options, and that there has to be some kind of demonstrated 
attachment between the child and the guardian.
    We do note that in the State of Illinois, a pioneer in the 
guardianship system, adoptions continued to rise. We don't look 
on them as competitive, but rather guardianship is an extra leg 
of the stool of permanence for these children. Now, we also 
included in our bill a permanence incentive and a workforce 
performance incentive. We hope that as you and the Committee 
leadership work on improving this bill--it seems impossible to 
think it could be improved.
    [Laughter.]
    We hope you will look at maybe changing the bill. We hope 
you will look at those particular items. Mr. Chairman, I can't 
say enough for your leadership in producing this draft and 
moving forward. The Commission, I am sure, is just delighted 
that you are taking this tack. We like what you are doing. Of 
course, as a Commission, we are stuck with our own 
recommendation. Naturally, we are going to be for us, but it 
doesn't mean we are not for you. We are very proud of you and 
we look forward to working with every Member of your 
Subcommittee and other Members of Congress, like Mr. DeLay, in 
moving a bill, and as has been suggested twice, we hope that it 
is a bipartisan bill because that is the history in this field. 
Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Frenzel follows:]

         Statement of The Honorable William Frenzel, Chairman,
               Pew Commission on Children in Foster Care

    Chairman Herger, Mr. Cardin and Members of the Subcommittee, thank 
you for the opportunity to appear before you today. I am testifying on 
behalf of the Pew Commission on Children in Foster Care. In particular, 
I am joined in my testimony by the Commission's Vice Chair, former 
Congressman Bill Gray, whose schedule did not permit him to attend 
today.
    On behalf of the Commission, we thank the Members of the 
Subcommittee for their continued commitment to improving outcomes for 
children in foster care. We also thank the staff, both majority and 
minority, for their dedicated work on this issue.
    The Pew Commission on Children in Foster Care shares this 
Committee's desire to protect children from abuse and neglect, and 
ensure that they all have safe, permanent families. Efforts to help 
children who have suffered abuse and neglect have traditionally 
benefited from strong bipartisan support, and today's hearing embodies 
the ongoing efforts of leaders from both parties and all branches and 
levels of government to ensure that the nation does a better job of 
caring for children in foster care.
    Supported by a grant from The Pew Charitable Trusts, the Commission 
examined two key aspects of the foster care system: Federal child 
welfare financing and court oversight of child welfare cases. Our 
charge was to develop far-reaching, yet achievable recommendations to 
improve outcomes for children in the foster care system. On May 18 of 
this year, the Commission released its final report and 
recommendations. Our full report, ``Fostering the Future: Safety, 
Permanence and Well-Being for Children in Foster Care'' and all 
supporting materials can be found on the Commission's web site at 
www.pewfostercare.org.
    Throughout an intensive year of work, we were guided by the 
principle that every child needs a safe, permanent family. This was the 
starting point for the Pew Commission and a steady compass throughout 
our deliberations. We revisited this principle at every meeting to 
ensure that our final recommendations were totally focused on producing 
better outcomes for children.
    Federal financing and court oversight are at the root of many of 
the problems that frustrate child welfare administrators, case workers 
and judges as they seek to move children quickly from foster care to 
safe, permanent homes--or to avoid the need to put them in foster care 
in the first place. Indeed, reform in these two areas could pave the 
way for significant improvements in how the nation cares for children 
who have been abused or neglected.
    As a Commission, we sought to craft practical recommendations that 
could win the support of Congress, the Administration, State officials, 
State court leadership, and the children and families involved with the 
child welfare system. We are encouraged by the positive responses we 
have received thus far from these key audiences, and we are honored to 
have the opportunity to share our recommendations with this 
Subcommittee today.

Financing Child Welfare
    As you know, current Federal funding mechanisms for child welfare 
encourage an over-reliance on foster care, at the expense of other 
services to keep families safely together and move children swiftly and 
safely from foster care to permanent families. Toward this end, the 
Commission proposes a fundamental restructuring of existing financial 
resources, as well as targeted new investments that will provide real 
returns to our children and our nation. We call for strong incentives 
for States to focus on permanency, a secure and reliable Federal-State 
funding partnership, greater flexibility for States in how they can use 
Federal dollars to respond to the needs of children and families, and 
greater accountability for improving outcomes for children.
    Mr. Chairman, we greatly appreciated the opportunity to review your 
very thoughtful discussion draft. Many of its provisions are consistent 
with the recommendations of the Pew Commission. Your draft is a very 
positive step forward, and we commend you for that. We also thank you 
for this opportunity to suggest some changes and additional provisions 
that reflect our recommendations and that we believe would enhance your 
legislative efforts to improve outcomes for children.
    Let me begin with the Commission's financing recommendations.
    We call for preserving both foster care maintenance and adoption 
assistance as an uncapped Federal entitlement to the States--but with 
some improvements, based on our strong conviction that all children who 
are abused or neglected deserve the joint protection of their State and 
the Federal government. Specifically, we call for eliminating income 
requirements for Federal foster care and adoption assistance--or ``de-
linking'' from the 1996 AFDC income standards--and for treating Indian 
tribes and U.S. Territories as States when it comes to administering 
child welfare programs for their children. We were pleased that you 
include both of these provisions in your draft legislation.
    We also called for the de-link to be cost-neutral to both the 
Federal government and the States and to be structured in such a way 
that it avoids creating fiscal winners and losers among the States.
    Our recommendation of cost neutrality in this provision was one of 
many difficult choices we had to make as a Commission. We were very 
cognizant of the Federal deficit and of the difficult budgetary climate 
in the States. We worried about creating the potential for States to 
supplant existing State foster care dollars with new Federal dollars, 
in essence shifting costs from the States to the Federal government 
without any net increase in child welfare funding. In the end, we 
decided that we wanted new investments in child welfare to go to 
preventing the need to place children in foster care and to services 
that will help children leave foster care quickly and safely.
    Your draft currently caps foster care maintenance payments. We 
recommend maintaining that entitlement without a cap. The members of 
the Pew Commission feel strongly that protecting children who cannot 
stay safely in their own homes is a shared Federal-State 
responsibility--and that the Federal government should maintain its 
responsibility, especially if the need for foster care increases 
dramatically for reasons beyond the control of State policymakers, as 
was the case in the early 1990s.
    Mr. Chairman, we recognize that you designate the TANF Contingency 
Fund as a safety net for States that experience severe increases in 
foster care. In a capped system, a contingency fund is essential. But 
in our deliberations, we concluded that an uncapped system was a better 
approach, in part because the Contingency Fund is hard for States to 
access in a timely manner and may not contain sufficient funds to 
respond to a nationwide surge in the need for foster care.
    Nevertheless, we share your goal of reducing the over-reliance on 
foster care that the current funding structure encourages--we just 
differ in how to do so. The Pew Commission recommends options and 
incentives that together provide very powerful encouragement to the 
States to seek out safe alternatives to foster care. These include an 
additional route to permanency through subsidized guardianship, 
increased flexibility in how States can use Federal child welfare 
dollars to meet children's needs, the opportunity for States that 
reduce their foster care use to reinvest the Federal dollars saved in 
services to children, and the provision of bonuses to States that 
increase all forms of safe permanence. The experience of the very 
successful Adoption Incentive Program clearly demonstrates that, when 
the Federal government provides incentives to States to achieve certain 
goals, States will respond.
    Mr. Chairman, you include two of these incentives in your 
discussion draft--creating a flexible Safe Children, Strong Families 
Grant and allowing States to reinvest unused foster care funds in that 
grant. We hope that you will also include our other two provisions as 
well, so that States have every opportunity and every reason to put 
their energy into reducing the need for foster care.
    In particular, we strongly urge you to include our recommendation 
to provide Federal guardianship assistance to children who leave foster 
care to live with a permanent legal guardian. This would provide an 
additional route to permanence for some children in foster care. In 
developing this recommendation, we were particularly sensitive that it 
not adversely affect adoptions from foster care. We were therefore 
careful to draw ``bright lines'' that clearly define when a court could 
determine that guardianship would be appropriate for an individual 
child. Specifically, we say that guardianship assistance should be 
available only when all of the following circumstances exist:

    <bullet>  When a child has been removed from his or her home and 
the State child welfare agency has responsibility for placement and 
care of the child;
    <bullet>  When a child has been under the care of the State agency 
for a given period of time, to be determined by the State;
    <bullet>  When a court has explicitly determined that neither 
reunification nor adoption are viable permanency options for a 
particular child; and
    <bullet>  When a strong attachment exists between a child and a 
potential guardian who is committed to caring permanently for the 
child.

    We further recommend that Federal requirements related to 
guardianship assistance be consistent with Federal requirements related 
to foster care and adoption. For example, States would have to conduct 
a criminal record check before a guardianship is approved.
    Under the Title IV-E waiver program, several States have obtained 
waivers to test subsidized guardianship programs as part of an overall 
effort to increase permanence for children involved in the child 
welfare system. One of these States, Illinois, has completed an 
extensive evaluation of its guardianship program. The evaluation found 
that over five years, subsidized guardianship provided permanence for 
more than 6,800 children who had been in foster care, and that 
discussing all permanency options helped to increase the number of 
adoptions. In fact, during that same period, Illinois experienced 
increases in both guardianships and adoptions from foster care.
    We were pleased that your draft bill includes a flexible grant that 
combines Title IV-E Administration and Training and Title IV-B and 
includes guaranteed funding increases every year. This is consistent 
with the Commission's recommended Safe Children, Strong Families Grant. 
States need both flexibility and additional funds to build a continuum 
of child welfare services. They also need the assurance that those 
funds will grow at a predictable rate. The Commission recommends that 
these funds grow according to an index--specifically, 2 percent plus 
the CPI. Your draft legislation calls for annual growth of $200 million 
for 10 years.
    We further recommend that, when States safely reduce the use of 
foster care, they be permitted to reinvest the Federal dollars they 
would have expended into their Safe Children, Strong Families Grant--so 
long as they also reinvest the State dollars that are saved from 
reducing foster care. This provides another incentive for States to 
focus on permanence and provides an additional potential source of 
funding for the Safe Children, Strong Families Grant. Your draft bill 
includes a similar reinvestment provision. Because we recommend that 
foster care maintenance remain an uncapped entitlement, we would not 
allow these funds to be reserved for foster care maintenance in later 
years.
    To promote innovation and improved practice, we call for new 
incentives for improvements in the child welfare workforce and for 
promoting all types of safe permanency. For States that meet certain 
workforce targets, the Federal government would provide a one 
percentage point increase in the match rate for the Safe Children, 
Strong Families Grant. The enhanced match rate would provide an 
incentive for States to continue to make investments in two critical 
areas: (1) improving the competence of the overall workforce and (2) 
lowering caseloads. If we are going to demand better outcomes from 
child welfare systems, then we must be prepared to invest in improving 
the quality of the child welfare workforce. Mr. Chairman, we urge you 
to consider adding these workforce incentives to your bill.
    To help children move out of foster care and into safe, permanent 
families as quickly as possible, we also recommend that Congress create 
a new Permanence Incentive modeled on the successful Adoption 
Incentives Program recently reauthorized by this Subcommittee. Under 
our plan, States would receive incentive payments for increasing the 
percentage of children who leave foster care through one of three paths 
to safe permanence: adoption, guardianship, or reunification. To be 
eligible for any payment, States would have to maintain or increase its 
rates in all three areas.
    Finally, we call for stronger accountability through improvements 
to the current Child and Family Services Reviews process, which we hope 
you will include in your bill. Specifically, we recommend that the 
CFSR's include more and better measures of child well-being and use 
longitudinal data to yield more accurate assessments of performance 
over time. We call on Congress to direct the National Academy of 
Sciences to convene an expert panel to recommend the best outcomes and 
measures to use in data collection. In addition, we recommend that the 
U.S. Department of Health and Human Services direct a portion of any 
penalties resulting from the review process into a State's Program 
Improvement Plan.

Strengthening Courts
    Let me turn now to the courts. The Commission recognized that when 
effective financing reforms are coupled with important court reforms, 
the result is better outcomes for children. Mr. Chairman, we were 
delighted to see provisions in your draft that reflect this same 
understanding.
    For years, the courts have been the unseen partners in child 
welfare--yet they are vested with enormous responsibility. No child 
enters or leaves foster care without a judge's decision. Courts are 
responsible for ensuring that public officials meet their legal 
responsibilities to keep children safe, secure permanent homes for 
them, and promote their well-being when they are under the State's 
protection.
    Despite this critical role, the dependency courts often lack 
sufficient tools, information, and accountability to move children 
swiftly and safely out of foster care and into permanent homes. The Pew 
Commission's recommendations focus on ensuring that courts have what 
they need to fulfill their responsibilities to children and to the 
public trust.
    First, we call on every dependency court to adopt performance 
measures and use this information to improve their oversight of 
children in foster care. When judges can track and analyze their 
caseloads, they can identify and deal with sources of delay that keep 
children in foster care longer than may be necessary. They can also 
identify groups of children in their caseload who may require special 
attention. Case tracking also provides critical information to Chief 
Justices as they assess the needs and overall performance of the 
dependency courts. We built our recommendation here on substantial work 
done by the American Bar Association's Center on Children and the Law, 
the NationalCenter for State Courts, and the National Council of 
Juvenile and Family Court Judges.
    Your discussion draft includes provisions related to the Court 
Improvement Program. In particular, it includes tracking court 
performance measures as an important component of the program, which we 
applaud. It also includes guaranteed funding for the Court Improvement 
Program at a higher level than is currently projected--about $7 million 
in new funds every year. We recommended $10 million in the first year 
specifically to jump-start tracking of court performance measures and 
such sums as necessary in future years. We commend you for guaranteeing 
Court Improvement Program funding for 10 years, and hope you will 
consider increasing the funding level and designating funds 
specifically for tracking court performance measures. The success of 
the Court Improvement Program is strong evidence of the value of 
investing in improvements in the nation's dependency courts.
    Second, although they share responsibility for these children, 
courts and agencies often don't do a good job of communicating or 
working together. We recommend incentives and requirements for 
effective collaboration between courts and child welfare agencies on 
behalf of children in foster care. These include new requirements that 
States and courts describe this collaboration in their State plans and 
Court Improvement Program plans, as well as joint training and the 
establishment of State foster care commissions that can promote this 
collaboration. Your discussion draft includes requirements for State 
plans, and we urge you to add court-agency collaboration to that list. 
We also urge you to consider additional funding to promote joint 
training by courts and child welfare agencies. The Pew Commission 
recommended an additional $10 million to courts, both for training 
court personnel and for joint training of court and child welfare 
staff.
    Third, we recommend several measures to give children and parents a 
stronger voice in court and more effective representation. For example, 
we call on Congress to appropriate $5 million for expansion of the 
Court Appointed Special Advocates program. We also call on State courts 
to require training for attorneys practicing in this field and for 
courts to be organized in a way that permits and encourages direct 
participation by children in proceedings that affect their lives.
Conclusion
    Children deserve more from our child welfare system than they are 
getting now. For this to happen, those on the front lines of care--
caseworkers, foster parents, judges and others--need the support 
necessary to do their jobs more effectively. And the public needs to 
know that, with this support, every part of the chain of care--from the 
Federal government to the States to the courts--can reasonably be held 
to high standards of accountability for the well-being of children.
    The Commission's firm resolve is to ensure that all of our 
recommendations--taken together--promote greater safety, permanence, 
and well-being for abused and neglected children, while also ensuring 
greater public accountability for what happens to every child whose 
life we touch. Our proposals are the result of hard choices and 
difficult compromises. This Subcommittee faces similar challenges. We 
hope our work can provide common ground for your discussions going 
forward.
    In closing, we would like to thank the Subcommittee again for the 
opportunity to discuss our recommendations. On behalf of the Pew 
Commission on Children in Foster Care, we look forward to working with 
every Member of this Subcommittee and their staff to implement reforms 
to improve outcomes for children in foster care.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Frenzel. Again, I 
want to thank you for your longtime work in the U.S. Congress 
and specifically for your work in this area, which is so 
important for those young people, those children most in need. 
Thank you very much for your work, and the work of your 
commission. Now, Dr. Arnold-Williams to testify.

 STATEMENT OF ROBIN ARNOLD-WILLIAMS, EXECUTIVE DIRECTOR, UTAH 
 DEPARTMENT OF HUMAN SERVICES, SALT LAKE CITY, UTAH, ON BEHALF 
       OF THE AMERICAN PUBLIC HUMAN SERVICES ASSOCIATION

    Dr. ARNOLD-WILLIAMS. Mr. Chairman and Members of the 
Subcommittee, I am pleased to join you today to testify on 
behalf of the APHSA. The Child and Family Service Review (CFSR) 
baseline results reveal the many challenges States face in 
achieving safety, permanency, and well-being for children in 
our care, but improvements are being made and we have achieved 
noteworthy increases in adoptions and family reunifications.
    State Administrators have focused efforts and resources on 
implementing the requirements of the Adoption and Safe Families 
Act (ASFA) (P.L. 105-89), and developing program improvement 
plans (PIPs) to achieve improved outcomes for children. At the 
same time, fewer children are supported with Federal funds due 
to the ``look back'' provision. In Utah, since 2002, our Title 
IV-E penetration rate for foster care has dropped from 54 to 50 
percent and adoption has fallen from 77 to 72 percent. The 
APHSA has consistently supported a full Federal-State 
partnership for every child in the child welfare system and we 
commend you for proposing legislation that addresses that goal.
    However, the draft legislation proposes to reduce all State 
Federal medical assistance program (FMAP) rates by 35 percent 
for foster care and by 15 percent for adoption. Under this 
mandatory approach, States would be dissimilarly affected. 
States that have a high Title IV-E penetration rate would be 
more negatively impacted. We understand your fiscal 
constraints. Therefore, we urge the Subcommittee to give States 
the option to either retain current law or opt into the new 
formula.
    The draft legislation would impose an annual cap on funds 
available for Title IV-E foster care maintenance. We commend 
the Chairman for allowing the funding to increase over time and 
for allowing State reinvestment of any savings. However, we 
have several concerns. First, for States that have already 
reduced their foster care caseloads, the potential for savings 
and thus reinvestment is limited. Second, we believe each State 
should have a baseline that reflects their projected annual 
rate of growth, independent of an a national one. Third, we 
applaud recognition that Title IV-E funds ought to be used for 
services as well as for maintenance payments. However, crises, 
such as the increasing use of methamphetamines in several 
States, have resulted in caseload increases and limit the 
savings for reinvestment.
    Finally, the National Contingency Fund triggers may be set 
so high that an individual State may never be able to access 
them. Again, we recommend making the guaranteed payment level a 
State option and not a mandate. We must strongly oppose the 
provision capping Federal funding for caseworkers and training. 
Child welfare staff courageously work in one of the most 
challenging professions in this country and we struggle to 
recruit, retain, and reward them. Capped Federal funding is a 
step in the wrong direction. The base years for calculating the 
administrative cap are problematic. For example, last year, 
Utah added 51 caseworkers and trainers, but their funding would 
not be reflected in the baseline.
    Subsidized guardianship provides for stable and permanent 
placements for children and APHSA believes that waiver 
demonstrations have proved it is time to amend Title IV-E to 
allow States to fund this option. Despite renewed emphasis on 
accountability and program improvement through the CFSR 
process, Title IV-E funds cannot be used to achieve many of the 
mutually agreed-on goals in our PIPs. Given the large Federal 
role in developing and approving PIPs, APHSA proposes States be 
permitted to use Title IV-E funds for any purpose approved 
under their PIP. We would agree to continued evaluation to 
determine whether they make a difference in performance and 
whether that should continue.
    For example, in Utah's PIP, one of the primary areas for 
which Title IV-E will not be able to be expended is child well-
being in in-home cases. We currently serve nearly twice as many 
families with in-home services as we do out of home. Title IV-E 
funds cannot be used for activities in those cases, like family 
involvement in case planning, worker visits, and providing 
physical and mental health care. Although we did well on other 
portions of the CFSR, other States are struggling to find 
resources on several safety outcomes, including services to 
protect children, prevent removal, and reduce risk of harm.
    With respect to the Interstate Compact on the Placement of 
Children (ICPC), APHSA has embarked on a comprehensive reform 
and we commend Majority Leader DeLay on his leadership in this 
area. House Resolution. 4504 would impose a 60-day limit on the 
completion of home studies. States would be at risk of losing 
their Title IV-E funds for noncompliance. While we understand 
the goal of reducing the length of time to complete a home 
study, we have no data to suggest the 60-day timeframe will, in 
fact, expedite placements. We recommend adding a ``reasonable 
cause'' exception for failure to meet the 60-day limit, such as 
a delay in FBI background checks. Given that the ICPC is a 
direct agreement between the States, we also urge inclusion of 
language restricting the Secretary from regulating home study 
definitions. In conclusion, we look forward to working with the 
Subcommittee to devise a Federal financing construct that can 
help States meet the needs of children and families we serve. 
Mr. Chairman, we thank you for your leadership on this 
important issue and I would be happy to answer any questions 
when that time comes. Thank you.
    [The prepared statement of Ms. Arnold-Williams follows:]

  Statement of Robin Arnold-Williams, Ph.D., Executive Director, Utah 
 Department of Human Services, Salt Lake City, Utah, on behalf of the 
               American Public Human Services Association

    Good morning, Mr. Chairman and members of the Sub-Committee. I am 
Robin Arnold-Williams, executive director of the Utah Department of 
Human Services. I am pleased to join you today to testify on behalf of 
the state of Utah and the American Public Human Services Association 
(APHSA), a nonprofit, bipartisan organization representing state and 
local human service professionals for more than 70 years. Thank you for 
the opportunity to testify on improving the financing of child welfare 
in this country and the reform of the Interstate Compact on the 
Placement of Children.

Commitment to Accountability and Achieving Positive Outcomes
    APHSA would like to commend the subcommittee for dedicating a 
significant amount of time to child welfare through the six hearings 
that have been held within the last year. States realize that the 
baseline results of the Child and Family Services Reviews (CFSRs) 
revealed that we have many challenges to overcome to achieve positive 
outcomes for children and families. Having said that, states are 
focused on the goals of achieving safety, permanency and well being for 
all children in our care. Over the past several years, we have achieved 
noteworthy increases in the number of adoptions and family 
reunifications.
    APHSA and states have had a long-standing interest in moving the 
child welfare system from one that is process-driven to one that is 
outcomes-focused with success measured by positive outcomes for 
children. States are committed to quality services for children and 
families and rise to the challenge of being accountable for achieving 
outcomes.
    In order to continue on the path of improving outcomes for all 
children and to attain positive results, the child welfare system must 
have the necessary capacity to achieve those goals, i.e., sufficient 
and appropriate financial and service resources and well-trained staff 
with manageable workloads to implement appropriate and best practice 
interventions that will yield positive results for children and 
families.

Child Welfare Financing Reform Needed to Support the Achievement of 
        Positive Outcomes

De-Linking
    Over the past several years, the demands on the child welfare 
system have increased significantly. State administrators have focused 
their efforts and resources on implementing the requirements of the 
Adoption and Safe Families Act through the federal CFSR process and 
developing program improvement plans (PIPs) in partnership with the 
federal government to achieve improved outcomes for children with 
respect to safety, permanency and well being. At the same time, fewer 
and fewer children served in the child welfare system are supported 
with federal funds, due to the ``look back'' provision of the welfare 
reform act that links Title IV-E eligibility to the former AFDC 
eligibility rules in effect as of July 16, 1996. In my own state of 
Utah, our Title IV-E penetration rate for foster care has dropped from 
54% in FY 2002 to 49.8% today; our adoption subsidy penetration rate 
has fallen from 77% to 72% over that same two-year period.
    The federal accountability measures under which states are reviewed 
and the subsequent PIP goals apply to every child in the child welfare 
system. However, federal financial participation for every child in the 
child welfare system does not currently exist. We commend the Chairman 
for proposing draft legislation that begins the dialogue on how best to 
reform federal child welfare financing. APHSA has consistently 
supported the idea of a full federal and state partnership for every 
child in the child welfare system.

Reduction in Federal Matching Rate to Expand Eligibility
    The draft legislation proposes to reduce all state FMAP rates by 
35% for foster care maintenance and by 15% for adoption assistance and 
allow all children to be covered under IV-E funding. Under this 
mandatory change, states would be dissimilarly affected. States that 
have worked hard to achieve a high IV-E penetration rate would be more 
negatively impacted by the adjustment in the federal match rate and may 
in fact face a situation of receiving less federal resources than under 
the current system. In light of the fiscal difficulties in the states, 
and the uncertainty related to the rising cost of child welfare, 
caseload dynamics and other factors, we urge the subcommittee to 
consider giving states the option to either retain current law or to 
opt into the new formula.

Guaranteed Foster Care Maintenance Payment Levels
    The draft legislation would impose an annual cap on the amount of 
federal funds available for IV-E foster care maintenance payments based 
on Congressional Budget Office projections. We commend the Chairman for 
allowing the funding to increase over time and for allowing state 
reinvestment of any savings. However, we have several concerns. First, 
over the past few years, states have worked diligently to bring their 
foster care caseloads down. Locking in the low caseload numbers from 
these years as a baseline for assessing any savings would limit the 
amount of funds that would be available for reinvestment in the future. 
Second, we are concerned with the state baselines that would be derived 
from the national baseline. Due to the differences among states, we 
believe each state should have a baseline that reflects their projected 
annual rate of growth over time. It is also important to note that the 
projected national baseline in the draft legislation is reflective of 
the IV-E eligible population alone. When states merge IV-E and non IV-E 
caseload trends and expenditures, the baseline may be dramatically 
adjusted upward. Third, we applaud the recognition that IV-E funding 
ought to be used for services to children and families as well as for 
maintenance payments. The ability to use savings resulting from 
declining foster care caseloads is very positive. However, crises, such 
as the increase in the use of methamphetamine in several states, have 
resulted in an increase in caseloads. States that are contending with 
such factors may not be able to take advantage of reinvesting any 
savings from a reduction in caseload. Again, we recommend making the 
guaranteed payment level proposal a state option and not a mandate.

Safe Children, Strong Families Programs
    While we believe there are ways to address the de-linking and 
guaranteed payment level provision of the draft legislation, we must 
strongly oppose the Safe Children, Strong Families provision that would 
cap federal funding for caseworkers and the training that supports 
their work. Caseworkers are the crucial link to the services children 
and families need. States must rely heavily on direct casework to 
achieve goals set forth within PIPs, consent decrees and state 
legislative requirements. Child welfare professionals courageously work 
in one of the most challenging professions in this country. The jobs 
performed by caseworkers have become more complicated as the challenges 
faced by families in the child welfare system have become increasingly 
complex. Child welfare systems throughout the country struggle to 
recruit, retain, and reward these dedicated professionals. Caseworkers 
face many barriers and constraints as they work to achieve safety, 
permanency and well being for children.
    According to a presentation by Children's Bureau staff at the June 
2004 Biennial Child Welfare conference, preliminary findings from the 
CFSRs indicate that strong correlations exist between caseworker visits 
with families and timely reunification, placement stability, services 
to protect children at home, relative placements, and meeting 
educational, mental health, and physical health needs.
    Under this proposal, the base years used for calculating fixed 
administrative funding are problematic. Fiscal years 2001-2003 may be 
the lowest years for expenditures in some states due to state budget 
crises. In addition, states that provide training which is not 
currently IV-E reimbursable to caseworkers with private agencies that 
serve the same children, states that have added new caseworkers in 2004 
and those that may add workers in subsequent years will not have the 
resources included in this block grant. In light of future staffing 
needs, training and salary increases over time, states would have to 
choose between fewer trained caseworkers or funding for critical 
services. Eliminating the federal financial partnership in the 
recruitment and training of quality workers would be a step in the 
wrong direction.

Subsidized Guardianship
    We appreciate the inclusion of the H.R. 4 language to expand child 
welfare waiver options for states. However, it is unclear why a state 
would need a waiver under the Guaranteed Foster Care Maintenance 
Payment provision. In addition, we urge the Committee to allow states 
to use IV-E funds for subsidized guardianship; it provides for a stable 
and permanent placement for many of the children in the child welfare 
system. It is time to amend the IV-E statute to allow states to fund 
this option.

Achieving Program Improvement Plan Goals
    States must be able to access flexible funding streams to provide 
the services that are the foundation of child welfare practice. APHSA 
and states have been considering a proposal to fund the services needed 
to improve outcomes for children and families.
    Despite the federal government's renewed emphasis on accountability 
andprogram improvement through the CFSR process, IV-E funds cannot be 
used to achieve many of our mutually agreed-upon goals in our PIPs.  It 
is not enough to know what goals need to be achieved to help children 
and families in the child welfare system; the resources must also be 
available. For example, my state, Utah, has identified several areas in 
our PIP where we are going to be held to expectations by HHS for which 
we will not be able to access Title IV-E funds. One of the primary 
areas for which a federal dollar cannot be expended to achieve Utah's 
PIP goals is child well being as it pertains to in-home services cases. 
Specific expectations include assessing and meeting needs through 
services to children, parents and foster parents; family involvement in 
case planning; worker visits to children and to parents; and providing 
services to meet the physical and mental health needs of children. 
Although Utah did well on other portions of the CFSR, we realize that 
other states are struggling to find resources on several indicators in 
the CFSR for which federal funds are not accessible. These indicators 
include the safety outcomes related to services to families to protect 
children in home and prevent removal and reduce risk of harm to the 
child as well as the systemic factors related to quality assurance, 
responsiveness to the community and foster and adoptive parent 
licensing, recruitment and retention.
    The federal government requires the development of a PIP for the 
purpose of improving outcomes for all children in the foster care 
system and HHS must approve the contents of the state's PIP. Given the 
large federal role in developing the goals, APHSA proposes that states 
should be permitted to use IV-E funds for any purpose approved under 
the PIP. We could test over a period of time the extent to which these 
new investments improve performance under the CFSR. States would agree 
to continue to undertake evaluation based on the measures and methods 
specified in their PIP, as under current federal regulations.The 
research findings would be used to inform federal and state staff as to 
whether the IV-E dollars might be used to continue to fund certain 
initiatives under the PIP.

Reform of the Interstate Compact on the Placement of Children
    The Interstate Compact on the Placement of Children plays a 
necessary role for ensuring that children placed across state lines 
receive appropriate care and supervision. However, it has not been 
sufficiently amended in its 44-year existence. APHSA, as the 
Secretariat of the Association of Administrators of the ICPC, and based 
on recommendations from its' ICPC reform task force, has embarked on a 
comprehensive reform of the ICPC. A drafting and development team 
comprised of a broad and diverse set of stakeholders representing state 
commissioners, state and local child welfare directors, ICPC 
administrators, the American Academy of Adoption Attorneys, court 
administrators, the American Bar Association, Juvenile and Family Court 
Judges, National Indian Child Welfare Association, Child Welfare League 
of America, and the National CASA Association. We begin the work of 
redrafting the compact next week and will complete the process by the 
end of this year.
    APHSA appreciates Majority Leader DeLay's commitment to the reform 
of ICPC. H.R. 4504 would impose a 60-day time limit on the completion 
of home studies and penalize states with the loss of all their IV-E 
funding if they fail to meet this deadline. While we understand the 
goal of reducing the length of time taken to complete a home study, we 
have no data to suggest that the 60-day time limit will expedite 
permanent placements. We are also concerned that there could be 
practice implications if a promising placement was ignored, simply 
because a caseworker did not believe that a home study could be 
completed in time. Therefore, we recommend revising the proposed 
legislation to have a reasonable cause exception for failure to meet 
the 60-day limit. If, for example, all of the component parts of the 
home study are complete, but the state has not yet received the FBI 
background check information, then the state could continue the home 
study beyond the 60-day and not face a state plan disallowance. Also, 
we recommend that ACF dedicate research funding to study the impact of 
the 60-day time limit and the other barriers that may impede timely 
interstate placements. Finally, given that the Compact is a direct 
agreement between states, we urge the inclusion of language that would 
restrict the Secretary from overriding individual state definitions of 
a home study through regulation.

Conclusion
    When children are at risk and come to the attention of the child 
welfare agency, the agency can provide services and supports to them 
and their families to mitigate their problems and prevent them from 
being removed from their families and communities. When children must 
come into care, the agency can address children and family needs 
expeditiously and enable a safe reunification or, where that is not 
possible, find an alternative permanent placement expeditiously, while 
assuring their well being in the interim. The child welfare system has 
the capacity to improve outcomes for children and families and the 
federal government and states must be equal partners in serving all 
children in all parts of the system. The child welfare financing 
system, developed 24 years ago, no longer supports states' efforts to 
achieve this vision. We need reform and look forward to working with 
the subcommittee to devise a federal financing construct that can help 
states meet the needs of the most vulnerable children and families we 
serve.
    Mr. Chairman, thank you for your leadership on this important issue 
and I would be pleased to respond to any questions you may have.

                                 <F-dash>
    Chairman HERGER. Thank you very much, Dr. Williams. Now to 
testify, Ms. Patricia Wilson.

   STATEMENT OF PATRICIA WILSON, DIRECTOR, SOUTHERN REGIONAL 
            OFFICE, CHILD WELFARE LEAGUE OF AMERICA

    Ms. WILSON. Good afternoon, Mr. Chair, Members of the 
Subcommittee, and Congressman DeLay, CWLA appreciates this 
opportunity to offer testimony on behalf of our nearly 1,000 
public and private nonprofit child-serving member agencies. We 
especially are appreciative of the attention that this 
Subcommittee has brought to this important issue of child 
welfare reform. Child welfare financing reform is important to 
the future of the 500,000-plus children in foster care, the 
over 100,000 children awaiting adoptive placement, the 257,000-
plus families receiving adoption assistance, and the 1 million 
children receiving child protective services in their own home.
    Our testimony this afternoon highlights our understanding 
of the draft legislation put forth by Congressman Herger and 
the Pew Commission report. Both Pew and the draft legislation 
would make all abused and neglected children in foster care and 
adoptive placements eligible for Federal support at a reduced 
reimbursement rate. We urge careful consideration, as too 
severe a reduction in the rate of the Federal share could 
create an increased and unacceptable burden on the States.
    We strongly agree with the Pew recommendation to retain 
Title IV-E foster care maintenance as an entitlement for 
children in care. Maintenance, meaning food, clothing, shelter, 
and supervision, is extremely important and critical to the 
well-being of those children. The draft legislation caps the 
amount of Federal funds available for maintenance. We are quite 
concerned that with that proposal that all children become 
eligible and the Federal share of every dollar spent be 
reduced, the States are going to be also limited in the amount 
of Federal assistance they can receive.
    The draft legislation makes a provision for potential 
relief for States experiencing a severe foster care crisis. 
This is based on what would be a phenomenal growth in numbers 
on an annual basis. It does not take into account the needs of 
the children already in care. Both Pew and the legislation 
allow for the transfer of unspent excess Federal funds to be 
moved from maintenance into the services block grant. Based on 
States' current struggle to adequately cover the care for the 
children, the likelihood of excess funds seems remote. Unused 
transferred foster care funds should not be relied on as a 
primary source of funding for prevention and other services. An 
opportunity to transfer must be constructed in a way that does 
not create a disincentive for providing the care that children 
in placement need.
    One of the strongest recommendations of the Pew Commission 
was the inclusion of Federal support for subsidized 
guardianship and kinship placements. We support that. The draft 
legislation provides this only as a waiver option. We support 
the concept put forth by both the Pew Commission and the 
Subcommittee bill that would allow tribes and territories 
increased access to Title IV-E

funds. Both would create a new block grant for services 
entitled, ``Safe Children, Strong Families.'' This would 
combine current Title IV-E administrative and training funds as 
well as the Title IV-E funds. These are not new funds. These 
funds are being used today to support direct contact and work 
with children and families.
    Title IV-E administration pays for the face-to-face time 
that caseworkers spend with children in foster care, making 
case plans with them and for them, securing services for them, 
preparing for judicial hearings, and not to mention recruiting 
the foster parents and adoptive parents who serve them. Title 
IV-E training funds prepares the workforce as well as the 
foster and adoptive parents, while Title IV-B funds the 
services that enable children to remain in their own homes and 
to provide them with reunification services.
    Pew recommends that a block grant be increased annually by 
the Consumer Price Index plus 2 percent. In the confines of the 
draft legislation, this annual increase would be--there would 
be an annual increase, but it would not be tied to a specific 
factor. The COLA has questions about potential impact of 
including Title IV-E training funds in a block grant that is 
designed to fund services. Training is so vital to our 
workforce, also extremely important to the quality of decisions 
that are made about our children. Combining it into a services 
block grant could force States to make a decision between 
funding a training program and direct service need.
    We are pleased the Pew Commission recommended maintaining 
separate Federal funding for States' information systems. In 
summary, we believe that the basic safety net of foster care 
and adoption assistance should remain an uncapped entitlement; 
that all children in foster and adoptive placements, including 
those under the auspices of tribes and territories, subsidize 
guardianship and kinship placement should be eligible for 
Federal support.
    We should look to the States' PIPs to inform us about what 
new investments are necessary to better care for our children. 
Any reform proposal must always be sure to address workforce 
issues, including practice standards for worker competence and 
caseload size. We urge the Subcommittee to carefully consider 
the impact of reducing the Federal matching rate for foster 
care and adoption assistance as well as the impact of moving 
the entitlements of Title IV-E administration and training into 
a block grant. We encourage you also to take the time to fully 
evaluate and hear from all those impacted by the pending 
proposals, States, private agencies, and advocacy groups. We 
thank you for this opportunity; CWLA offers our assistance and 
participation in this most important endeavor.
    [The prepared statement of Ms. Wilson follows:]

   Statement of Patricia Wilson, Director, Southern Regional Office,
                    Child Welfare League of America

    My name is Patricia Wilson. I am the Director of the Child Welfare 
League of America's (CWLA) Southern Regional Office. CWLA welcomes the 
opportunity to offer testimony on behalf of our nearly 1,000 public and 
private nonprofit child-serving member agencies nationwide as part of 
this hearing to examine child welfare reform.
    I am going to speak to you today from a perspective that I have 
gained from 30 years of working in child welfare. I have been fortunate 
during my career to have worked as a:

    <bullet>  National consultant during which time I have had in-depth 
working relationships with a number of state child welfare programs and 
have been engaged in numerous projects involving the financing of 
states' child welfare systems;
    <bullet>  State child welfare administrator in the Kentucky Cabinet 
for Families and Children with responsibility for a broad range of 
federally funded child welfare programs;
    <bullet>  Child welfare program manager and supervisor at the 
county level; and,
    <bullet>  Caseworker, who investigated abuse and neglect 
complaints, provided services to children in need of protection as well 
as their families and managed foster care and adoption cases.
The Need for Reform
    CWLA recognizes that the current child welfare system does not 
protect all children adequately. Over the past several months the need 
for reform of our child welfare system has gained some needed attention 
nationwide. In part, this attention is the result of efforts this 
Subcommittee has made through a series of hearings beginning last fall. 
We appreciate these efforts and the attention of the members of this 
Subcommittee, and in particular, the attention to this matter by 
Chairman Herger and the Ranking Member, Representative Cardin. Through 
their leadership in conducting a series of public hearings, Congress is 
beginning to gain insight into what is needed to ensure that children 
are protected. These hearings have also helped us all understand the 
enormous complexities involving systems change.
    While everyone understands the need for children to be protected 
and to have a permanent home, it is more difficult to grasp the 
complexities of child welfare financing. Why is child welfare financing 
reform necessary? The answer lies in its importance to the future of 
the 542,000 children in foster care, the 126,000 children in foster 
care waiting for an adoptive placement, and the over one million 
children receiving child protective services. In our current system, 
states are left every day trying to cobble together a patchwork of 
funding streams limited either in the number of children who can be 
served or how they can be served. Children who enter into the child 
welfare system have already suffered the trauma associated with abuse 
or neglect. Their trauma should not be exacerbated by there being too 
few caseworkers to adequately prepare them for a permanency placement; 
underpaid foster parents or caregivers who are always stretching every 
dollar to try to provide them the basic necessities; too few mental 
health services to address their emotional or behavioral health needs; 
or, the general lack of resources to treat the substance abuse, 
domestic violence, or mental health issues of their parents which makes 
reunification that much more difficult.
    CWLA appreciates the interest and work of other members of Congress 
and this Subcommittee. We were pleased to support legislation 
spearheaded last year by Representative Camp to reauthorize the 
Adoption Incentives Payments. We are also supportive of legislation 
introduced by Representative Cardin, the Child Protective Services 
Improvement Act (HR 1534) and legislation introduced by Representative 
Stark, the Child Protection Services Workforce Improvement Act (H.R. 
2437). Both of these measures make a down payment towards the 
comprehensive reform that is needed.
    CWLA hopes that the recommendations of the Pew Commission and the 
work of the Subcommittee will result in a serious national debate and 
consideration about the way in which we choose to carry out our 
collective responsibility for protecting and caring for the most 
vulnerable children and youth in our communities. To accomplish that 
goal and to implement effective legislation will require a dialogue 
that involves all the partners in this process. In addition to members 
of the Congress and congressional staff, this includes state, local, 
public and private agencies and officials, advocates and advocacy 
groups representing all parts of the child welfare system and those 
families and children most directly affected by our decisions.
The Pew Commission on Children in Foster Care
    In May, the Pew Commission on Children in Foster Care, a panel of 
national experts, released a report that makes comprehensive 
recommendations about ways to improve the financing of child welfare 
services and to improve court performance in child welfare cases. CWLA 
appreciates the work of the Commission and their recommendations, and 
their willingness to engage CWLA and other partners in the child 
welfare system as they developed their recommendations. We also 
appreciate their continued efforts to focus the nation's attention on 
this matter.
    The recommendations of the Commission include some broad proposals 
and principles that we believe are fundamental to reform and that can 
serve as a starting point for such an effort:

    <bullet>  The care of abused and neglected children needs to be a 
shared partnership between the federal government and states.
    <bullet>  Support offered through the Title IV-E program should be 
maintained and serve as the cornerstone for building additional 
supports.
    <bullet>  New federal resources--in addition to the basic safety 
net of federal support offered through the Title IV-E foster care 
program--must be provided to states and communities to enable them to 
make a greater investment in preventing child abuse and supporting 
families.
    <bullet>  The Federal government, along with the states, should 
provide support for all abused and neglected children, regardless of 
family income, including children who are members of Indian tribes and 
children living in the U.S. territories.
    <bullet>  The child welfare workforce needs better supports 
including manageable caseloads and training.
    <bullet>  Children living with their grandparents or other 
relatives as an alternative to foster care should be afforded federal 
support.
    <bullet>  The courts need to be a part of any comprehensive reform.
House Ways and Means Human Resources subcommittee Draft Legislation
    Based on our initial review, the key components of the Subcommittee 
draft legislation include:

    <bullet>  The basic safety net of federal support offered through 
the Title IV-E program would be compromised by capping the amount of 
assistance available to a state to provide for the maintenance of 
children in foster care.
    <bullet>  All abused and neglected children in foster care and 
adoptive placements would be eligible for federal support, but at a 
reduced federal reimbursement rate.
    <bullet>  The rate for federal participation to support foster care 
placements would be lower than the rates to support adoptions.
    <bullet>  A new block grant for services, entitled Safe Children, 
Strong Families, would be created by combining Title IV-E Foster Care 
and Adoption Assistance administration and training funds with Title 
IV-B Child Welfare and Promoting Safe and Stable Families funds.

    Reforming the financing system is an extremely complex task. 
Today's testimony focuses on our understanding of how both the Pew 
Commission report and the Subcommittee draft legislation address 
specific areas of utmost importance--eligibility, payments for the care 
of children, i.e., maintenance; payment for face-to-face contact and 
work with children and their families, i.e., the services block grant; 
training of the workforce; and, data collection.

Title IV-E Maintenance
    CWLA strongly agrees with the recommendation contained in the Pew 
Commission report to retain the Title IV-E foster care maintenance 
payments as a basic safety net for children who need care.
    In the Title IV-E Foster Care program, the cost of providing 
children in foster care the basic necessities--food, clothing, shelter, 
school supplies--and supervision is referred to as maintenance. In 
exchange for making all children eligible, both the draft legislation 
and the Pew report recommend reducing the percentage of the federal 
government's share of every dollar spent.
    In contrast to the Pew Commission's recommendation that maintenance 
be kept as an entitlement, meaning the states and federal government 
would share the cost of providing care for all children, the draft 
legislation places a cap on the amount of federal funds available for 
maintenance. This is particularly troublesome as having now proposed 
that all children become eligible and that the federal share of every 
dollar spent be reduced, states are going to also be limited in the 
amount of federal assistance they can receive. Eliminating the 
guarantee of maintenance support could certainly impede the march 
toward permanency and safety for children.
    While the draft legislation makes a provision for potential relief 
for states experiencing a severe foster care crisis, it is based only 
on what would be a phenomenal annual growth in numbers and does not 
take into account the needs of children in care. It is entirely 
possible for the number of children in care to remain static or grow 
minimally, yet the cost of caring for those children rise 
significantly. In such a case, if the state has claimed its maximum 
maintenance funding and the growth did not meet the definition of a 
severe crisis, the state would be denied relief.

Title IV-E Foster Care Eligibility
    Both the draft legislation and the Pew report eliminate the 
requirement that a child's eligibility for foster care and adoption 
assistance benefits be linked to 1996 AFDC income standards. CWLA 
heartily supports making all children in foster care and adoption 
eligible as the first step in reform.
    Both the Pew Commission and the Subcommittee draft legislation 
propose some ways to achieve that goal. The Pew Commission offers 
several options, some which involve new federal investments. The 
Subcommittee draft caps federal funding for foster care while reducing 
the federal foster care matching rate.
    CWLA asks the Subcommittee to carefully consider any proposal that 
involves a too severe reduction in the rate of the federal share. This 
could create an increased and unacceptable burden for states that could 
make it difficult for them to serve children.

Kinship Placements and Guardianship
    CWLA believes that one of the strongest recommendations of the 
Commission was the inclusion of federal support for subsidized 
guardianship and kinship placements. Subsidized guardianships, 
including placements with grandparents and other relatives, are an 
important permanency option for many children. Currently, the federal 
government does not provide specific funding to support that option. 
The draft legislation permits subsidized guardianship only as a waiver 
option for a state rather than automatically including it in 
maintenance. It is critical that subsidized guardianship and kinship 
programs be an option for all state and local child welfare systems if 
our goal is to increase the rate of permanency for these children.

Tribes and Territories
    Both the Pew Commission and the Subcommittee bill include proposals 
that would allow tribes and territories increased access to Title IV-E 
funds. The best way to assist tribes in addressing their foster care 
and adoption needs is through direct access to these funds. CWLA 
supports legislation pending before this Subcommittee introduced by 
Representative Camp that would allow eligible tribes or consortia to 
have direct access to Title IV-E funds.

Transferability 
    Both the Pew Commission and the draft legislation recommend states 
be allowed to transfer ``excess'' federal foster care maintenance funds 
into the services block grant for reinvestment into other child welfare 
services. These ``excess'' funds would come from a state reducing its 
foster care expenditures below a certain baseline. Based on states' 
current struggle to adequately cover the cost of care for its children, 
the likelihood of excess funds seems remote. ``Unused'' transferred 
foster care funds should not be relied on as a primary source of new 
funding for prevention and other services. CWLA supports rewarding 
states for improving performance, however, any opportunity for transfer 
must be constructed in a way that does not provide a disincentive to 
provide the care that children in foster care need.
Block Grant for Services (Safe Children, Strong Families)
    As this Subcommittee, the Pew Commission, CWLA and other advocates 
have highlighted, there is a tremendous need to devote more federal 
resources to prevention and early intervention efforts in child 
welfare. Both the draft legislation and the Pew report propose to 
initiate this effort by combining Title IV-E administration and 
training funds with Title IV-B Child Welfare Services and Title IV-B 
Promoting Safe and Stable Families Program funds into a block grant to 
be known as Safe Children, Strong Families.
    The funds just listed are those that support direct contact and 
work with children and families. IV-E administration pays for the face-
to-face time caseworkers spend with children in foster care, case 
planning for children, securing services for them, preparing and 
attending judicial hearings, and, recruiting foster parents, among 
other activities. IV-E training funds are used not only to prepare the 
workforce, but also to provide them ongoing training as well as 
training foster and adoptive parents. Title IV-B funds services to 
enable children to remain in their own homes or be reunified with 
families.
    The Pew Commission recommends automatically increasing this annual 
block grant appropriation based on the consumer price index plus two 
percent. The draft legislation proposes annual increases, but does not 
tie those increases to a specific factor. While the draft legislation 
does include an authorization of an additional $525 million a year, we 
must caution that since a similar option was created in 2001 for the 
Title IV-B Promoting Safe and Stable Families program, the history is 
that these dollars have never been fully appropriated.

Training
    CWLA has questions about the potential impact of including IV-E 
training funds in a block grant that is designed to fund services. We 
continue to view workforce issues, including training, as vital to 
addressing problems in the child welfare field. By including training 
funds in the block grant, states may have to choose what, if any, 
portion of the allocation could be dedicated to training and staff 
development; thereby, forcing training needs to compete with direct 
service needs.

Workforce
    CWLA commends the Pew Commission for its recognition of the 
necessity to directly address the need for support of our child welfare 
workforce. Pew recommends that the U.S. Department of Health and Human 
Services (HHS) convene a collaborative working group of state 
officials, professional organizations, and researchers to review 
existing standards from a variety of sources and recommend a national 
set of best practice standards for both worker competence and caseload 
size. States that meet and maintain those standards would receive an 
enhanced 1% federal match to their Safe Children and Strong Families 
Grant funds.

Data
    CWLA endorses the Pew Commission's recommendation that funding for 
SACWIS (States Automated Child Welfare Information System) be continued 
as a separate federally supported activity. Measuring and tracking 
outcomes, maintaining useful client records, and collecting data about 
service need and use are all essential to determining how well we are 
doing in child welfare. Over the last decade, states have been able to 
receive discrete funding support for developing their automated data 
systems. Even though this process has been cumbersome and is still 
evolving, states are in a better position to answer questions about 
their efforts than they would be absent those systems.

In Summary
    <bullet>  CWLA believes that the basic safety net provided many 
children and adoptive families through Title IV-E foster care and 
adoption assistance should be maintained as an uncapped entitlement.
    <bullet>  CWLA believes all children in foster care and adoptive 
placements, including those children under the auspices of tribes and 
territories, should be eligible for federal support,

    Today, only slightly more than half the children in foster care are 
IV-E eligible due to the link with outdated income standards. For those 
children not eligible, states are spending Social Services Block Grant 
dollars, state dollars and local funds to provide their care. All are 
funds that could be used to support vital prevention, support and 
follow-up services if they were not being used to support foster care.

    <bullet>  CWLA suggests that this Subcommittee carefully consider 
the impact of reducing the federal matching rate for foster care and 
adoption assistance. Given that expanding eligibility is a desired 
outcome, the Subcommittee should consider other alternatives such as 
the provision contained in H.R. 1534 offered by Representative Cardin 
that removes income eligibility for Title IV-E Foster Care and Adoption 
while allowing states to align the Title IV-E match rate with a state's 
Temporary Assistance to Needy Families (TANF) cash assistance matching 
rate. Senators DeWine and Rockefeller also have introduced legislation 
(S. 862) that begins to address this issue by eliminating the income 
eligibility assistance for adoption assistance without reducing the 
federal match rate.
    <bullet>  CWLA believes that federal support should be extended for 
subsidized guardianship and kinship placements in order to increase the 
rate of permanency for children.
    <bullet>  CWLA wholeheartedly supports the need for new investments 
for services. Providing necessary resources is one way that the federal 
government can better partner with the states to help achieve the goals 
of increased safety, permanency and well being for children. The 
magnitude of that need has been demonstrated in the PIPs that the 
states are beginning to implement. A recent GAO report found that the 
most common challenges affecting states' implementation are 
insufficient funding, insufficient numbers of staff and high caseloads. 
Our review of thirty-three PIPs found that twenty-seven states 
specifically referenced the need for mental health and substance abuse 
services. Two-thirds of the states describe needing to increase the 
availability of foster and adoptive parents. Not only does this mean 
more staff time to recruit these parents, it means additional training 
will be needed.
    <bullet>  CWLA has questions about the impact of including Title 
IV-E administration and training into a services block grant.

Administration
    Title IV-E administration provides funding for activities directly 
related to achieving safety and permanency for children in foster care. 
Capping the amount of federal funding a state can receive for that 
activity could make it more difficult to achieve those outcomes.

Training
    Training resources, which are so vital to the quality of decisions 
made on behalf of children, should be assured.

Equitable Distribution of Funds
    Should there be an effort to include administration and training 
into a services block grant, it would be difficult to develop a formula 
that fairly represents the varied ways in which states have claimed 
Title IV-E funds. Any formula for how much a state would get from a 
block grant that included these programs would be skewed since states' 
historical Title IV-E claims may vary widely depending on the 
availability of other funding streams. A block grant based on 
historical spending could create winners and losers among states.
    For example, according to Congressional Research Service data for 
fiscal year 2000, two states received over 70 percent of their IV-E 
foster care funds from the administrative category. For the states of 
California, Colorado, Connecticut, Virginia and Washington, more than 
50 percent of their total IV-E funding came from the administrative 
category. For Louisiana and Kentucky that amount was less than 35 
percent while the amounts for Maryland, Michigan, New York, 
Pennsylvania were between 35 and 50 percent.

    <bullet>  CWLA believes that any discussion of financing reform 
should encompass the many other funding streams that support child 
welfare services. Although they help frame the discussion, neither the 
Pew Commission report nor the draft Subcommittee legislation go far 
enough in this regard. True child welfare financing reform will involve 
more than changes to Titles IV-E and IV-B. Many states look to the 
Social Services Block Grant, TANF, Medicaid and other funding streams 
to finance needed services. These programs should be safeguarded and 
improved in order to provide support for child welfare.

Conclusion
    CWLA urges the Subcommittee to take the time to fully evaluate and 
hear from all those most impacted by the pending proposals. It will 
also be important to evaluate how these proposals address the problems 
that have surfaced in the recent hearings held by this Subcommittee 
including the lack of services, insufficient workforce supports, lack 
of adequate funding for prevention, improved data collection, increased 
accountability and PIP implementation. It will be important for states, 
private agencies, advocates and others to fully understand, analyze and 
become engaged toward building a consensus reform plan.
    This Subcommittee is now armed with a tremendous amount of 
evidence, through the Child and Family Service Reviews, the PIPs 
submitted to HHS, and the testimony you have taken to date, to now take 
the meaningful steps toward reform that will provide for the safety, 
permanency, and well-being our most vulnerable children deserve. CWLA 
offers our assistance and participation in this important endeavor.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Wilson. Now to 
testify, Mr. Samuel Sipes.

  STATEMENT OF SAMUEL M. SIPES, PRESIDENT AND CHIEF OPERATING 
 OFFICER, LUTHERAN SOCIAL SERVICES OF THE SOUTH, INC., AUSTIN, 
                             TEXAS

    Mr. SIPES. Good afternoon, Chairman Herger, Members of the 
Subcommittee, and Majority Leader DeLay. Thank you for inviting 
me to testify today. I am glad to be here today to address two 
critical issues, the movement of children across State lines to 
find appropriate and permanent homes, and the movement of 
dollars from Washington to States in order to fund child 
welfare services. First, I would like to speak about reforms 
needed to facilitate the timely placement of children into 
loving homes across State lines. Approximately 4 percent of 
foster children in the United States, nearly 20,000 children, 
are placed across State lines each year. The ICPC was developed 
in the sixties to ensure that children placed in homes across 
State lines were protected by the receiving State. It took 30 
years to get the basic provisions of the ICPC agreed to by all 
50 States, and unfortunately, many of those provisions have 
begun to show their age.
    Recent studies have shown that children placed across State 
lines end up waiting 1 year longer to find permanent homes than 
children placed in-State. Red tape resulting from the 
differences in home study requirements, State laws, and 
administrative policies are causing much of the delay. In fact, 
it wasn't until just 4 years ago that the ICPC was amended to 
allow information to be transmitted via fax and overnight mail. 
Very often, the waiting families are biological relatives of 
the child in question, and while they work their way through 
the red tape of the ICPC process, the child waits in child 
welfare.
    The challenges created by interjurisdictional barriers to 
adoption across State lines are similar to those across 
national borders. The LSS performs international adoptions and 
maintains offices in several foreign countries. In Russia, for 
example, we have to constantly deal with the changing laws and 
regulations and remnants of Communist-era bureaucratic 
mindsets. However, our Russian adoption program can usually 
facilitate the placement of a child into a waiting Texas family 
in about 9 months. What does it say about the ICPC process when 
it is sometimes easier to work through the bureaucracy of the 
former Soviet Union and adopt a child out of a Russian 
orphanage than it is for a child's aunt and uncle to adopt him 
or her from a neighboring State? Advocates generally agree that 
the system is broken. Addressing the issues in Congress will 
avoid the decades-long process to reach agreement in all States 
and affected jurisdictions.
    I commend House Majority Leader Tom DeLay for introducing 
the Orderly and Timely Interstate Placement of Foster Children 
Act of 2004. This Federal legislation will lower the barriers 
that currently prevent children from being placed in safe, 
loving families. These are important and timely reforms. 
Initiatives such as Adopt U.S. Kids along with the lowering of 
barriers to interstate placement of children will likely 
increase the number of children placed across State lines. The 
bill also reinforces the need for States to partner with 
private faith and community-based child placing agencies in 
order to accomplish the goal of timely placements of children.
    Finally, I would like to commend Chairman Herger and the 
Subcommittee for your work in drafting for discussion the Child 
SAFE Act of 2004 dealing with Federal funding of child welfare 
programs. The current system places rigid restrictions on 
States that often prevent them from using Federal funds in 
creative ways to address the needs of children and families. 
The proposed legislation will give States more flexibility to 
fund other needed activities that currently fall through the 
cracks while at the same time preserving protections for 
children. It will allow flexibility for funds to be used for 
prevention programs, recruitment and training foster parents 
who will then dedicate their lives to caring for abused and 
neglected children, and a safety net for children who age out 
of the child welfare system.
    In conclusion, we have a child welfare system that too 
often places policies and programs ahead of the urgent needs of 
children. Just ask any one of the 20,000 or so children every 
year who have to wait an extra year for a permanent home 
because the bureaucrats in one State are so tangled up in red 
tape that they can't come to an agreement with the bureaucrats 
in another State. The reforms outlined in these two pieces of 
legislation begin to put things back in proper perspective and 
to place the needs of children at the center of the equation. I 
would like to thank the Subcommittee for giving me the 
opportunity to testify and I would be happy to answer any 
questions at the appropriate time.
    [The prepared statement of Mr. Sipes follows:]

   Statement of Samuel Sipes, President and Chief Operating Officer, 
          Lutheran Social Services of the South, Austin, Texas

    Good afternoon Chairman Herger and members of the subcommittee. 
Thank you for inviting me to testify today. I am president and chief 
operating officer of Lutheran Social Services of the South\1\, a non-
profit, faith-based organization with a 123 year history of providing 
child welfare services. Lutheran Social Services is the largest 
provider of children's residential services in the state of Texas and 
we serve more than 25,000 children, elderly and poor throughout Texas 
and Louisiana each year. I am glad to be here today to address two 
critical issues; the movement of children across state lines to find 
appropriate and permanent homes, and the movement of dollars from 
Washington to states in order to fund child welfare services.
---------------------------------------------------------------------------
    \1\ For more information on Lutheran Social Services of the South, 
see their website http://www.lsss.org
---------------------------------------------------------------------------
    For the past 25 years, I have worked in a variety of child and 
family service settings and have seen firsthand the effect that a 
broken system has on foster children who were removed from abusive and 
neglectful environments for their own protection. It is a system that 
all too often subjects these children who have already suffered at the 
hands of adults to uncertainty, instability and lack of permanence.

Interstate Placement of Children
    First, I'd like to speak to the Interstate Compact on the Placement 
of Children (ICPC) and reforms needed to facilitate the timely 
placement of children into loving homes across state lines. 
Approximately 4 percent of foster children in the United States, nearly 
20,000 children are placed across state lines each year. The ICPC was 
developed in the 1960s to ensure that children placed in homes across 
state lines are protected by the receiving state. It took 30 years to 
get the basic provisions of the compact agreed to by all 50 states, the 
District of Columbia and the Virgin Islands and unfortunately, many of 
those provisions have begun to show their age. Recent studies have 
shown that children placed across state lines end up waiting one year 
longer to find permanent homes than children placed in-state.\2\
---------------------------------------------------------------------------
    \2\ These and other findings regarding interstate placement were 
published in a recent edition of The Roundtable, a newsletter from the 
National Resource Center for Special Needs Adoption http://
www.nrcadoption.org/resource/roundtable/v17n2.pdf
---------------------------------------------------------------------------
    Red tape resulting from differences in home study requirements, 
state laws, and administrative policies are causing much of the delay. 
In fact, it wasn't until just four years ago that the ICPC was amended 
to allow information to be transmitted via fax and overnight mail. 
Interstate disputes over financial responsibility slow down the process 
and background checks that can be completed in days for people who want 
to purchase a handgun, can take months for people who want to adopt a 
child. Many of the provisions originally developed to protect and meet 
the needs of abused and neglected children have grown so rigid and 
outdated that they have become as much a part of the problem as the 
solution.
    Everyone who has had experience with placing children across state 
lines can tell you countless stories of red tape and delays. One case I 
remember is a loving family that wanted to adopt a special needs child 
from another state that had the same medical condition as their own 
biological child. The placement of the child was delayed months because 
the receiving state had returned their file to the sending state 
because the receiving state required a particular form that was 
inadvertently omitted. Meanwhile, the child languished in an 
institution. Very often the waiting families are biological relatives 
of the child in question, and while they work their way through the red 
tape of the ICPC process, the child waits in foster care.
    The challenges created by inter jurisdictional barriers to adoption 
across state lines are similar to those across national borders. 
Lutheran Social Services performs international adoptions and maintains 
offices in several foreign countries. In Russia, for example we have to 
constantly deal with changing laws and regulations and remnants of 
communist-era bureaucratic mindsets. However, our Russian adoption 
program can usually facilitate the placement of a child into a waiting 
Texas family (a placement which is not subject to the ICPC) in about 
nine months. What does it say about the ICPC process, when it is easier 
to work through the bureaucracy of the former Soviet Union and adopt a 
child out of a Russian orphanage, than it is for a child's aunt and 
uncle to adopt him or her from a neighboring state?
    I have heard numerous reports that some jurisdictions have become 
so frustrated with the ICPC process that they are making placements 
across state lines without ICPC coordination. While this may be 
expedient, it creates a potentially dangerous situation where a child 
is placed into an unmonitored and unsupported home.
    Despite the best efforts of advocacy groups and dedicated people at 
every level of government, the process has gotten progressively worse. 
Congress recognized some of these issues in 2001 when it called for the 
establishment of a border agreement among the District of Columbia, 
Maryland and Virginia to improve interstate placements. Just this past 
year efforts to reform the ICPC have included:

    <bullet>  The American Public Human Services Association appointed 
a task force to introduce reforms;
    <bullet>  The National Council of Juvenile and Family Court Judges 
passed a resolution recognizing the need for reform;
    <bullet>  The American Academy of Adoption Attorneys passed a 
resolution acknowledging the need for reform;
    <bullet>  The Steering Committee on the Unmet Legal Needs of 
Children of the American Bar Association has called for reform; and
    <bullet>  The Children's Bureau convened a workgroup to develop 
recommendations for changes in the ICPC process.

    Advocates generally agree that the system is broken. Addressing 
these issues in Congress will avoid the decades-long process to reach 
agreement in all states and affected jurisdictions.
Orderly and Timely Interstate Placement of Foster Children Act of 2004
    I commend House Majority Leader Tom DeLay for introducing the 
``Orderly and Timely Interstate Placement of Foster Children Act of 
2004.'' This federal legislation will lower the barriers that currently 
prevent children from being placed in safe, loving families and homes. 
The bill will:

    <bullet>  Protect the safety of children who are placed across 
state lines for foster care, adoption, or residential care;
    <bullet>  Ensure informed placement decisions, including a full 
exchange of information between sending and receiving states;
    <bullet>  Set and enforce specific timelines for permanent 
placements;
    <bullet>  Defend the rights of all parties involved: the 
biological, foster, and adoptive parents, and especially the children;
    <bullet>  And create federal incentives to help foster children 
find safe and permanent homes.

    This legislation will resolve financial barriers, address confusion 
on which children are covered by the compact and link enforcement of 
the compact to money that states receive for foster children. These are 
important and timely reforms. Initiatives such as Adopt US Kids\3\ 
along with the lowering of barriers to interstate placement of children 
will likely increase the number of children placed across state lines. 
The bill also reinforces the need for states to partner with private 
faith and community-based child placing agencies in order to accomplish 
the goal of timely placements of children.
---------------------------------------------------------------------------
    \3\ For more information about the Adopt US Kids initiative to 
facilitate interstate as well as intrastate placements of children see 
their website, www.adoptuskids.org
---------------------------------------------------------------------------
Child Safety, Adoption, and Family Enhancement (Child SAFE) Act of 2004
    Finally, I would like to commend Chairman Herger and the 
Subcommittee for your work in drafting for discussion the ``Child SAFE 
Act of 2004'' dealing with federal funding of child welfare programs.
    The current system places rigid restrictions on states that often 
prevent them from using federal funds in creative ways to address the 
needs of children and families. In general, money is earmarked to fund 
specific services and is not available to fund other activities that 
might produce positive outcomes for children and families. Very little 
funding is available for proactive prevention programs or measures that 
allow authorities to step in and offer assistance at the first sign of 
potential trouble. All too often we wait for a child to be harmed and 
then we send the posse in to ``rescue'' the child. Once the child is 
placed in ``the system'' it may take years to sort out the family's 
problems and come up with solutions. Instead of investing a little on 
the front end to strengthen families and prevent abuse, all too often 
government only gets involved when things are at their worst. In 
essence, this is a deferred maintenance program gone bad.
    The proposed legislation will give states more flexibility to fund 
other needed activities that currently fall through the cracks while at 
the same time preserving protections for children. It will allow 
flexibility for funds to be used for:

    <bullet>  Prevention programs rather than being tied to the number 
of children we failed to protect;
    <bullet>  Recruitment and training foster parents who will then 
dedicate their lives to caring for abused and neglected children;
    <bullet>  A safety net for children who age out of the child 
welfare system so they won't become trapped in the adult welfare system 
for the homeless, the mentally ill, and the unemployed.

    The reforms in this bill would give states, along with their faith 
and community based partners, more opportunity to come up with creative 
and effective ways to interrupt the cycle of abuse, neglect and 
dependence that propels more than a half million of our most vulnerable 
citizens into the child welfare system.

Conclusion
    We have a child welfare system that too often places policies and 
programs ahead of the urgent needs of children. Just ask any of the 
20,000 or so children who every year has to wait an extra year for a 
permanent home because the bureaucrats in one state are so tangled up 
in red tape that they can't come to an agreement with the bureaucrats 
in another state.
    The needs of children have become secondary to the system. However, 
that system only exists to serve the needs of children. The reforms 
outlined in these two pieces of legislation begin to put things back in 
proper perspective and to place the needs of children at the center of 
the equation.
    I would like to thank the Subcommittee for giving me the 
opportunity to testify, and I would be happy to answer any questions 
that you might have.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Sipes. Now we will turn to 
questions. The gentleman from Kentucky, Mr. Lewis, to inquire.
    Mr. LEWIS. Yes, Mr. Chairman. I would like to yield my time 
to Majority Leader DeLay.
    Chairman HERGER. Without objection.
    Mr. DELAY. I thank the gentleman from Kentucky, Mr. Lewis. 
I won't take long, Mr. Chairman. Unfortunately, I have a 
meeting at 2:00 p.m. Just very briefly, Mr. Sipes, we have 
received a tremendous support from foster parents on the right 
to be heard in court. Could you talk about the importance of 
this provision to foster parents and the children in their 
care?
    Mr. SIPES. This is a huge issue in that foster parents are 
not universally afforded the opportunity to be present at 
proceedings affecting the children that they have been caring 
for. These are individuals who have opened up their homes and 
their hearts to these kids. Oftentimes, they are the people 
that know the children the best and certainly the ones that 
care about the children the most within the system, they love 
them. They are acting as their parents. All too often, we have 
heard stories from our own foster parents as well as people 
that foster for other agencies that they are informed after the 
fact that a legal proceeding has taken place and a decision has 
been made that, quite frankly, they have grave concerns over 
and they just weren't afforded the opportunity to be heard. 
This is a huge issue to foster parents.
    Mr. DELAY. Thank you. Mr. Frenzel, I appreciate the great 
work that the Pew Commission has done. I do believe that abused 
and neglected children will benefit from Pew's thoughtful 
examination of the problems. I don't agree with all your 
findings, but I think the Commission has worked very hard and 
produced a product that is really useful in the debate about 
funding child protection. I see that Pew is recommending $5 
million for expansion of the Court-Appointed Special Advocates 
(CASA) program. My wife is a CASA, so I am very familiar with 
this program. Would this money go to the national CASA or who 
would it go to and what is it for?
    Mr. FRENZEL. The anticipation is that the money would be 
given to individual CASA units, particularly in those areas 
where they either don't exist or where they need to be 
strengthened. I think the CASA people tell us across the board 
they don't want to be Federalized.
    Mr. DELAY. Commendable.
    Mr. FRENZEL. They have got enough other problems without 
having the Federal Government in their face, but many of them 
have been started, at least, with start-up funds such as we are 
suggesting, and that is our intention. We do not--we expect 
that this will result in the creation or the building of 
stronger CASA units in the field.
    Mr. DELAY. I think that is wise. Dr. Arnold-Williams, your 
testimony seemed to take issue with H.R. 4504 on mandating that 
home studies be conducted, completed, and returned in 60 days. 
I understand the reasoning, if something unforeseen went wrong, 
like background checks. Maybe you could give us an idea of what 
is causing the problem with criminal background checks. Your 
testimony is silent on the $1,000 that a receiving State would 
receive should the paperwork be completed in 30 days. What is 
your organization's opinion on the incentive payment? Isn't it 
the case now that sending States can claim Federal dollars but 
receiving States, which are required to do the work, are not 
given any help in turning around the paperwork for the study, 
for home study?
    Dr. ARNOLD-WILLIAMS. Yes, that is absolutely true and that 
is one of the issues, is the lack of financing for the 
receiving State which has to do the work to get that done. Just 
to speak maybe to the other reasons, Federal Bureau of 
Investigation (FBI) checks, I am not sure why they take too 
long. In our State, we chose not to request them on anyone 
unless they hadn't been in our State for at least 5 years for 
that reason. I should tell you that 77 percent of our ICPC 
requests are done within 30 days. We try to meet those time 
lines in my State and we take that very seriously.
    With respect to the $1,000 incentive, obviously, we would 
like incentives there for States to be able to do that or some 
financing mechanism for the receiving State. I think there are 
concerns about the 30 days, again because of things like 
background checks, training requirements. We require 32 hours 
of training for foster parents in our State. We have very high 
standards. There is some concern about can you fit all of that 
in within 30 days. Part of it hinges on what is a home study. 
Getting the basic health and safety things in place, I think 
you can do that within 30 days. It is some of the others, like 
background checks, training, some of those things that we would 
like to have some flexibility in meeting that standard.
    Mr. DELAY. I understand that. Last, Mr. Chairman, for Mr. 
Sipes, H.R. 4504 encourages private sector support in 
conducting, completing, and returning these interstate home 
studies. Can you comment on the role that private agencies 
could play in helping children find permanency across State 
lines?
    Mr. SIPES. Yes, sir, I could. I was a participant in a 
guidance work group that was put together by the Children's 
Bureau earlier this year to look at the ICPC process. There 
were a number of State ICPC coordinators present, and one of 
the issues that came up was that when they get a request for a 
home study, they have caseworkers in the field that are dealing 
with child protection issues, children that are in eminent 
danger, high caseloads, and quite frankly, oftentimes, those 
requests don't get elevated to a priority and that is one of 
the reasons for delays.
    At the same time, in virtually all States, there are very 
strong private nonprofit child placing agencies, many of whom 
have the capacity to send people out. In fact, we have done 
that. We have partnerships with a number of States around the 
country. When they have a child that they are sending to Texas, 
they contact us and we do the home studies and we typically 
turn those around within 30 days at the longest, sometimes a 
couple of weeks, because our staff know. They are in the field 
and they know that time is of the essence in this particular 
matter. I really think that there is an untapped resource right 
now in the private sector that could really help achieve the 
time lines outlined in this legislation.
    Mr. DELAY. Thank you, Mr. Chairman. I have other questions 
I will submit for the record, but I really appreciate the 
Committee's courtesy and thank you, panel, for your testimony 
and answers to the questions.
    [The information was not received at the time of printing.]
    Chairman HERGER. Thank you, and again, thank you very much 
for your strong, longtime involvement in this area that is so 
important to the lives of so many young people. Thank you very 
much, Mr. DeLay. With that, the gentleman from Michigan, Mr. 
Levin, to inquire.
    Mr. LEVIN. Thank you, Mr. Chairman. Thank you, Mr. Cardin, 
for letting me go before you. Thank you, Mr. Chairman and 
everybody, for this hearing and all of the witnesses and all of 
you who are here who are not witnesses. We have been wrestling 
with this problem for a long time. It at least goes back as far 
as when I first joined the Subcommittee, which is now 17 years, 
and we have been trying to find better answers. Mr. Frenzel, 
let me start off by asking you as an old teammate and friend, 
if you had to name one major change, improvement that would be 
brought about if the Pew Commission recommendations were 
adopted, what would be that major change?
    Mr. FRENZEL. Well, unfortunately, our commission made a 
report which is sort of a coherent whole. When I start picking 
things out and nominating them for stardom, I----
    Mr. LEVIN. How about improved----
    Mr. FRENZEL. We really, we want the whole package. I 
suppose the most important thing to me probably is the core 
financing business, where we take the totality of Federal 
funds, establish a place for the entitlement or the 
maintenance, and then we have the administrative and training 
funds in a grant that is escalated. In that whole evolution, of 
course, we de-link, much in the way that the Chairman's draft 
suggests it, and that is probably the core financing bit of our 
recommendation.
    Mr. LEVIN. Great, let me ask you and everybody else, as I 
understand the draft bill, and it is just that, in terms of the 
funding core, what it would do at least in part would be to 
provide a cap. It would expand eligibility, and it would reduce 
the foster care payments for each of the eligible. I think I 
understand that. Each of you quickly, because I only have 5 
minutes, what is the potential impact of that structure along 
with the provision that Mr. Frenzel has mentioned in terms of 
putting other funds into an entitlement with greater 
flexibility? If you expand eligibility but reduce the payment 
per person and you cap the overall expenditures, what is likely 
to result? Maybe somebody else wants to go first. Ms. Wilson, 
do you want to respond?
    Ms. WILSON. I would be glad to. One of the concerns about 
just what you described is that States are left to care for the 
children they have in care, and when we have expanded 
eligibility, which is something that is needed, and we have 
reduced Federal share along with a cap on the amount a State 
can receive, that certainly leaves States at a disadvantage if 
costs rise, if the number of children rise.
    Children, the number of children in care can remain static 
or just show a minimal increase, yet a State can have 
significant increases in the cost of providing for those 
children. I think one of the things we have to be most cautious 
of is not doing something that creates a disincentive to take 
care of the children that are in care and that need to be in 
care and to cover the services that they require.
    Dr. ARNOLD-WILLIAMS. Maybe I would just add to that that 
you have to think about this in the context of your overall 
State budget. For instance, this fiscal year in my State, Title 
IV-E financing is only 20 percent of the $130 million budget I 
have for child welfare; it interplays with all of your funds 
there. We are a State that has reduced our foster care 
caseload. Since 1999, the number of children I serve in a given 
year in foster care has been decreased by 19 percent. We have 
done that by investing in up-front services. We believe the 
concept works in terms of taking the resources you have, reduce 
foster care by using up-front resources.
    That is why we argue for an individual baseline, so that--
rather than tied to the national baseline, so that you can 
actually not penalize States like ours that have already made 
some investments and actually look at specific factors in your 
State. We believe it can be done because we have done it by 
infusing additional Social Services block grant or general 
funds or other funds into that. Again, it is an entire 
financing mix within your child welfare budget.
    Chairman HERGER. I thank the gentleman.
    Mr. LEVIN. Mr. Chairman, can Mr. Frenzel answer briefly?
    Mr. FRENZEL. The same number of children are involved. The 
only difference is the States have to take care of them without 
Federal money. The same amount of money goes to the same 
States, so we try to keep things even. The biggest gain here is 
that the States don't have to mess around figuring out who 
qualifies for Federal money and who doesn't with this Mickey 
Mouse 1996 law that adds a huge administrative burden to the 
States. Rationalizing through a de-link, the biggest advantage 
is it is going to save the States a lot of administrative 
money.
    Chairman HERGER. I thank the gentleman. We do have three 
votes coming up and we will try to wrap up our questioning. The 
gentlelady from Connecticut to inquire.
    Mrs. JOHNSON. I think in view of the fact that neither the 
Chairman nor the Ranking Member have had a chance to question, 
I am going to limit myself to just a couple of statements 
because they demand much too much time. First of all, I am very 
impressed that by freezing welfare and now going through a 50-
percent caseload cut, we have increased the money available for 
day care, for services, more than this Congress ever, under 
Republicans or Democrats or whatever, have increased it.
    You look at the conditions of participation grants. Now, I 
personally was very sorry to see them go, but what they did for 
5 years--they were 5-year grants--they allowed my local police 
department to completely turn itself into a community-based 
system by giving the money to provide the officers to go out in 
the community and giving the whole police department time to 
reorganize its administrative load and who answers the phone 
and things like that. I think we need money to front load, to 
help you change, and maybe we shouldn't exercise a cap right 
away. I do think reducing your payments for foster care is 
really--that concerns me a lot.
    I am more interested in transitional assistance with a cap 
to follow, a cap will give you a guarantee that I think has 
some merit. I think the fact that you will get rewarded if the 
States, everybody needs to put money back in so that there is 
some escalation. I am discouraged that there is such a 
consistent rejection of the cap issue. If you had adopted this 
cap concept in the year I first proposed it, in 1989 or 
something, you would have tons more money than you have now.
    I urge you to look at what is the real issue here, which is 
getting in place the community-based services so that you can 
cut the foster care. I think the subsidized guardianship is 
extremely important. We just have to get over this issue that 
children would be better out of their larger family than in 
their larger family, and so on. I think this financing issue is 
a big issue. I feel your feeling that fears of the past more 
than you are looking at the opportunities of the future.
    The second thing--this is harder--we are not assessing 
these children when they come into foster care the way we need 
to. We have got to figure out what is that assessment. Now, not 
a whole psychological assessment, but there are ways of looking 
at what is the developmental state of this child? Is this child 
5 years behind their developmental state or are they doing all 
right developmentally? Are they having special reactions to the 
trauma of being taken out of their homes? I have talked to 
people who are leaders in this, nationwide trainers and so on 
and so forth. There is a simple assessment, but if you did it, 
you would enhance the opportunity for this child to do well, 
whether in reunification or in placement, in a way that we are 
not now. I just put those two ideas out there. Those are two 
ideas that I want to see this develop, and I congratulate the 
Chairman and the Ranking Member for their dedication to working 
together, because we have got to do something. When we have a 
hearing like we had recently where everybody failed after 12 
years, that is just simply unacceptable. Thank you very much, 
Mr. Chairman.
    Chairman HERGER. I thank the gentlelady. The gentleman, the 
Ranking Member from Maryland, Mr. Cardin to inquire.
    Mr. CARDIN. Thank you, Mr. Chairman. Let me just throw out 
a couple of questions. I don't mean to burden you by written 
responses, but I would like to get responses and at the hearing 
today, obviously, we are not going to have the time, but I 
think it is important for our work. I have serious problems, as 
I expressed earlier, about capping the entitlement. There are 
who claim that by capping the entitlement, we remove a perverse 
incentive that encourages States to put people in out-of-home 
placement. I don't understand that because States save money if 
they don't have to do out-of-home placement and it seems to me 
that that is not true, but I would like to get your views as to 
whether there is a perverse incentive under the current system.
    Secondly, as we have pointed out, the Pew Commission is 
recommending capping the entitlement status currently for 
administration and training, putting it into a broader block 
grant with some additional resources. Particularly to Ms. 
Wilson, but also to Dr. Arnold-Williams, I would like to know 
whether you think that is a good compromise with maintaining 
the entitlement in the administrative side that the Pew 
Foundation does. Would that be an adequate protection to the 
resources going to local governments in the event that there 
was a significant increase in caseload? I just wanted to know 
whether you think you are adequately protected.
    The third question would be, if we do cap the 
administrative maintenance payments, as suggested by the 
Chairman's draft, is there a contingency fund arrangement that 
could be developed that would adequately protect the States in 
the event of a caseload increase that you can conceive? I know 
the Chairman has a provision in his bill, but I would prefer to 
get Ms. Wilson and Dr. Arnold-Williams, and perhaps even the 
Pew Commission's thoughts as to whether there are alternatives 
that could deal with it.
    I have a question whether you can develop an alternative. I 
strongly believe that the entitlement is important for the 
maintenance program and have concern over capping, quite 
frankly, the administrative and training dollars. I have a 
concern about that. I look at what happened, again, the late 
eighties with the crack cocaine babies and wonder whether there 
is anything we could put in Federal law that could protect the 
States if that were to occur.
    Mr. Chairman, they are questions that I have. I don't think 
we have adequate time to get responses because of the pending 
votes on the floor of the House, but if our witnesses could 
provide that information, certainly I think it would be helpful 
for the full Committee.
    Chairman HERGER. I thank the gentleman from Maryland. If 
our witnesses could provide us with that information, I would 
appreciate it. As a matter of fact, I would like to also 
request--I have a question of you, Mr. Frenzel. The States 
'agencies' testimony says that they, quote, ``strongly oppose 
the Safe Children, Strong Families provisions that would cap 
Federal funding for caseworkers and training,'' which is what 
the gentleman from Maryland was referring to, even though that 
amount would grow every year. Could you explain, perhaps in a 
letter to us, why the Pew Commission thought it was important 
to include these funds in the Safe Children, Strong Families 
grant and why capping it at a high and rising level makes 
sense, and maybe just briefly----
    Mr. FRENZEL. I would be glad to do that, Mr. Chairman.
    Chairman HERGER. I don't know if you would like to, just 
very quickly if you----
    Mr. FRENZEL. Sure.
    Chairman HERGER. Then extend that.
    Mr. FRENZEL. We believe that whatever our euphemism is, 
Strong Families--anyway, nice people grant really provides the 
flexibility that States and local operating units need. Some of 
them will be up to snuff in training and will be investing 
enough in training. Some of them won't be doing enough 
training. Some of them will want to put that money into other 
child welfare measures. It may be preventative in nature. It 
may save us a lot of money over the long haul. We thought it 
was very important to make a big pot of that money flexible so 
that the States could do the things they were telling us they 
knew how to do very well. I suppose there are a lot of 
administrators who would take the safe course and not want to 
lead off of first base, but I think that there are some out 
there who would like the flexibility and can perform well given 
it. I will make this more coherent and comprehensible in a 
letter, Mr. Chairman.
    Chairman HERGER. I appreciate that. Mr. Sipes, would you 
like to respond to that?
    Mr. SIPES. I can do that in a letter, as well, if you would 
like.
    Chairman HERGER. Would you like to briefly respond now?
    Mr. SIPES. Actually, let me do it in writing. I would like 
to really sit down and give you a more complete----
    Mr. CARDIN. Mr. Chairman, I assume the record will remain 
open for the responses to our questions?
    Chairman HERGER. Absolutely. Without objection. Again, we 
do have votes coming up. I would like to thank each of our 
distinguished panel members for taking the time to appear today 
to help us review these child welfare reform proposals. I 
appreciate your comments on these proposals as well as the 
draft legislation. As I indicated earlier, it is my intention 
to work with other Members to incorporate helpful suggestions 
and introduce this legislation shortly.
    However, as we all know, it is important that we do 
everything possible to agree on one common principle. We must 
do more to protect these children. We also should keep in mind 
that the budgetary climate in the future is likely to look much 
different, making it more difficult to find additional 
resources the longer we wait. I encourage our witnesses and 
other interested parties to submit comments and engage with us 
throughout this process. I would hope that we could take this 
opportunity to reach common ground on the best ways to improve 
how to protect children. With that, this hearing stands 
adjourned.
    [Whereupon, at 2:12 p.m., the hearing was adjourned.]
    [Questions submitted by Chairman Herger and Representative 
Cardin to Hon. Frenzel, Dr. Arnold-Williams, Ms. Wilson, and 
Mr. Sipes, and their responses follow:]

 Questions from Chairman Wally Herger to the Honorable William Frenzel

    Question: The State agencies' testimony says that they ``strongly 
oppose the Safe Children, Strong Families provision that would cap 
Federal funding for caseworkers and training'' even though that amount 
would grow every year. Can you explain why the Pew Commission thought 
it was important to include these funds in the Safe Children, Strong 
Families grant, and why capping it makes sense?
    Answer: In the course of our deliberations, the Pew Commission 
heard repeatedly from state officials, child welfare professionals, and 
advocates that children would benefit if states--and specifically 
caseworkers--could use a greater proportion of Federal funds more 
flexibly to tailor their casework to meet the needs of the individual 
children and families they serve. The current Federal financing 
structure makes this very difficult, since caseworkers can only use a 
small portion of Federal dollars (Title IV-B) flexibly.
    The Commission was also concerned that, because ``admin'' dollars 
are tied to foster care caseloads, as caseloads decline, Federal funds 
for casework would also diminish. The indexed Safe Children, Strong 
Families grant that we propose, with additional funds in its first 
year, is intended to protect and grow funds for casework and other 
services to children and families.
    Many states and advocates have expressed concern that flexibility 
might come at a what they consider an unacceptable cost--a cap on the 
total amount of Federal money available to states that may prove 
inadequate to meet children's needs. The Safe Children, Strong Families 
Grant proposed by the Pew Commission tries to address states' need for 
flexibility, while also providing additional resources, and reliable 
funding in future years. Specifically, it would:

    <bullet>  give states greater flexibility in how they can use 
nearly half of Federal child welfare funds (about $3.1 billion in FY 
2004);
    <bullet>  provide additional resources in the first year for states 
to increase their capacity to meet a wide array of needs; and
    <bullet>  ensure that the grant grows in future years so that 
states have a reliable, mandatory source of Federal dollars to meet 
children's needs in a timely and appropriate way.

    The grant extends the flexibility of Title IV-B to the 
administration and training components of IV-E. This new flexibility 
would allow states to use a significant share of their Federal child 
welfare funding for any child welfare purposes currently allowed under 
IV-B, except for foster care maintenance payments. It would also give 
states broad flexibility to use their funds to train any personnel who 
are responsible for administering child welfare services. Thus, 
training funds could be used to provide training for public and private 
child welfare employees and court personnel, guardians ad litem, or 
other court-appointed advocates.
    Question: The Pew Commission report includes the following 
statement: ``We also believe that the primary focus of new Federal 
spending should be on helping States develop the capacity to reduce an 
over-reliance on foster care use--rather than on foster care itself.'' 
What led the Commission to conclude that States ``over-rely'' on foster 
care? What you're basically saying is that States are putting some 
children into foster care who with the proper supports and services do 
not need to not be in foster care, correct?
    Answer: At the beginning of our work, the Pew Commission sought 
input from a wide and diverse array of experts and stakeholders ranging 
from former foster youth and foster parents to academics and 
statisticians, from lawyers and judges to frontline caseworkers and 
agency administrators. To gather this input, we conducted focus groups, 
met with various organizations and put out a public ``call for input'' 
on our website. We also examined the data available through the 
Adoption and Foster Care Reporting System (AFCARS), the National Survey 
of Child and Adolescent Well-Being, the National Foster Care Data 
Archive and other sources.
    The Commission recognized that children must first and foremost be 
safe. Foster care provides this basic protection to children who cannot 
live safely in their own homes, and it should therefore always be 
available when there is no other way to keep a child safe. For this 
reason, the Pew Commission recommended keeping foster care maintenance 
as an open-ended entitlement.
    But we also heard time and time again that some children are in 
foster care who could be safely cared for in their own homes if the 
proper services and supports were available. The data also clearly 
indicated that many children were spending multiple years in foster 
care, often in many different foster homes, group homes, or 
institutions because states lack the financial capacity to provide 
services and supports necessary to secure for them safe, permanent 
families. The current Federal financing structure--which conditions 
states' access to the great majority of Federal dollars on the use of 
foster care and provides only relatively small amounts for other 
services--is a major contributor to this over-reliance on foster care.
    The Commission concluded that continuing the current open-ended 
safety net of foster care maintenance, with new dollars and incentives 
for other services and supports to vulnerable children, was the 
approach most likely to lead to reduced utilization of foster care 
while ensuring foster care remained an option when it is needed.
    Question: What incentives does the Federal government provide today 
to move kids from foster care, or prevent their placement in foster 
care in the first place?
    Answer: Currently, the only Federal financial incentive to move 
children from foster care safely to permanent families is the Adoption 
Incentive bonuses ushered in as part of the Adoption and Safe Families 
Act in 1997 and reauthorized this year. This program rewards states for 
increasing adoptions of children from foster care above specific 
baselines. There are no comparable incentives to prevent the placement 
of children into foster care in the first place or to move them into 
other permanent settings, including returning home to their parents.
    The Adoption Incentive program clearly demonstrates what can happen 
when the Federal government aligns financial incentives with desired 
outcomes-- ``child welfare systems and communities can [and do] 
deliver.''\1\ The success of the Adoption Incentive program was a 
significant factor in the Commission's decision to recommend several 
strategies for incentivizing the desired outcomes, including the 
reinvestment of saved foster care dollars, making subsidized 
guardianship available as a permanency option, creating a broader 
permanency incentive, and creating a workforce incentive.
---------------------------------------------------------------------------
    \1\ Fostering Results, Nation's Child Welfare System Doubles Number 
of Adoptions from Foster Care, October 2003, Child and Family Research 
Center, University of Illinois, Chicago, IL.
---------------------------------------------------------------------------
    Question: Has there been any reaction to your report from the 
Senate? Have you been meeting with the Senate? Do you have any sense 
that the other body is looking to act?
    Answer: The Commission kept interested members of both the Senate 
and House informed of our work. We believe there is strong interest in 
the Senate, but we are not privy to the specific plans of individual 
members or Committees.
    Question: In Ms. Williams' testimony, she urges us to consider 
making the changes proposed an option for the States. That is, if a 
State felt the current system better met their needs, they could keep 
the status quo. In your report on page 19, you say ``the Pew Commission 
decided from the beginning that it was not interested in `tweaking' the 
system.'' Do you think giving States the option to change these 
programs is the way for us to proceed?
    Answer: The Pew Commission considered a wide range of approaches to 
reforming Federal child welfare financing to better meet the needs of 
children who have experienced abuse or neglect. Because the fundamental 
problems and limitations in the current financing system applied to 
virtually every state, we recommended a comprehensive national approach 
to reforming Federal financing.
    At the same time, we were very cognizant of differences across 
states that might well lead different states to employ different policy 
responses. For that reason, our proposal seeks to give states much 
greater flexibility in how they can use Federal dollars, the option of 
subsidized guardianship as an additional route to permanency, and an 
expanded child welfare waiver program.
    Question: Please comment about why the Pew Commission felt it 
important to broaden eligibility for Federal payments, and also to pay 
for that broadened eligibility by lowering the Federal rate. I note Ms. 
Wilson expressed concern about ``any proposal that involves a too 
severe reduction in the rate of the Federal share.'' Could you address 
that concern and how the Pew proposal--and the draft bill--handles 
this?
    Answer: The Pew Commission's recommendation to ``de-link'' Federal 
payments from any income eligibility standard reflects the Commission's 
principle that every child who experiences abuse or neglect--not just 
every poor child--deserves the protection of both the Federal and state 
governments. The current ``look back'' to the 1996 AFDC income standard 
is unfair to children who need the protection of foster care; it is 
administratively burdensome and costly to states; and it results over 
time in a diminishing pool of children for whom states can claim 
Federal reimbursement.
    The Commission further concluded that, in a time of record federal 
deficits, new Federal investments should be directed to preventing the 
need to put children in foster care and to helping children leave 
foster care as soon as they safely can. For this reason, the Commission 
recommended a de-link approach that is cost neutral to both the Federal 
government and the states, paired with a recommendation of new funding 
for the Safe Children, Strong Families Grant, subsidized guardianship, 
and new incentives for workforce improvements and permanence.
    There are a variety of ways to de-link in a cost-neutral way. The 
Commission report offers one such way. Under our suggested approach to 
de-linking, states would receive the same amount of Federal funding 
under a de-link as they would under the old system. Thus, each state 
will have the same amount of combined Federal and state dollars to care 
for the same number of children; the only difference is that both the 
Federal and state government will share in the cost of care for each 
child.
    To remain cost-neutral, the mathematical effect is a reduction in 
Federal reimbursement rates of about 35 percent. However, because we 
also wanted to avoid creating fiscal winners and losers among the 
states through a delink, we recommended that every state receive 
exactly what it would have received under the current system--no less, 
no more. The practical effect of our proposal is therefore that states 
receive the same amount of money they would have received under the 
linked system, while allowing states to realize significant savings in 
administrative costs related to eligibility determinations.
                                 ______
                                 

        Questions from Representative Benjamin L. Cardin to the

                       Honorable William Frenzel

    Question: During your testimony, you specifically expressed 
concerns about capping Federal foster care maintenance payments.

    <bullet>  Are you concerned that a cap reduces the ability of the 
foster care system to respond to spikes in the caseload for reasons 
beyond a State's control?
    <bullet>  Do you believe a contingency fund can adequately address 
this concern? If so, how would you design it?
    <bullet>  Furthermore, are you worried that a cap may reduce the 
Federal government's financial commitment to vulnerable children over 
time? In other words, even if the cap is designed to grow, does it 
present a bigger target for future budget cuts than an open-ended 
entitlement?

    Answer: The Commission stated strongly its conviction that every 
child who experiences abuse or neglect deserves the protection of both 
the federal and state governments. Keeping foster care maintenance 
open-ended ensures such protection in the face of unexpected increases 
in the need for foster care stemming from circumstances beyond a 
State's control. A quick look at the percentages by which foster care 
use rose during the ``crack epidemic'' of the nineties demonstrates 
both the unpredictable nature of crises that threaten children's 
safety, as well as the great variability across states in factors that 
cause foster care use to increase.
    At the same time, the Commission wanted to reduce foster care use 
whenever safely possible. We concluded that incentives and an 
additional route to permanence (subsidized guardianship) are a more 
effective way to induce states to lessen their reliance on foster care 
than capping the amount of Federal dollars available.
    We had concerns about both the adequacy of the TANF contingency 
fund as well as whether it could be accessed by states in a timely 
enough manner to help them respond to a child welfare crisis. One 
possible alternative to the Chairman's proposed cap and contingency 
fund approach was discussed in our report:
    Some observers of the child welfare system are concerned that 
incentives alone will not be sufficient to drive policy changes in some 
states. If this proves to be the case after the incentives have been in 
place for a reasonable period of time, Congress may wish to consider a 
penalty in the form of a lower reimbursement rate for the marginal 
foster care expenditures that exceed projections. Such a penalty would 
not be based on expenditures for any individual child--for example, 
based on the individual's length of time in care--but rather on the 
state's aggregate foster care use. The decision to apply such a penalty 
would take into consideration whether factors beyond the control of 
child welfare policy makers--such as a sudden upsurge in drug use--were 
driving the increase in foster care use. (Fostering the Future, p. 26.)
    As the question suggests, concerns about the possible vulnerability 
to future budget cuts of a capped foster care program were among 
several of the reasons that the Commission recommended a combination of 
keeping IV-E foster care maintenance open-ended while putting IV-E 
Administration and Training in a capped grant that grows according to a 
formula. We believed this was a reasonable compromise, providing states 
with a large, flexible and reliable pot of money for casework, services 
to children and training, while also providing the ``safety net'' of 
Federal reimbursement for a portion of the cost of maintaining a child 
in foster care.
    Question: There is a broad consensus that more resources are needed 
for prevention and family support services to reduce the need for 
foster care. However, some have gone even further to suggest that the 
current child welfare financing system creates a perverse financial 
incentive to keep children in out-of-home care (because open-ended 
Federal matching payments are available for foster care).

    <bullet>  Do you agree with this sentiment?
    <bullet>  Doesn't every State actually save money when a child 
leaves foster care because they are required to pay for at least part 
of that care?
    <bullet>  More importantly, do you believe individual caseworkers 
are making placement decisions for children based on whether that child 
is eligible for Federal maintenance payments?

    Answer: The Pew Commission members did, indeed, see the current 
federal financing structure as creating ``perverse incentives'' that 
favor foster care over other services. While it is true that states do 
pay for a portion of foster care, and thus can save money when a child 
leaves care, it is also true that states have an obligation to keep 
vulnerable children safe. When the vast majority of Federal dollars are 
directed to out-of-home care, and state matching dollars are also 
targeted in this direction, the result is to limit the options 
available to a state for ensuring the safety and well-being of 
vulnerable children.
    Individual caseworkers make decisions based on keeping children 
safe within the context of the resources available and accessible in 
their community. Thus, an individual caseworker is unlikely to be 
thinking about a child's eligibility for Federal foster care 
maintenance payments. Nevertheless this payment structure drives the 
allocation of resources when funds for services are limited, as they 
are in the current financing structure, and this can indirectly 
influence casework decisions.
    Additionally, it is important to recognize that dependency courts 
bear the ultimate responsibility and authority for decisionmaking 
related to each child's individual case. Judges, too, need to focus on 
the needs of the child and the available community resources, and not 
be limited by a child's Federal eligibility status. This is one of 
several reasons that the Commissions' court and financing 
recommendations are integrally linked.
    Question: The General Accounting Office (GAO) reports that high 
turnover rates among caseworkers, inadequate training, low salaries, 
and large caseloads all undermine the capacity of a State to respond to 
children and families in crisis.

    <bullet>  In its current form, do you believe the Chairman's draft 
proposal does enough to improve the quality of the child welfare 
workforce?
    <bullet>  If not, what additional steps would you suggest?

    Answer: Chairman Herger's draft legislation would enable states to 
use the Safe Children, Strong Families Grant to provide training to a 
wide range of professionals in the child welfare workforce, should they 
choose to do so. The Commission's recommendations would do the same.
    In addition, the Commission recommends incentive payments to states 
that make improvements in their child welfare workforce. For states 
that meet and maintain certain workforce targets, the Federal 
government would provide a 1-percentage point increase in the match 
rate for the Safe Children, Strong Families Grant. The enhanced match 
rate would provide an incentive for states to continue to make 
investments in two critical areas: (1) improving the competence of the 
overall workforce and (2) lowering caseloads. The Commission recommends 
that HHS convene a collaborative working group of state officials, 
professional organizations and researchers to review existing standards 
and recommend national standards for both worker competence and 
caseload size.
    It is our sincere hope that these important incentives, together 
with the other significant changes we have recommended including 
subsidized guardianship and continuing the open-ended entitlement for 
foster care maintenance, will find their way into the Chairman's bill.

   Questions from Chairman Wally Herger to Dr. Robin Arnold-Williams

    Question: On p. 2 of your testimony, you say ``States that have 
worked hard to achieve a high IV-E penetration rate would be more 
negatively impacted by the adjustment in the Federal match rate and may 
in fact face a situation of receiving less Federal resources than under 
the current system.''

    <bullet>  This statement suggests that States are spending their 
time determining how to maximize Federal dollars as opposed to 
protecting children and providing services. Haven't States been asking 
for years for the Federal government to stop forcing them to determine 
eligibility based on outdated income requirements? Wouldn't ``de-
linking'' as proposed by Pew and the draft bill free more caseworker 
time and resources to monitor children and ensure they are being 
properly cared for? Isn't that the point of all this--better protecting 
children?

    Answer: APHSA and states have consistently supported an extension 
of the federal government's commitment for foster care and adoption to 
all children in out-of-home care, not just those from AFDC-eligible 
families. Although an administrative burden is inherent in having to 
establish eligibility, the more important issue is that an equitable 
state and Federal commitment would acknowledge that children come to 
the attention of the child welfare system due to the circumstances of 
abuse and/or neglect regardless of the income of their parents. 
Additionally, states are required to achieve the same positive outcomes 
for all children, provide the same federally mandated protections, and 
are at risk of losses of Federal funding, whether or not the Federal 
government has participated financially in that child's case. Given 
these factors, it is only reasonable that Federal funds be provided for 
the care of all children in foster care.
    Question: At several points in your testimony you suggest that 
States would prefer a number of the changes suggested in our draft 
legislation, if only they were options for States, instead of a package 
deal together. Isn't that what the Administration has been 
recommending? What was the States' response to that?
    Answer: As APHSA understands the Administration's flexible funding 
proposal, it would be a state option. Some states have expressed 
concerns with the provision in the foster care option that would 
require states to stay in the option for five years. In light of the 
fiscal difficulties in the states, and the uncertainty related to the 
rising cost of child welfare, caseload dynamics and other factors, 
states should be able to opt out of the plan given that the protection 
of children is the paramount concern. However, it is important to note 
that APHSA has not taken a formal position on the Administration's 
proposal to date pending specific legislation.
    State child welfare systems are at various stages of reform and 
their state fiscal situations vary. Some states have experienced 
dramatic declines in IV-E eligibility claims in recent years, some have 
achieved reductions in foster care caseloads, some have seen increases, 
and some have operated waiver demonstrations. In addition, states 
differ in the resources used to support their child welfare systems--
some have used TANF, SSBG, Medicaid, and a host of state and local 
resources. Therefore, states will need to engage in a complex 
calculation of whether to embrace any child welfare financing reform 
proposal or continue to operate under the entitlement structure.
    Question: What incentives does the Federal government provide today 
to move kids from foster care, or prevent their placement in foster 
care in the first place? Under the Pew proposal and the draft bill, if 
States succeed in keeping kids out of foster care, they could reinvest 
these funds in more services to families. Do you believe that States 
will not benefit from these types of incentives?
    Answer: The federal government currently provides few incentives to 
move children from foster care (adoption incentive bonuses, waiver 
demonstration projects for subsidized guardianship) and relatively few 
prevention dollars. State and local dollars are currently the primary 
source for services to prevent removal, provide in-home services and to 
move children to permanency once they enter foster care. States have 
supported the idea of having the option to redirect federal revenue for 
maintenance payments into other child welfare services whenever foster 
care is reduced. However, any legislation that does not provide for 
additional up front funding to help states reduce foster care caseloads 
enough to realize savings will not help achieve this reinvestment 
strategy. Additionally, states that have made this up front investment 
already should not be penalized financially for having done so. These 
states would reflect lower foster care expenditures during the years 
covered in the current baseline formula in H.R. 4856 and therefore, a 
lower baseline amount. States are noting the increasing needs of the 
children that are in foster care, therefore, the rising costs of care 
for these children should also be taken into account.
    There is also concern that combining service dollars with 
administrative and training dollars may result in less funds available 
for services. States that begin with a lower than current 
administrative and training amount due to the baseline formula, and 
factors such as routine and renegotiated salary increases, legal 
agreements to increase the number of staff and legislative requirements 
on child welfare staffing will require that states first use these 
grant funds to attend to those pressing factors which would decrease 
the amount available for funding services. The current structure of the 
Safe Children, Strong Families would leave states in the same bind of 
having fewer than needed federal resources for prevention and 
transition to permanency.
    Question: In the APHSA document Crossroads: New Directions in 
Social Policy, APHSA embraces two fundamental goals for child welfare 
financing reform. First, there should be Federal financial 
participation in support of all children in the child welfare system. 
And second, there should be increased flexibility in the use of Title 
IV-E funds. The draft bill accomplishes both of these goals. Given 
that, why would States want the option to continue to operate the 
current child welfare program?
    Answer: As outlined in Crossroads: New Directions in Social Policy, 
APHSA does support Federal financial participation for all children in 
the child welfare system and increased flexibility in the use of Title 
IV-E funds. Additionally, Crossroads highlights APHSA's support for the 
maintenance of the open-ended entitlement under Title IV-E and 
categorical eligibility under Medicaid for all children in foster care, 
both of which are currently not provisions in H.R. 4856.
    States are in very different places with respect to child welfare 
financing and a cap on funding may affect them differentially. In some 
instances, current law may be preferable. In preliminary analysis of 
the funding reforms proposed under H.R. 4856, a state that currently 
has a 75% penetration rate and a 50% FMAP rate for a population of 5000 
children in foster care would receive a 5% reduction in Federal match 
than if they were to continue to access Federal funds under the current 
entitlement structure. States need additional resources to meet the 
demands of the child welfare system and should not lose federal funding 
in order to eliminate the eligibility link to AFDC.


----------------------------------------------------------------------------------------------------------------
                                                                                                  Percentage
                                    No. of Children   50% FMAP match for                      Difference between
                                   eligible for IV-E      foster care      32.5% match rate     matching at 50%
 No. of Children in Foster Care       with a 75%          maintenance      for all children    for 1875 children
                                   penetration rate    payments for AFDC    in foster care     versus 32.5% for
                                                       eligible children                         1625 children
----------------------------------------------------------------------------------------------------------------
5000............................  3750..............  1875..............  1625..............  -5.0%
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

          Questions from Representative Benjamin L. Cardin to

                       Dr. Robin Arnold-Williams

    Question: During your testimony, you specifically expressed 
concerns about capping Federal foster care maintenance payments.

    <bullet>  Are you concerned that a cap reduces the ability of the 
foster care system to respond to spikes in the caseload for reasons 
beyond a State's control?
    <bullet>  Do you believe a contingency fund can adequately address 
this concern? If so, how would you design it?
    <bullet>  Furthermore, are you worried that a cap may reduce the 
Federal government's financial commitment to vulnerable children over 
time? In other words, even if the cap is designed to grow, does it 
present a bigger target for future budget cuts than an open-ended 
entitlement?

    Answer: Any projections made on the foster care caseload trends and 
expenditures must include both IV-E and non IV-E children. Our reading 
of H.R. 4856 indicates that the projected national baseline for the cap 
is reflective of the IV-E eligible population alone. This would be of 
concern given that when states merge IV-E and non IV-E caseload trends 
and expenditures, the baseline may be dramatically adjusted upward. A 
cap on the amount of Federal funds would limit the ability of some 
states to access Federal funding for children currently in their child 
welfare system if the financial ceiling was surpassed, regardless of 
any spikes that may occur due to unforeseen circumstances.
    Given that the safety and care of every child in foster care is of 
greatest concern to both states and the Federal government, a 
contingency fund should not be necessary. The federal commitment should 
continue to support any increase in caseloads experienced by states. 
APHSA has consistently supported an open-ended entitlement under Title 
IV-E to ensure the protections needed by all children in the child 
welfare system. States do have some concerns that any capping of these 
critical funds may be susceptible to future budget cuts.
    Question: There is a broad consensus that more resources are needed 
for prevention and family support services to reduce the need for 
foster care. However, some have gone even further to suggest that the 
current child welfare financing system creates a perverse financial 
incentive to keep children in out-of-home care (because open-ended 
Federal matching payments are available for foster care).

    <bullet>  Do you agree with this sentiment?
    <bullet>  Doesn't every State actually save money when a child 
leaves foster care because they are required to pay for at least part 
of that care?
    <bullet>  More importantly, do you believe individual caseworkers 
are making placement decisions for children based on whether that child 
is eligible for Federal maintenance payments?

    Answer: Timeframes in ASFA and in state public policy as well as 
the overall mission of child welfare overrule any perceived incentive 
to keep kids in foster care. Federal IV-E funding covers only a portion 
of foster care costs and the state bears the bigger share of the 
overall costs. Therefore, states do realize some cost savings when 
children are moved onto permanency.
    Question: The General Accounting Office (GAO) reports that high 
turnover rates among caseworkers, inadequate training, low salaries, 
and large caseloads all undermine the capacity of a State to respond to 
children and families in crisis.

    <bullet>  In its current form, do you believe the Chairman's draft 
proposal does enough to improve the quality of the child welfare 
workforce?
    <bullet>  If not, what additional steps would you suggest?

    Answer: APHSA has serious concerns with the provisions in H.R. 4856 
to limit the amount of Federal support available for caseworkers and 
the training needed to support their work. Given the structure of the 
Safe Children, Strong Families grant as outlined in the bill, the need 
for resources to ensure a quality workforce may negatively affect the 
amount of funding available for the needed services to children and 
families. Additional steps should include federal financial 
participation for private agency casework staff. In some states, 
private agency staff account for a large portion of professionals 
providing services for children in foster care. These professionals 
require the same administrative and training supports in order to 
effectively serve the same population of children that their 
counterparts in state positions serve.
                                 ______
                                 

      Questions from Chairman Wally Herger to Ms. Patricia Wilson

    Question: How many children are in foster care today, compared with 
1980? Is the Child Welfare League of America committed to helping 
States reduce the number of children in foster care? What specific 
efforts are you pursuing toward that goal?
    Answer: In 1980, there were 302,000, children in foster care. That 
actually represented a decline from 10 years earlier when 326,000 were 
in foster care. As you know, there were some dramatic caseload 
increases in the 19eighties due to the impact and spread of the crack 
cocaine epidemic. In the three most recent years, however, the trend 
has been declining. In 1999, 567,000 children were in foster care. The 
2000, 542,939 children were in foster care, and in 2001 the number of 
children in foster care declined even further to 540,563.
    CWLA has many ongoing efforts aimed at reducing the number of 
children in foster care. We assist our nearly 1,000 member agencies 
across the country in addressing the issue of foster care, as well as 
all other child welfare services.
    Through its training, technical assistance, and development and 
dissemination of practice tools to member agencies who provide child 
welfare services, CWLA supports efforts to help states reduce the 
foster care population. CWLA also engages in strategic coalitions to 
aid in the reduction of the number of children and youth in foster 
care. These efforts include but are not limited to:
    Community Support and Family Stabilization
    To prevent placement into the child welfare system, CWLA works with 
communities in advocating for:

    <bullet>  Increased funding for family preservation and family 
support.
    <bullet>  Funding for comprehensive family substance abuse 
treatment.
    <bullet>  Securing additional services for families receiving 
public assistance.
    <bullet>  The creation of the Parenting-Rich Community Initiative 
so parents have the resources they need to support optimal development 
of their children.
    <bullet>  The extension of grants to support innovations in state 
child protective services and community-based preventive services.
    <bullet>  Improved mental health services to children and families.

    In addition to working with communities, CWLA has provided:

    <bullet>  Educational sessions for homeless families in 
collaboration with member agencies in various cities.
    <bullet>  Trained professionals to develop local partnerships 
between child welfare agencies and public housing authorities.
Care of Children in Child Welfare
    While children are placed in the child welfare system, CWLA 
advocates for:

    <bullet>  Collaboration of national organizations, individuals, 
youth, families and other stakeholders to address the mental health and 
substance abuse needs of children and families involved in the child 
welfare system.
    <bullet>  Funding of comprehensive family substance abuse 
treatment.
    <bullet>  The continued bonuses to states that increase the number 
of children adopted from foster care, with an emphasis on older 
children.
    <bullet>  The increase of adoptions from the foster care system, 
through collaboration with the AdopUSKids campaign.
    <bullet>  The identification of promising program models that focus 
on permanency.
    <bullet>  Funding Federal grants for demonstration projects that 
eliminate the barriers to adoption facing children with special needs.
Permanency Options for Children and Youth
    CWLA seeks permanency options for children and youth involved in 
the child welfare system by:

    <bullet>  Developing kinship care resources, such as the 
development and dissemination of a resource booklet covering the 
complicated financial issues facing kinship care givers.
    <bullet>  Placing practice emphasis on youth in the foster care 
system. Addressing permanency for older children and youth in care.
    <bullet>  Convening meetings of the National Foster Youth Advisory 
Council to support youth leadership among youth in the child welfare 
system.
Reunification and Post Placement Services
    CWLA advocates for increased funding to prevent re-entry into the 
foster care system.

    <bullet>  CWLA worked with the New York City Housing authority to 
develop and maintain employment, youth development, housing, child care 
services, and other community supports for families.
    <bullet>  CWLA trained professionals to develop local partnerships 
between child welfare agencies and public housing authorities.CWLA 
formed partnerships with member agencies to provide information to 
communities that serve children and families.
    <bullet>  CWLA advocates and supports funding for services to 
families who have adopted children from the foster care system or are 
kinship care givers of children from the child welfare system. Funding 
to sustain and support these families is critical.
Workforce Issues
    CWLA has addressed the workforce issues in the child welfare system 
by:

    <bullet>  Presenting teleconferences to members on the workforce 
issues.
    <bullet>  Advancing research on the issue of workforce.
    <bullet>  Offers practical recruitment and retention strategies for 
public and nonprofit agencies.
    <bullet>  Advocating for new Federal funding for states to help 
relieve a shortfall in many state budgets.
    <bullet>  Publishing and disseminating program and practice 
resources for professionals in the field.
Overrepresentation
    CWLA is addressing the overrepresentation of children of color in 
the child welfare system by:

    <bullet>  Creating CWLA'S Statement on Children of Color in the 
Child Welfare System, which provided a set of proposed action steps.
    <bullet>  Providing technical assistance to agencies on cultural 
competence of their workforce.
    <bullet>  Works in partnership with other coalitions to develop an 
action agenda addressing the disproportionate representation of 
children of color in the system.
Standards of Practice
    Throughout the years, CWLA has established standards of practice, 
including caseload standards, in the following areas:

    <bullet>  Adoption Services
    <bullet>  Child Day Care Services
    <bullet>  Family Foster Care Services
    <bullet>  Health Care Services for Children in Out-of-Home Care
    <bullet>  In-Home Aide Services for Children and Their Families
    <bullet>  Kinship Care Services
    <bullet>  Management and Governance of Child Welfare Organizations
    <bullet>  Residential Services
    <bullet>  Services for Adolescent Pregnancy Prevention, Pregnant 
Adolescents, and Young Parents
    <bullet>  Services for Abused or Neglected Children and Their 
Families
    <bullet>  Services to Strengthen and Preserve Families with 
Children
    <bullet>  Transition, Independent Living, and Self Sufficiency 
Services

    Question: You contend that ``the basic safety net of Federal 
support offered through the Title IV-E program would be compromised by 
capping the amount of assistance available to States'' as proposed in 
our draft legislation. For the record, how does the current system---
which provides no incentives to move children from foster care more 
quickly because of unlimited funding--better protect these children? 
All the States have failed their child welfare reviews, which shows 
they are not adequately protecting children. Why would allowing States 
to collect additional Federal money for each added child do anything to 
encourage States to avoid more foster care placements?
    Answer: CWLA shares with you the goal to reduce the number of 
children who are abused and neglected and thereby also reducing the 
need for foster care.
    Merely capping Federal funding for foster care, however, will not 
achieve that goal. We believe that the best way to reduce the need for 
foster care is to adequately fund prevention and other supportive and 
family strengthening services and to address the key components of the 
child welfare system, such as workforce competencies, training, and 
caseloads.
    Title IV-E foster care assistance, as currently structured, does 
not offer states an incentive to place more children in out-of-home 
care. We offer several observations that underscore this point:

    <bullet>  Due to the current income eligibility restrictions, many 
children in foster care currently receive no Federal assistance and are 
supported by state funds only.

    The number of children in out-of-home care between 1999 through 
2001 has decreased by a total of approximately 24,000 children, while 
children in foster care covered by Federal funding under the Title IV-E 
program declined by approximately 38,000. That is a decline of 4.3% in 
overall placements compared to a 12.5% decline in federally subsidized 
placements. That reveals a cost shift that has reduced Federal support 
for foster care and has resulted in an increase in foster care costs to 
state and local governments.

    <bullet>  Title IV-E Federal foster care funds represent less than 
half the federal funds being used for foster care. For example, a 
review of states' use of the Federal funds they receive from the Social 
Services Block Grant (SSBG) over the past several years demonstrates 
that states continue to use SSBG funds for foster care. States make 
this choice despite the ability to use the same funds for prevention 
and other supportive services. Approximately 37 states spent more than 
$270 million annually in SSBG funding over the past few years to pay 
for foster care. A recent GAO report also found that despite Federal 
restrictions, some states were also using their Title IV-B Child 
Welfare Services funds for foster care. As current eligibility 
standards become more outdated and eroded by inflation, the pressure to 
use more flexible funding sources for such basic services as foster 
care maintenance and adoption assistance payments will place greater 
pressure not to use flexible funds for prevention or other services, 
but for out-of-home care.
    <bullet>  Avoiding foster care placements saves the states funds, 
as well as the Federal government, since Federal funds provided to 
states for Federal foster care assistance through Title IV-E must be 
matched by a commitment of state funds. For California, Maryland and 
New York, that share is fifty percent.

    The issues that need to be tackled in order to reduce the need for 
foster care are complex. They include adequate child welfare staffing 
and caseload sizes, training and the need for on-going training, access 
to services such as mental health and substance abuse--both in at home 
and out-of-home settings, prevention and intervention, and a number of 
other elements that make up the entire child welfare system.
    The Child and Family Services Review process has highlighted many 
of these issues. A review of 33 state Program Improvement Plans (PIP) 
submitted to HHS show that states are facing a number of common 
challenges. Of the 33 PIPs reviewed, 13 states specifically addressed 
the need to reduce caseload sizes for their workers. Thirty of the 33 
addressed the need to improve training. Other states cited turnover 
rates as an issue to be addressed and over half of the PIPS reviewed 
cited management issues as a need for improvement.
    All of the PIPS reviewed addressed the need to improve the 
availability of services in some way, including mental health services, 
substance abuse treatment, general health care issues, and system 
reforms. Nineteen states include the need to better address the needs 
of those children who are ``aging out'' of the foster care system. 
These are some of the issues that need to be addressed to reach the 
goal of reducing the number of children in foster care.
    Question: Your testimony does not mention that our draft 
legislation is paid for, including through offsets included in the 
House-passed welfare reform bill, which has failed to move in the 
Senate. Do you have any comments on that? Are any of the other bills 
you express support for in your testimony paid for?
    Answer: CWLA appreciates the urgency to address the mounting 
Federal deficit of more than $400 billion. Congress certainly faces a 
challenging time in which to set its priorities and make budget 
decisions.
    We believe that it would not be fair to hold investments for 
children hostage to future deficit reduction plans. Over the course of 
next several months Congress may consider the extension of tax 
deductions that will total $30 to $400 billion, a reauthorization of a 
transportation bill, the creation of a fund to address the phase-out of 
tobacco farming, needed increases in education funding, our growing 
defense needs, the cost of military action overseas and many other 
important proposals. Congress may decide to offset these costs or to 
approve them without a specified source of funding. We would expect 
that Congress also recognize that the needs of abused and neglected 
children should also be a top priority.
    The legislation we support in our testimony does not include 
offsets as currently written. They do, however, address some of the 
critical elements we have raised, including the need to assist states 
in implementing their PIPs, the need for a national strategy on 
workforce, correction of the current eligibility under Title IV-E, and 
enhanced prevention and support services through a fully funded 
Promoting Safe and Stable Families program. Again, we highlight the 
fact that ultimately Congress must set and act on national priorities. 
We believe that addressing the needs of children should be one of those 
top priorities.
                                 ______
                                 

        Questions from Benjamin L. Cardin to Ms. Patricia Wilson

    Question: During your testimony, you specifically expressed 
concerns about capping Federal foster care maintenance payments.

    <bullet>  Are you concerned that a cap reduces the ability of the 
foster care system to respond to spikes in the caseload for reasons 
beyond a State's control?
    <bullet>  Do you believe a contingency fund can adequately address 
this concern? If so, how would you design it?
    <bullet>  Furthermore, are you worried that a cap may reduce the 
Federal government's financial commitment to vulnerable children over 
time? In other words, even if the cap is designed to grow, does it 
present a bigger target for future budget cuts than an open-ended 
entitlement?

    Answer:

    <bullet>  CWLA has serious concerns about the impact of a cap on 
Title IV-E for foster care maintenance funds. We share the goal of the 
Subcommittee to reduce the number of children in foster care, but 
believe that this goal will not be achieved by simply limiting Federal 
foster care assistance. As we responded in question two, what is needed 
to reduce foster care caseloads is adequately funding for prevention 
and other supportive and family strengthening services and addressing 
the systems issues such as workforce competencies, training, and 
caseloads.
    <bullet>  CWLA believes that the proposed contingency fund will not 
adequately address an unanticipated need. Many have highlighted the 
dramatic increase in foster care caseloads during the late eighties and 
early nineties as a result of the crack-cocaine epidemic. While we hope 
a similar experience such as the spread of the methamphetamine would 
not have a similar impact, it would be unwise to leave the nation 
unprepared.
          As proposed in the Chairman's bill, states would have the 
        option to draw from the existing Contingency Fund for State 
        Welfare Programs. This emergency fund was created to address 
        TANF cash assistance caseload increases. To qualify for this 
        additional funding, a state must have spent all of its Federal 
        foster care funds and meet the definition of ``severe foster 
        care crisis.'' There are two ways to meet the ``crisis'' 
        definition: (1) a state must have experienced a statewide 
        average of 15% increase in its foster care caseload from the 
        previous year and national foster care caseloads must have 
        increased 10%; or (2) a state's foster care caseload increased 
        by 20%. To determine caseload increases, the state must compare 
        the most recent 6-month period to the corresponding 6-month 
        period in the previous year.
          This formula does not address the need for increased Federal 
        foster care assistance if the increase is limited to a specific 
        urban area or single state. It also leaves out any 
        consideration of increased costs in care as opposed to 
        increased numbers of children in care.
          In addition, a contingency fund that is designed to address 
        the needs of the TANF population may create some unappealing 
        choices for state human service programs. Any contingency fund 
        would have to be designed to respond to the needs of the child 
        and the number of children in need of protection. To adequately 
        protect these children this fund could not have an artificial 
        cap and could not be dependent on an annual appropriation.
    <bullet>  CWLA is concerned about the stability of funding over 
time for Federal block grants. It is unclear if Congress would sustain 
even a level amount of funding for foster care over time. The history 
of one of the largest and most flexible block grants--SSBG--is not 
encouraging. SSBG was converted from an entitlement fund to a block 
grant to the states and funding for SSBG has not kept pace. SSBG 
funding was $2.8 billion in 1995, reduced several times from 1996 
through 2000 and is currently funded at $1.7 billion. Congress reduced 
funding for SSBG to offset other priorities, including overall deficit 
reduction and to provide increased funding for transportation.

    Question: There is a broad consensus that more resources are needed 
for prevention and family support services to reduce the need for 
foster care. However, some have gone even further to suggest that the 
current child welfare financing system creates a perverse financial 
incentive to keep children in out-of-home care (because open-ended 
Federal matching payments are available for foster care).

    <bullet>  Do you agree with this sentiment?
    <bullet>  Doesn't every State actually save money when a child 
leaves foster care because they are required to pay for at least part 
of that care?
    <bullet>  More importantly, do any of you believe individual 
caseworkers are making placement decisions for children based on 
whether that child is eligible for Federal maintenance payments?

    Answer: This is an important question because it deals with a 
strongly held belief by some that funding sources drives the decision 
to remove children from their homes.
    As we pointed out in question two, in the last 3 years the overall 
number of children in out-of-home care subsidized by Federal Title IV-E 
foster care funds has decreased by a higher percentage than the overall 
reduction in out-of-home placements. A simple conclusion would suggest 
that out-of-home placements funded through state dollars or flexible 
Federal dollars would go down at a faster rate than Federal Title V-E 
funded children. This is not what happened and it hasn't happened 
because the decision to remove a child is much more complex and 
effected by multiple factors.
    Question: The General Accounting Office (GAO) reports that high 
turnover rates among caseworkers, inadequate training, low salaries, 
and large caseloads all undermine the capacity of a State to respond to 
children and families in crisis.

    <bullet>  In its current form, do you believe the Chairman's draft 
proposal does enough to improve the quality of the child welfare 
workforce?
    <bullet>  If not, what additional steps would you suggest?

    Answer: CWLA believes that national leadership and support is 
needed to truly address the current crisis in the child welfare 
workforce. Better supports for the workforce need to be a critical 
component of any comprehensive child welfare reform measure.
    The Chairman's bill would cap Title IV-E training funds and place 
those funds into a block grant to states to be used for administration, 
training, and services. These funds are used to prepare social workers 
for the job of working with the courts; working with other social 
service providers; creating treatment plans for children and families; 
and achieving permanency for children, ranging from reunification to 
guardianship to adoption.
    In the Chairman's proposal, no funding for training would be 
guaranteed. While including these funds in a block grant would give 
states more flexibility with the use of the funds, it also means that 
states would be faced with pitting the training needs of staff with the 
need to provide services to children and families. This is a choice 
that no state should have to make.
    CWLA feels that proposals included in H.R. 1534 and H.R. 2473, that 
provide funding for a comprehensive strategy with outcomes and measures 
tied to workforce development are a better solution. These bills also 
provide loan forgiveness for workers and expand access to training 
funds as part of this national strategy.
    Last fall, the Subcommittee focused its hearings on the state of 
New Jersey and the conditions in its child welfare system, which had 
been highlighted in the national media. New Jersey has since adopted a 
comprehensive reform plan. A major portion of that plan deals with 
workforce improvements. New Jersey's experience offers an important 
national perspective. As stated in New Jersey's reform proposal, 
``Child welfare casework may not be rocket science or brain surgery--in 
some cases it may be harder.''
    New Jersey's plan indicates the need for adequate staffing. Over 
the next 2 years New Jersey intends to hire an additional 416 child 
protection and permanency workers, 48 casework supervisors, 136 
adolescent specialists, and 191 new resource family support workers. 
Through the end of last year New Jersey had already added an additional 
253 workers bringing the workforce total to nearly 2,000 workers. In 
order for New Jersey to implement its full plan, the state legislature 
has just approved a funding increase of $125 million for fiscal year 
2005. That is in addition to its current budget of $520 million. The 
Governor has also proposed $180 million more in 2006. These proposals 
stand in contrast to the level of new Federal investments included in 
the Chairman's legislation.
    Question: What is the Child Welfare League of America's position on 
consolidating certain funding steams, including open-ended funds for 
administration, into a new capped grant that includes additional 
resources compared to CBO's baseline (as proposed by both the Pew 
Commission and the Herger Draft)?
    Answer: CWLA has serious concerns about the impact of including 
Title IV-E administration into a block grant. Title IV-E administration 
provides funding for activities directly related to achieving safety 
and permanency for children in foster care. Capping the amount of 
Federal funding a state can receive for that activity could make it 
more difficult to achieve those outcomes. Any reform proposal that 
moves forward, must ensure that funding that supports social work staff 
and is used for case management are guaranteed.
                                 ______
                                 

        Question from Chairman Wally Herger to Mr. Samuel Sipes

    Question: What do you believe is the single biggest factor today 
that prevents States from better protecting kids in care? Do you 
believe the current child welfare system provides the proper 
distribution of resources, in terms of services and out-of-home 
placements, to protect children and strengthen families? What 
incentives does the Federal government provide today to move kids from 
foster care, or prevent placement in foster care in the first place? 
Right now when the foster care caseload falls, it could mean fewer 
Federal dollars for States. We know the caseload has been falling since 
1999. However, the draft bill proposes a guaranteed and rising level of 
funding for foster care for the next 10 years. If States succeed in 
keeping kids out of foster care, they could reinvest these funds in 
more services to families. Do you believe that States, and more 
importantly children, will benefit from these types of incentives?
    Answer: Money, by itself, will not solve the problem. The money has 
to be spent on the right thing. Because Federal funding is mostly 
provided to States for out-of-home care, States mostly offer out-of-
home care. I believe that there is inadequate emphasis placed on 
prevention programs and services to reduce the likelihood that children 
will need to be placed into foster care. While I do not believe that 
Federal funding provides an incentive for States to inappropriately 
remove children from their homes, it does not provide an adequate 
financial incentive for States to prevent abuse and neglect. Assuming 
that adequate funding is available, the flexibility to shift resources 
in order to provide effective services to at-risk families, should 
ultimately strengthen families and reduce foster care placements.
    [Submissions for the record follow:]

 Statement of Carmen Delgado Votaw, Alliance for Children and Families

        Alliance for Children and Families' Recommendations for

                     Child Welfare Financing Reform

    There is a growing consensus among national advocacy groups, child 
welfare providers, as well as many state officials and policymakers 
that the current mechanism for funding the nation's child welfare 
system needs revision, and must be revamped.  Child welfare funding has 
eroded and funding for children in the foster care system who often 
have severe physical and psychological needs has been woefully 
inadequate for years.  It is imperative that any proposed changes meet 
the needs of children currently in the foster care system while 
assuring that adequate resources are available for prevention and early 
intervention services that decrease the number of out-of-home 
placements over time. The Alliance for Children and Families agrees 
with the Subcommittee that this issue merits consideration and ample 
reflection before proposals for change are put into motion.
    As the only national organization solely representing the interests 
of private nonprofit organizations that deliver front-line services to 
children and families, the Alliance for Children and Families has a 
unique role in child welfare reform. The core values and 
recommendations of our members, outlined in this testimony, have been 
informed by years of providing human services to nearly 8 million 
people each year in more than 6,700 communities across America.

Alliance Observation and Recommendations
Create a Continuum of Care
    Children and families being served by the child welfare system 
benefit more fully when they can receive comprehensive services. A true 
continuum of care should be established by coordinating intersecting 
funding streams. Funds from major federal programs affecting low-income 
and vulnerable families such as TANF, Medicaid, the Social Services 
Block Grant, and CAPTA should share accountability for the wellbeing of 
children and support States in achieving Adoption and Safe Family Act 
(ASFA) outcomes and performance improvement plans as required under the 
Children and Family Services Reviews (CFSR). For instance, it is time 
that Medicaid and the child welfare system work together in a concerted 
way to assure that the unique physical and behavioral health needs of 
children in the child welfare system are met.
    The federal agencies that administer these respective funding 
streams should share accountability for ASFA outcomes. Agencies would 
be required to submit a yearly report detailing how these funding 
streams are being used and coordinated to produce seamless systems of 
care for children, and positively affect ASFA outcomes and national 
standards.
    To ensure accountability, state plans for all pertinent funding 
streams should be responsible for child welfare outcomes. These plans 
should demonstrate to the Federal Government how these funding streams 
are being leveraged to affect measurable results for children served in 
the child welfare system through policy, practice and innovation.
    Finally, the CFSR process should be revised to include review of 
these other interrelated funding streams, their coordination and 
positive impact on State child welfare performance.

Assuring Quality Services to All Children
    Any reform to the child welfare system should ensure that all 
children in need of protection and support are eligible for federally 
funded, State administered services, regardless of family income. By 
eliminating the 1996 AFDC ``lookback'' provision of Title IV-E, states 
would be relieved of the onerous administrative burden of determining 
eligibility for every child in their care.
    It should be noted by Congress that since 1996 there has been a 
quiet erosion of state/federal partnership due to states being made to 
use outdated 1996 criteria for determining IV-E eligibility. Any 
proposal considered by Congress should include a clear fiscal analysis 
of the impact on states and steps to remedy the situation to the 
maximum extent possible. The human services field has had a negative 
experience with block grants to date, highlighted by the example of 
deep cuts to the Social Services Block Grant over time, despite 
increased need for effective community services to benefit children and 
families. Any funding mechanism of the child welfare system must be 
consistent, reliable and able to modify and increase funding levels to 
states based on risk and needs of children and their families. Current 
legislative proposals consider a block grant strategy that places a cap 
on available child welfare funding to states. The Alliance is hesitant 
to support any form of block grant program that does not employ a clear 
formula that recognizes demographics, the economy, inflation, and other 
risk factors within the states.
    The network of public child welfare agencies and private 
organizations holding contracts for the provision of child welfare 
services must be funded adequately to possess the internal capacities 
for continuous quality assurance and improvement. For too long, changes 
to the child welfare system have been externally driven by audits, high 
profile cases and lawsuits. The federal government must build consensus 
with states and child welfare providers and recognized national 
accreditation bodies to define minimum standards of practice, a 
consistent definition of child safety, and appropriate caseload and 
supervisory ratios.
    To provide support for youth aging out of the foster care system, 
the Chafee Independent Living Program should continue to base funding 
allocations on the number of children by age in out-of-home care. Clear 
measurable outcomes should be sustained for children transitioning from 
foster care to independence or individuals between the ages of 18-21 
who have left foster care but still require supports and services. 
Additionally, 1.5% of the total Chafee allocation should continue to be 
committed to important research and evaluation efforts.
    An important way to facilitate the current match program that 
reinforces states in expanding the capacity and sophistication of their 
State Automated Child Welfare Information System (SACWIS) systems 
should be upheld. By maintaining incentives to make improvements that 
support practice and track system outcomes, states are able to make 
strides towards meeting rigorous CFSR standards.

Permanency for Every Child
    The Alliance supports maintaining IV-E Adoption Assistance as an 
entitlement with the current match requirement, but advocates 
broadening the scope of the financial assistance to include subsidized 
guardianship when both reunification and adoption have been ruled out. 
The Alliance suggests changing the program title to ``Permanency 
Assistance'' to reflect inclusion of subsidized guardianship.
    Currently, Adoption Assistance is based on IV-E eligibility. Under 
our recommendation, there would no longer be an eligibility threshold 
for children placed in out-of-home care, therefore no income/asset 
tests should be administered in determining eligibility for 
``Permanency Assistance''.
    To provide incentives and encourage innovation in meeting 
permanency outcomes unlimited cost-neutral waivers should be available 
to states. Once waivers have demonstrated that they are achieving 
success and cost-neutrality, States should be permitted to implement 
these programs without waivers.
    Additionally, the current Adoption Incentive bonus program should 
be eliminated to create access to a new pool of bonus dollars for 
states that show substantial improvement on all indicators from year to 
year as evidenced in their Program Improvement Plans in measures of 
safety, permanence and well-being of children. All bonus dollars 
received by states must be spent within the state's child welfare 
program with at least half of the bonus dollars being reinvested in 
prevention or early intervention services to decrease out-of-home care 
placements.

Quality Workforce At Risk
    The deteriorating state of the child welfare workforce can no 
longer be ignored, and in fact is at a crisis point needing both 
federal and state responses. Adequate education and training, continued 
competence, quality of supervision, pay and health benefits of critical 
front-line staff must be addressed. To address these issues, the 
Alliance recommends that a sufficient percentage of total child welfare 
allocations to states be made available, under a matched incentive 
program, to States, tribal governments, private agencies under child 
welfare contracts, and educational and research institutions.This 
program would be used to fund innovation in workforce development, 
including training and professional development and research and 
evaluation, agency accreditation, and court improvement projects.
    To further stimulate interest in human service issues and attract 
quality individuals to the child welfare workforce, all schools of 
higher learning, public and private, should have access to these funds 
for masters programs in fields related to child welfare (currently only 
available to publicly funded schools of social work). Students eligible 
for this funding should be required to commit to working at least two 
years in the child welfare system--either in a public or private agency 
under contract for child welfare services. A requirement for these 
funds should be that all programs have a fully developed child welfare 
curriculum.
    In addition, training for staff of private child welfare agencies 
under contract to provide child welfare services should be eligible for 
Title IV-E reimbursement at the same 75 percent matching rate as that 
for personnel employed by state or local public agencies.
    Other programs that could be utilized to support staff working in 
the child welfare system include preferred status for federal 
homeownership programs, education loan forgiveness programs, or 
expansion of affordable health benefits to those individuals who work 
for non-profit service organizations.
    To improve court proceedings involving children, families and 
caseworkers, the Alliance recommends that all state and local courts 
have access to these funds for the following:

    <bullet>  Assuring the compliance of children's courts with ASFA, 
state/federal laws and standards
    <bullet>  Assuring sufficient capacity to meet caseload demands
    <bullet>  Supporting efficiency of court operations
    <bullet>  Increasing competencies of judges, court personnel, 
district attorneys, corporation counsels, guardians ad litem, and CASA 
volunteers.

Critical Need for Quality Information, Data, and Evaluation
    The federal Adoption and Foster Care Analysis and Reporting System 
(AFCARS) is outdated. It is necessary to improve the AFCARS system to 
assure its ability to track change over time relative to each state's 
performance and to include data elements that would determine the 
likelihood of adoption, reentry, reunification, and recurrence among 
the foster care population. With changes to AFCARS, some modifications 
to state/county SACWIS systems could be needed. States should be 
required to assure that nonprofit agencies contracted for child welfare 
services have access and use of state SACWIS systems.
Conclusion
    As a nonprofit membership association representing child and family 
serving organizations, the Alliance for Children and Families is 
finding increasingly that our agencies' contracts with state and local 
agencies do not provide adequate reimbursements for the expectations 
they carry.
    The Alliance for Children and Families would welcome the 
opportunity to share the voices of America's nonprofit human service 
providers with the Subcommittee as it shapes legislation that redesigns 
the nation's child welfare system. It is our hope that the Subcommittee 
can be persuaded to delay introduction of any legislation until there 
is more opportunity to explore the state by state impact of provisions 
that may cap funds for foster care, administration, training, and 
services.
    We share with you our resolve in assuring that all children and 
families in need of protection and support are served with quality 
services that achieve quality outcomes.

                                 <F-dash>

          Statement of J. Holderbaum, Child Protection Reform,
                         Minneapolis, Minnesota
    The new proposed bill does not do enough to address the ongoing 
problems in our system of child protection.
    Hotline--The child abuse hotline must be eliminated. In the year 
2002 alone, reports were filed affecting 4.5 million children. After 
screening and investigating, less than 1 million children were found to 
be in need of services. Clearly, the hotline is not an effective tool 
to prevent child abuse, but serves only to clutter up an already 
overburdened system with reports fueled by overzealousness, hysteria 
and malice.
    Mandated reporting--This process has degenerated into a fear-driven 
system. Mandated reporters are not reporting responsibly. They are 
reporting because they are afraid that if they don't, they will risk 
losing their licenses. Their reports are used as evidence against 
innocent families because they are licensed professionals. Mandated 
reporting should be done responsibly and, if it is not, these reporters 
should be sanctioned. No family should be traumatized by a false 
report. Families and mandated reporters should not be adversaries. 
These are our doctors, nurses, teachers, police officers. We have 
created an atmosphere of hostility between families and these 
professionals which will not serve our country positively in the years 
to come.
    Immunity--No immunity from prosecution should be given to anyone 
working within child protection. This only serves to promote deception 
and even perjury in civil court. If someone lies in court, violating 
the law and their oath, they absolutely should be punished to set an 
example to deter others from doing the same. Presently, deception and 
perjury are common practice in all of our family and dependency courts 
nationwide because of immunity from prosecution and many innocent 
families are suffering because of it.
    Federal Funding Stream--The criminality of taking children for the 
money must come to an immediate end. Children do not exist to fill 
state funding quotas. Child Protective Services caseworkers, 
supervisors, commissioners, law guardians, prosecutors, court-appointed 
attorneys, judges, psycho-therapists, counselors, contracted agencies 
such as foster homes, group homes, institutions all benefit from taking 
children away from their families. When a family was not in need of 
services to begin with and has been forced into services regardless, it 
constitutes fraud. Defrauding the federal government should not be 
overlooked as it has been since CAPTA began. This very serious fraud 
runs into millions of dollars annually, money which should be reserved 
for those children genuinely in need of services.
    Definition of Child Abuse--What is child abuse and neglect? Clarify 
the definition of abuse and neglect on a federal level. Stop the 
discrimination of families with ``at risk'' definitions which have no 
foundation. Among those at risk are the poor, minorities, single 
parents, large families, religious families, home-schooling families 
and families with disabled children. These families are no more at risk 
than the rest of the population. Child abuse knows no boundaries, yet 
these are the families who are targeted repeatedly. Why, because they 
are low-income. They have become a part of the statistics because they 
were unable to defend themselves in court and had to agree to services 
under the threat of losing their children. The overwhelming majority of 
children taken into protective custody are poor children. WE MUST STOP 
DISCRIMINATING AGAINST THE POOR. This is inhumane. We can help the poor 
without taking away their children. Children are also being taken from 
their parents and suffering terribly for reasons as trivial as having a 
bruise that resulted from playing or an accidental fall, living in a 
messy house or not having a refrigerator full of food. The list of 
trivial reasons for removing a child is endless and has nothing to do 
with abuse or neglect. Guidelines need to be clarified. Children should 
only be taken into protective custody when they are at imminent risk of 
harm, not speculative harm, or possible future harm, but real immediate 
danger. Guessing and speculating have no place in this most important 
system of protecting children. This is not a game we are playing with 
families. Children do not recover from the trauma of separation, it 
leaves a lifelong emotional scar.
    Richard Wexler, National Coalition for Child Protection Reform, 
states:
    ``In general, this appears to be a good bill. Changing financial 
incentives is actually more important in achieving reform than any 
narrowing of definitions of child maltreatment. No matter how much you 
try, the definition always will leave room for a caseworker to remove a 
child if s/he wants to.
    On the matter of financial incentives, eliminating the link to AFDC 
for foster child eligibility is not a problem because the bill 
compensates by lowering the amount of reimbursement states receives for 
each child.
    The one big problem with the bill is this: FOSTER CARE 
ADMINISTRATION AND TRAINING MONEY IS NOW PUT IN THE SAME POT WITH 
PREVENTION MONEY AND STATES WOULD BE FREE TO USE THIS MONEY ON ALL OF 
THESE THINGS. WHENEVER MONEY FOR ANYTHING INVOLVING FOSTER CARE IS PUT 
IN THE SAME POT AS PREVENTION, PREVENTION LOSES BECAUSE THE FOSTER-CARE 
INTERESTS ARE SO GOOD AT GRABBING THE MONEY FOR THEMSELVES.
    I RECOMMEND ADDING A PROVISION TO THE BILL WHICH SAYS THAT, IN 
CREATING THIS NEW POT OF MONEY, THE FOSTER CARE FUNDS CAN BE USED FOR 
PREVENTION, BUT THE PREVENTION FUNDS CAN'T BE USED FOR FOSTER CARE 
ADMINISTRATION AND TRAINING.''
    Please consider adding this provision to your bill. Please also 
consider addressing the criminality of those who work within the system 
of child protection. Until these issues are dealt with responsibly, 
innocent families will continue to suffer and children who are 
genuinely in need of protection will not receive the protection they 
need.
    Finally, please understand that unfortunately, there are always 
going to be children who never make it onto CPS radar. There will 
always be homicides in our world. These tragedies should not send us 
running into the homes of every family to investigate, but should serve 
to remind us that as a civilization we have far to go in becoming 
educated, enriched, tolerant and compassionate. This has always been a 
hard lesson, but one that we should continue to teach to all our fellow 
men, women and children.
    Thank you for your consideration.

                                 <F-dash>

    Statement of Miriam Aroni Krinsky, Children's Law Center of Los 
                   Angeles, Monterey Park, California

A.  Introduction
    There are more than half a million children in foster care 
nationally, almost double the number from the 1980s. Some children 
remain under child welfare jurisdiction for only a few months while 
their parents get their lives back on track; thousands of others, 
however, cannot safely be returned home and ``grow up'' in foster care
    As this committee has noted, the Federal Government sends $7 
billion annually to the States to ensure that all of America's children 
are protected from abuse and neglect. Unfortunately, that financial 
investment in children and families often doesn't do enough to change 
for the better the young lives we undertake to protect and nurture. 
Because the largest source of federal child abuse prevention and 
treatment funds can only be accessed once a child is removed from the 
home and brought into foster care, child welfare has little or no 
resources to provide in-home or other preventive services that could 
keep more families intact. Instead, social workers are forced to either 
wait until a situation becomes serious enough to warrant removal, place 
children in foster care at great expense both to the child and the 
community, or do nothing and risk reading about any resulting tragedy 
on the front page.
    Once the State does intervene, life for too many youth in foster 
care is characterized by movement from placement to placement, 
disruption of schooling, and the severing of ties with all that is 
familiar to the child, often including siblings and extended family. It 
is thus not surprising that foster youth find it difficult to keep up--
75% of children in foster care are working below grade level in school, 
almost half do not complete high school, and as few as 15% attend 
college. Nor is it surprising that these troubled youth become troubled 
adults; within two to four years after young people emancipate from 
foster care, 51% are unemployed, 40% are on public assistance, 25% 
become homeless, and one in five are incarcerated.
    Searching for solutions and new approaches in no easy task. The 
Children's Law Center of Los Angeles (``CLC'') has committed itself to 
be part of that endeavor. CLC is a nonprofit, public interest law 
corporation created over a decade ago and funded by the Los Angeles 
County Superior Court to serve as appointed counsel for abused and 
neglected youth in one of the largest child welfare systems in the 
nation. We serve as the ``voice'' in the foster care system for the 
vast majority (over 80%) of the 30,000 children under the jurisdiction 
of the Los Angeles County dependency court.
    CLC's dedicated and passionate185-person staff represent children 
who are at risk of abuse or neglect in juvenile dependency proceedings 
and advocate for the critical services and support these children so 
desperately need. As court appointed counsel for the most vulnerable 
children in our community, we experience on a daily basis the 
tremendous challenges children and families involved with the child 
welfare system encounter. On a broader level, CLC strives to identify 
areas where systemic reforms are needed and to work to bring about 
those more far-reaching changes. Given our organization's status as the 
largest representative of foster youth in California, if not the 
nation, we are uniquely positioned to help propel innovation and change 
on a local, state, and national level.
    There are a variety of areas where a new approach to our nation's 
longstanding and less than successful way of doing business could 
enhance our collective ability to address the needs of abused and 
neglected youth in foster care. Given the mandate for reform resulting 
from every State's failure to achieve expected standards set forth in 
the recently completed federal child welfare system reviews, the time 
is ripe for change. The most critical areas in need of attention are 
discussed below.
B.  The Need for New Approaches
1.  Flexible and Adequate Federal Funding and Reform of the ``Front 
        Door'' of the System
    Current restrictions on federal funding streams favor entry of 
children into foster care rather than the development of supportive 
prevention and diversion programs. In particular, under the Title IV-E 
federal child welfare financing system there are inadequate resources 
devoted to programs and services aimed at maintaining children at risk, 
when appropriate, in the home. Indeed, there is a disincentive to serve 
children within their home under existing federal funding eligibility 
requirements that tie monetary allocations to the placement of children 
in out of home care and the length of time a child spends in care. 
Consequently, there are relatively few programs or child welfare 
services --either long term or on an emergency basis--that a social 
worker can access to provide immediate stabilization and maintenance of 
a child at risk within his or her family of origin, even when it might 
be safe and in the child's best interest, with outside support, to keep 
the family intact.
    Under the current funding structure, the lack of resources 
available to children who would be best served within their existing 
family results in early warning signs being effectively ignored. At the 
time of a family's initial contact with child welfare, the risk may not 
be serious enough to warrant the drastic step of removing the child 
from his or her family home. The lack of funding for in-home services 
or ongoing visitations by the social worker, coupled with long wait 
lists at community based agencies, ultimately places the child and 
family at greater risk for future abuse.
    Child welfare officials should have the resources and ability to 
offer the kind of social services that could give troubled but still 
functioning families a fighting chance to stay together. Not until a 
child is seriously hurt, placed in grave danger, or the family's 
desperation otherwise becomes apparent, does the child welfare system 
respond. And at that point the response becomes in and of itself 
another in the long list of traumas that children are subjected to as 
they journey through the child welfare system. Once a child is removed 
from their family and placed in foster care, multiple placements, 
instability, school failures and significant mental heath challenges 
become the norm.
    Federal child welfare funding can and should be restructured in a 
manner that would enable local jurisdictions to fully fund child 
welfare services, whenever and wherever those services are needed. 
Specifically, as recommended in the recent report of the Pew Commission 
on Children in Foster Care (FOSTERING THE FUTURE: Safety, Permanence 
and Well-Being for Children in Foster Care, May 18, 2004),new 
approaches should be developed to releasethe current federal funding 
straitjacket and allow for use of the largest source of federal child 
welfare funds in a manner that better attends to the needs of children 
and families, without jeopardizing child safety.
    A more flexible federal funding stream would allow for the creation 
of effective and comprehensive methods of diverting families from the 
foster care system, while also stimulating greater innovation aimed at 
supporting families. By allowing child welfare agencies to implement 
services aimed at serving families before tragedy strikes, the federal 
government will ultimately realize the ability to serve more families 
with greater success. Increased flexibility in the use of resources 
would allow counties and states to develop and access a wide variety of 
community resources to respond to the safety and permanency needs of 
all children and families in the most timely, effective, efficient and 
least intrusive manner. Such a restructuring of financing for child 
welfare services would enable counties to develop a more effective and 
fact-driven differential response at the front end of the foster care 
system, based on a rational assessment of both risk to the child and 
family strengths. This approach would also enable the more intensive 
court supervised interventions to be focused on children and families 
with the greatest need.
    The Pew Commission recommended not simply greater flexibility in 
the use of federal dollars, but also that we allow states to 
``reinvest'' federal dollars that would have been expended on foster 
care into other child welfare services, if those approaches safely 
reduce the use of foster care. States should be allowed to use federal 
funds proactively for services to keep children out of foster care or 
to leave foster care safely. The Commission also recommended that the 
federal government expand and streamline the child welfare waiver 
program, devote resources to training, evaluation, and sharing of best 
practices, and provide bonuses to states that make workforce 
improvements and increase permanence for children in foster care. All 
of these approaches warrant serious consideration.
2.  Promoting Relative Placements
    When a child at risk cannot be safely maintained with a parent, it 
is preferable to place the child with a relative. While children placed 
with relatives should be no less protected than children placed in 
licensed foster homes, current regulations relating to approval of 
relative placements are unduly restrictive, can result in the placement 
of youth with costly private providers in lieu of relatives, and do not 
allow for a case-by-case analysis with flexibility to consider each 
child's best interest.
    It is well settled that foster children who are placed with 
relatives experience greater stability than foster youth placed in the 
care of strangers. According to an Urban Institute report, foster 
children raised by kin have been shown to have fewer behavioral and 
academic difficulties and better physical and mental healthoutcomes 
than children cared for by caregivers with whom they have no prior 
relationship. ``[C]hildren in kinship foster care are significantly 
less likely than children in non-kin foster care to experience multiple 
placements.'' (Green, The Evolution of Kinship Care Policy and Practice 
(2004) 14(1) The Future of Children 131, 143.) Children in relative 
care also maintain greater community connections, are placed with their 
siblings at higher levels than children with non-relatives, and 
``maintain family continuity'' though greater contact with birth 
families. (Ibid.) It is critical that artificial barriers to relative 
caretakers not be erected. Losing relative placements because of a 
failure to jump a procedural hurdle serves no one's interest, 
especially not a child in need of a stable and caring caretaker.
    Federal law has created barriers to placement with relatives that 
do more harm than good. Specifically, the requirement that states use 
the same set of standards for relative approval as they do for foster 
care licensing of strangers has made placement with appropriate 
relatives difficult or impossible in many cases.
    Allowing for a less rigid and more individualized approach to 
assessment of a relative's suitability to care for a child will reduce 
the number of children in foster care, promote maintenance of children 
within their extended family, and further both the physical and 
emotional well-being of an already traumatized child. When a child must 
be removed from the care of a parent, placement with a relative rather 
than a stranger allows the child to cope with an already emotionally 
fraught situation in a familiar and comfortable setting. Moreover, 
relative placements often enable sibling groups to remain intact, 
thereby providing a critical anchor for displaced children.
    The Pew Commission also proposed reform of current laws to promote 
permanence through legal guardianships when a close attachment exists 
between a child and a potential guardian. As the Commission recognized, 
establishing and supporting such guardianships can create a route for 
youth out of foster care and into safe, permanent families. While 
federal funds and incentives encourage families to adopt, inadequate 
support exists for guardianships. This is a critical impediment for 
relatives who may be reluctant to usurp a family member's parental 
role, but who nonetheless are prepared to provide a permanent, safe 
home for their abused and neglected family members. As the Commission 
explained, ``When guardians are also relatives, guardianship can 
promote healthy ties to a child's extended family, home community, and 
culture.''
    In sum, new approaches on a federal, state and local level are 
needed to craft improved mechanisms for keeping youth with relatives 
and supporting relative placements, whenever possible.
3.  Adequate Support of the Dependency Judicial System
    Priority must be given to initiatives designed to support and 
enhance the functioning of the dependency judicial system. Qualified 
hearing officers are an essential component of that system. We need to 
adequately fund the third branch of government and support the 
recruitment and retention of the highest caliber bench officers.
    Dependency court hearing officers can and should play a meaningful 
role in ensuring that children are not languishing in foster care, that 
case specific services are provided in a timely fashion, that families 
are reunited as quickly as possible, and that measurable outcomes and 
indicators of child well-being (such as academic performance) are 
tracked. Without this focused tracking of and attention to outcomes, 
there will never be either an acceptable standard of accountability or 
the types of outcomes these youth deserve.
    Moreover, given the complex nature of the many issues children and 
families face, collaborative multidisciplinary training must be 
provided to hearing officers in conjunction with lawyers, social 
workers and other parts of the system. Yet, the recently released 
Fostering Results survey (VIEW FROM THE BENCH: Obstacles to Safety and 
Permanency for Children in Foster Care) of over 2,200 judges who hear 
dependency cases found that barely half (49%) of all judges received 
any specialized training in child welfare issues prior to hearing child 
abuse or neglect cases. A dependency court judge must have mastery of a 
complicated set of federal and state laws, an awareness of available 
community resources, as well the ability to identify and rule on issues 
ranging from appropriate use of psychotropic medications to whether a 
child's sibling relationship should be severed in order to facilitate 
an adoption. Both substantive study areas and child welfare practice 
should be included in curriculum development.
    Finally, bench officers must be armed with outcome-focused data 
tracking that enables the court to manage their cases and meaningfully 
track the progress of children through the system. Communication 
networks that enable stakeholders and data systems to ``talk'' to each 
other need to be explored and developed.
4.  Adequate and Effective Legal Representation for Every Child
    While recent changes to CAPTA requiring that each child be 
represented by either an attorney or a Guardian Ad Litem (``GAL'') 
represent an important first step toward giving children a voice in 
court, these provisions fail to ensure that all foster children have an 
effective and capable voice in the legal process. Without adequate 
legal representation, the child is not on an equal footing with the 
other parties in a dependency case. The child welfare agency and 
parents--including the alleged perpetrator--are generally represented 
by attorneys. Yet in many states the child, if represented at all, is 
represented by a lay GAL. A GAL may or may not have special expertise 
or training in issues related to abuse and neglect. As a non-lawyer, 
the GAL has little ability to use the process of the court to the 
child's advantage. The end result is that the child is relegated to 
second-class status. The agency, the non-offending parent, and the 
abuser have a legal voice in court, while the child in some states has 
no voice at all and in others has only limited access to the legal 
process and protections. In short, children brought into the dependency 
system should receive the benefit of effective legal counsel.
    The goal of assuring effective legal counsel for children cannot be 
achieved without minimum training, competency standards, and reasonable 
caseloads. Appointed counsel in dependency cases should be expected to 
have a working knowledge not only of the relevant law, but also of 
related areas including child development, cultural competency, health, 
mental health and education laws. Without mandates as to training and 
reasonable caseload standards, the dedicated and passionate attorneys 
who choose this work will continue to swim upstream against an ever 
stronger current.
    No matter how well trained, counsel who are forced to take on 
hundreds of cases, either due to overly burdensome staffing levels or 
because the rate paid per case is too low to afford an acceptable 
standard of living, cannot perform optimally or even effectively. 
Maximum caseload standards must be set by each jurisdiction within a 
framework which takes into consideration the geographic size of the 
area served, the type and quantity of support staff, and whether the 
attorney is a sole practitioner or works within an organization or 
agency. Federal funding should be used to reward and support 
jurisdictions that seek to put in place standards relating to 
reasonable caseloads, training, and minimum qualifications for 
dependency counsel
5.  Attracting and Retaining Quality Lawyers
    If we wish to attract the best and the brightest to what many 
believe is the most important work done in our legal and judicial 
system, attorneys who choose this professional discipline must receive 
reasonable and adequate compensation; they must be valued and 
supported. Serving as legal counsel for abused and neglected children 
is without a doubt rewarding and fulfilling, but it is also 
emotionally, intellectually and physically draining, and at times 
completely overwhelming. Creating standards for compensation--including 
salaried payments for lawyers in this practice area rather than the 
inherently problematic approach of payment per case--should be 
encouraged. Unless and until attorneys are fairly compensated, this 
specialized practice will continue to be viewed as less important and 
less worthy than other areas of law.
    Mechanisms including loan forgiveness for attracting and 
maintaining committed attorneys should be developed and encouraged. The 
benefit to be derived from such programs span many layers. Nonprofit 
organizations and county agencies will be far better able to attract 
the most qualified new lawyer. Moreover, there will be a greater 
willingness and motivation to devote the necessary time and resources 
to training when here is a greater likelihood of longevity of newly 
hired staff. It is critical that any loan forgiveness initiative 
include not just new attorneys entering this practice area, but also 
existing attorneys who have developed irreplaceable relationships with 
their clients and whose expertise over time should be supported and 
needs to be retained. The cost of hash turnover can be measured not 
only in dollars and cents, but in human costs as well. For an abused or 
neglected child, building trusting relationships is no simple task. 
Often the child's lawyer is the only stable and consistent person in 
his or her life, the only person the child can confide in, and the one 
person he or she trusts. With each abandonment and each severed 
relationship the child finds it that much more difficult to trust 
again, to move beyond his or her victimization, and to develop healthy 
relationships in the future--whether it be with a caregiver, family 
member, or his or her own child someday.
    Cost saving measures that result in poorly compensated counsel and 
excessive caseloads will result in greater expense over time through 
poor quality representation, decreased efficiency, high turnover, and 
poor outcomes for children.
6.  Reinforcing and Empowering The Child's Voice in the System
    Dependency court systems across the Country need to redouble their 
efforts to ensure that the youth whose lives we seek to protect have 
the opportunity to attend and be part of court proceedings in their own 
cases. In too many jurisdictions, children are not made aware of or 
encouraged to attend court proceedings and all parties (including the 
bench officer) are stripped of the ability to hear from the youth whose 
interests are at the core of the decision making.
    For many youth, being present at their dependency case proceedings 
enables them to understand and come to terms with decisions that will 
impact the rest of their life. Inconvenience, a desire to keep cases 
moving, and/or the view that we need to ``protect'' children from 
hearing about the very events that they lived through, should not stand 
in the way of involving youth of a requisite age--when they desire to 
be present--in these court hearings. Even the most skilled judges and 
attorneys with the best intentions cannot and should not be making life 
changing decisions and recommendations about a child they have never 
met or a family they know only as a case number. Youth should be 
afforded the respect and be granted the dignity of expressing their own 
views in regard to decisions that will alter their lives in the most 
significant and lasting ways imaginable.
    Children have keen insight and deep understanding of their own 
families and their own challenges. Their view of the future is 
essential to the development of meaningful, effective and functional 
case planning. As the Pew Commission recognized, ``children, parents, 
and caregivers all benefit when they have the opportunity to actively 
participate in court proceedings, as does the quality of decisions when 
judges hear from key parties.'' For all these reasons, federal law 
should not only recognize, but also encourage, the presence of children 
at their own hearings.
    Similarly, advocates for children--whether they be CASAs, Guardians 
Ad Litem or court appointed counsel--must meet with their young clients 
face to face and must do so with enough frequency to ensure that the 
advocate has current independent knowledge of the child's living 
situation, educational and mental health status, general well-being, 
and wishes and desires regarding the issues before the court at any 
given hearing.
    Federal funding should be tied to these requirements and should be 
provided at a level sufficient to support the time and expense 
associated with the building and reinforcement of these approaches.
7.  Supporting the Child Welfare Workforce
    Social workers cannot possibly be effective when they carry 
caseloads as high as two and three times the recommended standard. 
Without adequate time to assess a family, plan for the child's safety, 
and most importantly develop trusting relationships, even the most 
experienced and skilled social worker cannot ensure child safety.
    A significant reduction in social worker caseloads is a critical 
component of any reform of the child welfare system. Caseload reduction 
can be accomplished, in part, through the implementation of the 
flexible funding recommendations discussed above. Consider the Illinois 
experience: using federally granted Title IV-E waiver authority 
Illinois dramatically reduced the number of children in the foster care 
system from 51,000 to 19,000 over five years. Social worker caseloads 
consequently fell from an average of 45 to 60 cases to 14 to18 cases, 
enabling those on the front lines to focus on children and families 
most in need.
    Caseload size, as well as caseworker education, all directly impact 
outcomes for children in care. The Pew Commission noted significant 
variation across the country in the level of training, education, and 
experience of caseworkers and supervisors. A concerted effort must be 
made to address these concerns.
8.  Greater Support for the Educational Needs of Foster Youth
    The educational progress and attainment of children in foster care 
is a crucial factor in ensuring that no child is denied the opportunity 
to reach his or her full potential. Attention paid to child safety must 
go beyond concern for and attention to the child's physical well being. 
Once we intervene to protect a child from abuse or neglect, we assume a 
duty to parent the whole child. Educational attainment is one of the 
essential responsibilities of parenting, but too often is overlooked or 
taken for granted during a child's time in care. While a quality 
education is a key component of every child's successful transition to 
adulthood, a sound educational foundation is especially crucial for 
children who spend long periods of their childhood in foster care.
    A few States--including California--have begun to address some of 
the barriers and challenges inhibiting educational attainment for 
foster youth. Without the support of the Federal Government, however, 
the steps taken by isolated States will be inadequate and foster 
children throughout the country will continue to fall further and 
further behind.
    For children experiencing placement changes, either due to the 
initial removal from their parents' care or due to disruptions in 
foster placement, federal law must reinforce the need to maintain 
school stability. Specifically, the law should enable these youth to 
continue in, and be transported to, their school of origin during the 
critical time in their life when they most need a stable school 
environment. The law should also provide for immediate enrollment of 
foster children in school when a change in school cannot be prevented, 
thereby avoiding the all too common occurrence of foster youth being 
out of school for days or even weeks at a time. These guarantees will 
provide long overdue opportunities for academic success for children in 
foster care.
    Moreover, without enhanced accountability and tracking of school 
attainment by all parts of the foster care system there will be no 
ability to respond to changing educational needs of children in care. 
Improved mechanisms for collaboration and information sharing among all 
governmental bodies responsible for attending to these issues are 
critical. Unless we commit ourselves collectively to these new 
strategies and approaches, the unacceptable record of poor educational 
performance for the youth we undertake to parent will remain unchanged 
and the cycle of abuse, neglect and despair will perpetuate.
9.  Addressing the Mental Health Needs of Foster Children and Their 
        Families
    Not surprisingly, children in out-of-home placements 
disproportionately suffer from mental health disorders. Experts 
estimate that 30 to 85 percent of youngsters in out-of-home care suffer 
significant emotional disturbance and report that adolescents living 
with foster parents or in group homes have a four times higher rate of 
serious psychiatric disorders than youth living with their own 
families. (Ellen Battistelli, Child Welfare League of America, 
Factsheet: The Health of Children in Out-of-Home Care (May 17, 2001).)
    The mental health needs of foster children are often overlooked 
until the child exhibits extreme and harmful behavior. Even then, the 
lack of coordination between the child welfare, mental health and 
school systems results in fragmented and disjointed provision of 
services. Children are not properly assessed, no one provider is given 
the clear responsibility of monitoring the mental health needs of these 
children, and when mental health services are finally made available, 
they are often either inadequate or too late to be of meaningful 
benefit to the child.
    Until all foster children receive prompt assessment and 
individualized mental health services from the outset, we will continue 
to see children who are either overlooked by the child welfare system 
or who leave the dependency system more damaged than when they entered 
care. Constant placement disruptions, placements with well meaning but 
ill-equipped caregivers, and insufficient mental health services all 
exacerbate the problems and challenges faced by these already fragile 
children. With each failed placement and each delay in receiving 
treatment, the child requires a higher and more restrictive level of 
care. The resulting cost in both resources and human lives will 
continue to grow exponentially until all of the involved agencies 
develop meaningful ways to work together to address the mental health 
needs of children in foster care.
    The current piecemeal approach to providing mental health services 
to children and their familiesis not working and must be reassessed. 
Many children would never have to be placed in foster care if the 
parents had access to supportive services from the outset. For those 
children who must be placed in foster care or with extended family, 
effective mental health treatment must include planning for the 
treatment needs of the parents as well as the child. It is uncommon, at 
best, to find a family where only the child or only the parent requires 
treatment. Certainly in those cases where reunification is possible the 
mental health needs of the family must be a priority, and any treatment 
plan should include not only crisis intervention, but also transition 
planning and aftercare as well.
10.  Addressing the Needs of Teens Emancipating from Foster Care
    While the goal of permanency for every child remains high on any 
priority list, it is imperative that the child welfare system not 
forget the thousands of older teens who remain in out of home care and 
will likely remain in the foster care system through emancipation. 
There are several areas where new approaches and better services should 
be considered if these youth are to have a fighting chance for a stable 
and successful adult future.
    Recent findings regarding adolescent brain development highlight 
the importance of paying attention to and recognizing the unique needs 
of adolescents. Without proper stimulation, experiential learning, 
direction, and guidance, these teens will experience far greater 
challenges in negotiating the adult world, exercising sound judgment, 
and planning for their future. The research makes clear that even the 
best-prepared teen is not ready to be completely self sufficient at age 
18. Yet, throughout the country, foster children automatically exit 
from care on their 18th birthday or the day after high school 
graduation ill-equipped for successful emancipation. These youth often 
have no one to share Thanksgiving dinner with and no one to help them 
prepare for their first job interview or secure their first apartment. 
They commonly emancipate from foster care without any significant 
connection to a responsible adult, have no home, no one to provide them 
with desperately needed guidance, and no place to return to when they 
falter. It is no wonder that so many emancipated foster youth are 
either homeless or incarcerated within two years of exiting the system.
    Moreover, services provided to dependent teens who are pregnant or 
become parents are woefully inadequate. There are too few placements 
available for these young parents and their children and the existing 
placements often do little to provide the guidance and support that any 
new parent needs. Similarly, targeted emancipation services for teen 
parents are virtually non-existent. Teens parents who were themselves 
abused and neglected present not only a great challenge to our child 
welfare agencies, but also a great opportunity. If we can work in 
partnership with them rather than merely waiting for them to fail, we 
can ensure that the next generation won't need our services and create 
a brighter future for these young families. Child welfare must rethink 
the business as usual approach taken when a child is born to a mother 
who is herself a dependent. Innovative approaches designed to reach the 
young parent in a language she can hear, and assigning to this caseload 
social workers adept at working with the unique needs of these clients, 
are essential components of any effort to improve outcomes for teen 
parents and their children.
C.  Conclusion
    Thank you for affording me the opportunity on behalf of the 
Children's Law Center and the thousands of young clients we represent 
to offer my perspectives in regard to ways our nation can better serve 
our neediest and most vulnerable children. These are the children of 
our community and our future. They deserve our very best efforts.

                                 <F-dash>

         Statement of Marcia Robinson Lowry, Children's Rights,
                           New York, New York

    On behalf of Children's Rights, I am pleased to provide this 
written statement to the Subcommittee on Human Resources of the 
Committee on Ways and Means. I wish to thank Chairman Herger and the 
members of their Subcommittee for their leadership in critically 
examining recent proposals to reform child welfare financing and to 
move children more expeditiously into safe, permanent homes.
    Children's Rights is a national non-profit organization working in 
partnership with advocates, experts, policy analysts and government 
officials to address the needs of children dependent on child welfare 
systems for protection and care. Our goals are to make sure vulnerable 
children affected by child welfare systems are safe from abuse and 
neglect, receive the care and services they need, return quickly and 
safely to their families whenever possible, and if necessary, move 
swiftly through the adoption process to permanent, loving families. 
Children's Rights partners with experts and government officials, 
including the Pew Commission on Children in Foster Care, to create 
concrete solutions to reform child protection, foster care and adoption 
services, upon which the lives of these children depend. Children's 
Rights develops realistic solutions and, where necessary, uses the 
power of the courts to make sure the rights of these children are 
recognized and that reform takes place. A case in point is our federal 
litigation against the New Jersey child welfare system--the very system 
that infamously failed to protect 7-year old Faheem Williams in Newark 
and the starving Jackson brothers in Collingswood, New Jersey. Our 
settlement of that case last year mandates a sweeping reform of New 
Jersey's failing child welfare system, and it has resulted in a 
substantial increase in the state's investment in its child welfare 
system--more than $300 million over the next two years.
    My comments will focus on three imperatives for keeping children 
safe and finding children permanent families as quickly as possible. 
First, maintaining a federal open funding entitlement is critical if 
children are to retain their right to judicially enforce the mandates 
of federal child welfare laws. Second, imposing additional minimum 
federal standards, such as on caseloads, job qualifications for 
caseworkers and supervisors, training, and accountability, is necessary 
to assure the basic functioning of child welfare systems. Third, 
additional federal resources must be made available to support states 
to meet their responsibilities to provide adequate levels of care and 
protection. As we saw in New Jersey, reform of failing systems is 
impossible without the money to back it up.
    It is vital that traumatized and fragile children in foster care 
retain access to the courts for the protection of their rights to 
safety, well-being and permanency. Sadly, recent history has shown 
states to be poor surrogate parents, often responsible for further 
damaging the children in their care. Florida lost Rilya Wilson, 
Washington, D.C. at one point required a federal receivership, and New 
Jersey allowed four starved and stunted boys to be adopted and remain 
for years with their duly certified foster parents. Every State has 
been failing the recent federal audits. Children in foster care do not 
vote, much less lobby on behalf of their interests, and the courts are 
often the only institutions capable of providing these children a 
degree of protection from the under-funded and mismanaged systems in 
which they find themselves. If governmental custodians are insulated 
against even the possibility of lawsuits seeking to compel them to meet 
statutory standards, they are likely to dedicate even less attention 
and fewer resources to meeting the needs of the children they have 
taken into state foster care custody. Under those circumstances, the 
intent of federal law will be thwarted and large amounts of federal 
money will be wasted.

Child Welfare Financing
    As the Subcommittee is well aware, the Pew Commission on Children 
in Foster Care recently released its recommendations for the redesign 
and strengthening of the current structure of federal child welfare 
financing. In its report, the Pew Commission advanced a series of 
interrelated recommendations concerning both Titles IV-B and IV-E of 
the Social Security Act, with one of the critical recommendations being 
the retention of the current open-ended entitlement of Title IV-E for 
both foster care maintenance payments and adoption assistance. The Pew 
Commission recognized that it is essential that states continue to be 
able to claim federal reimbursement on behalf of every eligible child 
that the state places in a foster home or qualified institutional 
setting. In connection with children's eligibility for Title IV-E 
federal assistance, the Pew Commission also recommended that Title IV-E 
be amended and that federal funding be made available for every child 
who needs the protection of foster care regardless of family income 
(thereby eliminating the current requirement that a child's family meet 
the 1996 income eligibility standards for the now defunct Aid to 
Families with Dependent Children program). These recommendations 
recognize that states are obligated to provide protection to every 
child who is abused and neglected, regardless of family income, and 
that children are best protected when they have the protection of both 
the federal and state government.
    The retention of the open-ended entitlement is critical for another 
reason: it ensures that children in foster care have the benefit of 
essential legal protections. Children in foster care have had success 
in obtaining judicial enforcement of Titles IV-B and IV-E requirements 
imposed on the states as requirements for accepting federal child 
welfare funds. Eliminating the open entitlement, however, would also 
almost certainly eliminate that judicial right. Short of the outright 
addition of an explicit statutory right of action allowing foster 
children to sue to enforce the federal statutory terms, which we 
support, we recommend continued use of an uncapped foster care 
entitlement program with the addition of mandatory standards for the 
benefit of individual children. Without recourse to the courts, abused 
and neglected children cannot rely on the statutory promises of federal 
protection.

Private Rights of Action Under Titles IV-B and IV-E
    Just because Congress has enacted a law does not necessarily mean 
that a citizen, or even an individual for whose benefit the law was 
passed, can go to court and sue for being deprived of the benefits of 
that law. There are two ways to determine whether such a lawsuit can be 
brought for the violation of federal law: 1) the law contains an 
explicit ``private right of action'' stating that an individual can 
bring a lawsuit for violation of the statute; or 2) the right to bring 
such a lawsuit can be implied through the application of certain tests 
that the U.S. Supreme Court has been revisiting with relative frequency 
over the last ten years.
    Currently, the only child welfare statute for which Congress has 
explicitly granted aggrieved parties the right to go to court for 
violations is the Interethnic Adoption provisions of 1996, amending the 
Multi-Ethnic Placement Act (MEPA), codified at 42 U.S.C.  671(a)(18) 
(prohibiting the delay or denial of foster and adoptive placements for 
children based on their race or ethnicity or that of their prospective 
home).\1\ The Civil Rights Act of 1871, as amended and currently 
codified at 42 U.S.C.  1983, however, provides a right of action 
against anyone who, under color of law, deprives a person ``of rights, 
privileges, or immunities secured by the Constitution and laws.'' Most 
(but not all) courts have recognized an ``implied right of action'' 
under section 1983 to judicially enforce provisions of Titles IV-B and 
IV-E where the statute sufficiently evidences Congressional intent to 
create a federal ``right'' under the statute.
---------------------------------------------------------------------------
    \1\ See 42 U.S.C.  674(d)(3)(A) (``Any individual who is aggrieved 
by a violation of  671(a)(18) by a State or other entity may bring an 
action seeking relief from the State or other entity in any United 
States district court.'').
---------------------------------------------------------------------------
    For such a statutory right to be implied and enforceable under 
section 1983, the Supreme Court has established a three-part test 
commonly referred to as the Wilder/Blessing test. First, Congress must 
have intended the invoked statutory provision to benefit the plaintiff. 
Second, the statute must unambiguously impose a binding obligation in 
mandatory terms. Third, the statutory provision cannot be so vague and 
amorphous that its enforcement would strain judicial competence. See 
Wilder v. Va. Hosp. Ass'n., 496 U.S. 498, 509-511 (1990); Blessing v. 
Freestone, 520 U.S. 329, 340-341 (1997). Recently, the Supreme Court 
clarified that Congress must have unambiguously intended to create a 
federal ``right,'' not just a benefit. The first prong of the test thus 
requires that the text of the statute be phrased in terms of the person 
or class of persons benefited, and that such ``rights-creating 
language'' must be individually focused and not system-wide or 
``aggregate.'' Gonzaga University v. Doe, 536 U.S. 273, 282-284, 287-
288 (2002). For example, the Family Educational Rights and Privacy 
Act's statutory language mandating that no federal funds be made 
available to any ``educational agency or institution'' that has a 
prohibited ``policy or practice'' of permitting the release of 
educational records, does not create a private right of action for 
individual violations of FERPA. Gonzaga, 536 U.S. at 287-288, 290 
(``FERPA's nondisclosure provisions contain no rights-creating 
language, they have an aggregate, not individual, focus, and they serve 
primarily to direct the Secretary of Education's distribution of public 
funds to educational institutions.''). By contrast, language in the 
Medicaid Act mandating ``reasonable and adequate [reimbursement] 
rates'' to health care providers from participating states, explicitly 
creates a monetary entitlement upon the providers that is judicially 
enforceable. See Wilder v. Virginia Hospital Ass'n, 496 U.S. 498, 522-
523 (1990).
    The Adoption Assistance and Child Welfare Act of 1980 (AACWA), as 
amended by the Adoption and Safe Families Act of 1997 (ASFA), codified 
in Titles IV-B and IV-E, requires a state accepting federal funds under 
the statute to administer a state plan that meets federal requirements. 
See 42 U.S.C.  620, et seq. & 670, et seq. In exchange for meeting 
these requirements, states are then entitled to federal funding at 
specified reimbursement levels. Many federal courts have recognized 
that Title IV-B and IV-E provisions that require specific state actions 
on behalf of foster children create a judicially enforceable right to 
the mandated services for those foster children.\2\ For example:
---------------------------------------------------------------------------
    \2\ When the Supreme Court ruled in 1992 that the AACWA provision 
at 42 U.S.C.  671(a)(15) (requiring states to make ``reasonable 
efforts'' to prevent children from being removed from their homes and 
to facilitate returning children once removed) was too undefined to be 
enforceable, it also suggested that spending statutes such as Title IV-
E are entirely unenforceable because they only require that the state 
prepare and file a plan and that the inclusion of mandatory provisions 
within such a plan does not create any entitlement to actual 
implementation of those plan provisions. Suter v. Artist M., 503 U.S. 
347, 360-362 (1992). As a direct response to the Suter decision, 
Congress amended the Social Security Act, explicitly stating its intent 
that a provision of the Act ``is not to be deemed [judicially] 
unenforceable because of its inclusion in a section of the Act 
requiring a State plan or specifying the required contents of a State 
plan'' and ``overturning any such grounds applied in Suter.'' 42 U.S.C. 
 1320a-2. The Suter decision has thus been limited to its narrow 
holding that  671(a)(15) is unenforceable because the provision is too 
vague.

    <bullet>  Kenny A. v. Perdue, 218 F.R.D. 277, 290-293 (N.D.Ga. 
2003), recognized that  671(a)(10), (16) & (22), 675(1)(B) (D) & (E), 
675(5)(D) & (E), and 622(b)(10)(B)(i-iii) create enforceable rights to 
placement in foster homes and institutions that conform to national 
professional standards; to case plans with mandated elements and 
implementation of those case plans; to case reviews; to services that 
protect foster children's health and safety; to services that 
facilitate return home or a permanent placement; to independent living 
services for foster children 16 years old and up; to adoption planning 
and services if the goal is adoption; to have health and education 
records reviewed, updated, and supplied to caretakers at the time of 
placement; to have a timely petition to terminate parental rights (TPR) 
filed; to receive services in a child welfare system that has an 
information system adequate to permit the state to make fully informed 
decisions concerning each foster child's best interests; and to 
services to facilitate the child's permanency plan.
    <bullet>  Jeanine B. v. McCallum, 2001 WL 748062 (E.D. Wis. June 
19, 2001), held that  675(5)(E) creates an enforceable right to have 
the state initiate a proceeding to terminate parental rights (TPR) for 
children who have been in foster care custody for 15 of the most recent 
22 months, unless certain documented exceptions apply.
    <bullet>  Brian A. v. Sundquist, 149 F. Supp.2d 941, 945-949 (M.D. 
Tenn. 2000), held that  671(a)(10) & (16), 675(1), 675(5) and 
622(b)(10)(B)(i) & (ii) create enforceable rights to timely case plans 
containing mandated elements; case plan reviews; and a statewide 
information system to track every child's status and plan.
    <bullet>  Marisol A. v. Giuliani, 929 F. Supp. 662, 682-683 
(S.D.N.Y. 1996), aff'd, 126 F.3d 372 (2d Cir. 1997), held that  
622(b)(9) and 671(a)(10) & (16) create enforceable rights to the 
recruitment of foster and adoptive families that reflect the racial and 
ethnic diversity of children needing homes; the implementation of 
licensing standards for foster homes and residential facilities; and to 
case plans and case reviews.

    Central to the recognition of an enforceable federal right has been 
Title IV-B and IV-E's language throughout ``focus[ing] on the needs of 
individual foster children, rather than having a systemwide or 
aggregate focus.'' Kenny A., 218 F.R.D. at 292. For example:

    <bullet>  42 U.S.C.  622(b)(10)(B)(i) requires an information 
system to track data on ``every child'' in foster care;
    <bullet>   622(b)(10)(B)(ii) requires a case review system for 
``each child receiving foster care;''
    <bullet>   622(b)(10)(B)(iii) requires a service program designed 
``to help children'' either return to their family or be placed in a 
permanent home;
    <bullet>   671(a)(16) requires a case plan ``for each child'' in 
foster care, and a case review system ``for each such child;''
    <bullet>   671(a)(22) requires the implementation of standards to 
ensure that ``children in foster care'' are provided services that 
protect the safety and health ``of the children;''
    <bullet>   675(1) defines the mandatory ``case plan'' to include 
required ``child specific'' information regarding each ``child;''
    <bullet>   675(5) defines the mandatory ``case review system'' to 
assure that ``each child'' has a case plan, is safe, and is in the most 
appropriate setting.

    Additional evidence can be found in the enacting language of the 
Adoption and Safe Families Act, at  103(c), 11 Stat. at 2119, which 
mandates the schedule for states coming into compliance with 42 U.S.C. 
 675(5)(E)'s TPR requirement ``with respect to the child'' entering 
foster care or already in foster care. Such ``rights-creating 
language'' confirms Congress' intent to create a federal right to such 
child welfare services.\3\
---------------------------------------------------------------------------
    \3\ Because some federal courts have not found such language 
sufficient to create an implied right to sue, we view any legislative 
move to cut back on mandatory rights-creating language from Titles IV-B 
and IV-E as an invitation to the courts to eliminate their 
enforceability. See, e.g., 31 Foster Children v. Bush, 329 F.3d 1255, 
1268-1274 (11th Cir.), cert. denied, 124 S. Ct. 483 (2003) (42 U.S.C. 
 675(5)(B) & (E) do not provide enforceable rights under  1983 to 
have health and education records reviewed, updated, and supplied to 
caretakers at the time of placement, or to have the state initiate a 
proceeding to terminate parental rights for children who have been in 
foster care custody for 15 of the most recent 22 months).
---------------------------------------------------------------------------
    Those provisions of Titles IV-B and IV-E that require specific 
actions for the explicit benefit of foster children have thus been 
found to be judicially enforceable pursuant to  1983 and the Wilder/
Blessing test by many of the federal courts to decide this issue. Not 
only is the text of the statute in terms clearly intended to benefit 
individual statutorily-defined children, it is also mandatory and 
specific as to the required actions on their behalf.

The Open Entitlement
    The financing structure is further evidence that Congress intended 
to confer an individual entitlement on foster children as opposed to 
focusing in the aggregate on the performance of state child welfare 
systems. The financing structure of Title IV-E ``imposes a binding 
obligation by explicitly tying the creation of certain features of a 
state plan to federal funding.'' Marisol A., 929 F. Supp. at 663; see, 
e.g., 42 U.S.C.  671(a) (``In order for a State to be eligible for 
payments under this part, it shall have a plan approved by the 
Secretary which--provides . . .'') (emphasis added). For example, 
states are eligible for IV-E foster care maintenance payment 
reimbursements only for eligible children in care for whom the state 
has secured the statutorily required judicial determination (regarding 
removal from their home) and placement in a licensed foster home or 
residential facility. See 42 U.S.C.  672(a)(1) & (3) and 674(a)(1) 
(defining ``qualifying children'' for whom federal funding is available 
for foster care maintenance payments). Moreover, the explicit purpose 
of federal payment for foster care is to ``enabl[e] each State to 
provide, in appropriate cases, foster care and transitional independent 
living programs for children. . . .'' 42 U.S.C.  670 (emphasis added). 
The elimination of the open entitlement funding structure based on 
mandatory provisions for ``each child'' qualifying for federal 
reimbursements would be an invitation to the courts to deny the 
statute's enforceability.
    Specifically, a capped entitlement would not be an individually 
focused entitlement for private right of action purposes and would most 
likely foreclose the recognition of such a right. Under a capped 
entitlement, states that did not comply with Title IV-E requirements as 
to ``each child'' could still qualify for the maximum allowable federal 
reimbursement. Without a direct link between compliance with Title IV-E 
as to ALL the ``qualifying children'' who are statutorily defined and 
federal reimbursements as to those children, the Title IV-E 
requirements would probably be found to ``serve primarily to direct the 
Secretary of [Health and Human Services]' distribution of public funds 
to [state child welfare programs].'' Gonzaga, 536 U.S. at 287-288, 290. 
Instead of creating individual rights, the statute would reflect more 
the systemwide or ``aggregate'' focus that led the Supreme Court to 
find FERPA judicially unenforceable in the recent Gonzaga case. Id.
    The elimination of the current clear quid pro quo that specific 
actions must be taken by the state on behalf of individual children or 
federal reimbursements for those children can be forfeited would be 
evidence of Congressional intent to focus on aggregate child welfare 
purposes instead of on the needs of individual foster children. As a 
result, any given provision would no longer be enforceable as a 
statutory right if the entitlement were to be capped. Without 
individually-focused mandatory language meant to benefit a discrete 
class of children, no private right of action would be found on their 
behalf pursuant to the Wilder/Blessing test as clarified by Gonzaga, 
even if those rights had been recognized previously.

Protecting Private Rights of Action
    As discussed earlier, it is critically important to ensure a 
private right of action to safeguard the rights of abused and neglected 
children to bring a lawsuit, if necessary, when a state is receiving 
large amounts of federal money but not complying with federal law 
enacted for the protection of these children. In the recent federal 
audits conducted by the U.S. Department of Health and Human Services 
(HHS), every state failed to meet federal standards--which were not 
even co-extensive with federal law. Even were HHS to decide to impose 
sanctions for such failures, it is limited to withholding federal money 
from a state--not a measure tailored to help children. On the other 
hand, lawsuits brought by these children have resulted in an increase 
in state funds, reductions in caseloads, the creation of training 
programs, an increase in services, and better and more effective 
management practices.
    The most straight-forward way to protect foster children's private 
right of action regardless of any change to the financing structure is 
to add an explicit right of action to Titles IV-B and IV-E. Congress 
declined to do that when it passed the ``Suter fix'' in 1994. See 
footnote 2. However, with the widespread recognition of the failures of 
many states to protect children in need of child welfare services, the 
time is right to revisit this issue.
    Short of an explicit right to sue, what has allowed the continued 
recognition of private rights of action (that Congress has protected in 
the past against judicial elimination, see footnote 2) are the child-
focused state plan requirements and the open entitlement structure 
tying those individual requirements to federal funding. Any legislative 
change eliminating open entitlements will almost certainly be viewed as 
eliminating private rights of action as to these state plan 
requirements. To preserve private rights of action for foster children, 
Titles IV-B and IV-E provisions must continue to be focused on 
mandatory benefits for individual children that are specifically 
defined and enumerated, and directly tied to open-ended federal funding 
entitlements.

Minimum Federal Standards
    As Congress considers how to best fund child welfare systems that 
protect children and assure them a permanent home, attention should 
also be given as to how to strengthen minimum standards and 
accountability within these federally-funded systems. Congress has yet 
to impose minimum standards in such areas as caseloads, job 
qualifications for child welfare workers and supervisors, training, and 
accountability. Such requirements should be established with statutory 
text focusing on their direct impact on the safety and well-being of 
individual children so as to create judicially enforceable rights to 
these additional requirements. They should also be funded under an 
entitlement structure to further support the judicial recognition of 
such rights.
    The benefit of such standards is obvious when viewed in the context 
of a failing child welfare system such as New Jersey's. Before reform, 
New Jersey's Division of Youth and Family Services could hire young 
caseworkers without any educational or employment background in social 
services, and then assign them caseloads of 80 to 100 children (over 
five times professionally acceptable levels). Before Children's Rights 
lawsuit, New Jersey also abolished the agency's Training Academy and 
its Quality Assurance Unit, resulting in minimal ongoing training and 
no system checks on basic case practice levels, including the 
timeliness and frequency of worker visits with children, and the 
provision of necessary medical and mental health services to children 
in the agency's care. As we documented through extensive discovery in 
New Jersey, this resulted in one out of 10 abused and neglected 
children being further harmed while under the care and supervision of 
the agency. The agency repeatedly failed to protect such children from 
multiple instances of abuse and neglect, and shuffled them through 
temporary foster care placements for years, all the while remaining 
eligible for federal Title IV-B and E funding.

Resources
    Sufficient resources must also be made available for states to be 
able to comply with existing and any additional federal requirements. 
Increasing child welfare funding by $200 million nationally, as has 
been proposed in at least one of the child welfare financing proposals 
which currently is being considered, is not sufficient to meet the 
great need. In New Jersey alone, the State has committed an additional 
$125 million for the first year of its reform plan as required by our 
settlement, and an additional $180 million for year two. The settlement 
and reform plan calls for limiting caseloads, training caseworkers, 
increasing caseworker visits and ensuring timely investigations and 
assessments, reducing children's moves from home to home, and when 
children cannot be safely reunited with their birth families, finding 
children permanent families through adoption without delay.
    Without a substantial additional investment in such systems, 
coupled with enforceable minimum standards and requirements, the 
promises of the federal child welfare laws for effective protection of 
abused and neglected children and promotion of their well-being and 
permanence will continue to be an unfulfilled goal. These children 
deserve a child welfare system that is adequately funded and that is 
required to make good on its promises.

Conclusion
    For the past 30 years I have represented abused and neglected 
children who should have been protected by our country's child welfare 
systems, but were not. I know all too well how harmful these systems 
can be to children without adequate funding and oversight. Our 
experience in New Jersey is but one example.
    Capping Title IV-B and E funding would be a mistake. Not only would 
it limit federal funding when more, not less, federal support is 
necessary to fulfill the federal promises of child safety, well-being, 
and permanence, but it will vitiate these very children's ability to 
judicially enforce existing federal requirements. Instead of weakening 
federal child welfare laws, we should be strengthening them. Congress 
should require compliance with additional minimum standards for 
critical system functions such as adequate staffing, training and 
oversight. Only then, will maltreated children have a chance to be 
protected by a well-trained caseworker who has time to properly 
investigate their case and assure that they are properly cared for in a 
loving home. We owe our most vulnerable citizens at least this.

                                 <F-dash>

 Statement of Frank J. Mecca, County Welfare Directors Association of 
                   California, Sacramento, California

    Thank you for the opportunity to submit testimony for the record 
regarding child welfare reform proposals being considered by the 
Subcommittee on Human Resources. The County Welfare Directors 
Association of California (CWDA) has long advocated for changes to the 
federal child welfare financing structure in order to better serve 
abused and neglected children and their families. We appreciate your 
support for changes that will help states and counties achieve better 
results for these children and move them more quickly into safe, 
permanent homes. We agree with the chairman and the committee that 
federal funding reforms must be enacted if states and counties are to 
achieve the improvements that we all seek. This testimony sets forth 
our recommended changes at the federal level along with cautions 
regarding some of the reform proposals we have seen in recent months 
and in the chairman's draft bill, the Child Safety, Adoption, and 
Family Enhancement Act (Child SAFE Act).
    As you know, each of California's 58 counties operates a child 
welfare program, with oversight from the state and federal governments. 
In recent years, public scrutiny of child welfare has increased 
significantly, both at the state and federal levels and also from the 
courts, the media, and foster children and their families. This 
increased attention has led to a multitude of ideas for reforming the 
system, and California is no exception. Counties are partnering with 
the state and with their communities in a number of ways to enhance the 
services provided to children and families. Without reform at the 
federal level, however, these efforts will be much more difficult to 
implement and to achieve the desired results.

Why Federal Reforms Are Needed
    The mismatch between the required services to achieve desired 
outcomes for abused and neglected children and the adequacy of federal 
funds to achieve those outcomes has never been more pronounced. The 
Child and Family Services Reviews (CSFR) measure states against a set 
of national standards for child safety, permanence, and well-being. 
States, counties, and advocates for children welcomed this new focus on 
outcomes rather than process, prevention and intervention rather than 
foster care placement, and improving our services to children and 
families across many facets of their lives.
    While the measures of success for children have shifted toward 
models that encourage preserving the child's family and seeking other 
permanent alternatives to foster care, the federal funding rules have 
not been adapted to facilitate achievement of these primary goals. 
Instead, federal Title IV-E financing continues to focus on out-of-home 
foster care placement rather than the provision of prevention and 
reunification services to children and families. Further, IV-E dollars 
are limited primarily to income-eligible children. Ironically, use of 
federal Title IV-E funds is not allowable for most of the services and 
supports that the Child and Family Services Reviews seek to increase. 
As a result, states and counties must use their limited Title IV-B 
funds and patch together funding from other inadequate sources. This 
fragmented system means that thousands of families are unable to 
receive the services they need, and children remain in foster care far 
longer than they should--far longer than we want them to.

Specific Reform Recommendations
    A number of reforms can be enacted at the federal level to ensure 
that timely, appropriate, and quality services are received by every 
child and family involved in the child welfare system. Such reforms 
should ensure that states and counties will be better able to improve 
their performance on the key federal outcome measures, by giving states 
more flexibility in use of Title IV-E funds and by maintaining at least 
the current level of federal support for the child welfare programs. We 
believe that curtailing funding for any of the child welfare programs--
by capping funds or creating block grants or subjecting current 
entitlements to annual appropriations--is counter-productive to the 
shared goals of improving the child welfare and foster care system.
    CWDA urges your consideration of the following recommendations:

    1.  Maintain entitlement funding for Title IV-E, including 
administrative activities, services, and training.
    2.  Provide flexibility to use Title IV-E funds for a broader array 
of services, not just foster care placement.
    3.  Provide an option for states to increase access to Title IV-B 
funds by paying a higher state match for dollars above the basic IV-B 
allocation.
    4.  Bring Title IV-E eligibility rules into the new century by de-
linking from the old AFDC program.
    5.  Provide federal funding for guardianships to enhance permanency 
options for children.

    We discuss each of these recommendations in greater detail below.
1. Maintain Entitlement Funding for Title IV-E
    CWDA strongly urges that the IV-E entitlements be maintained. 
Foster care maintenance, administration, training, and automation funds 
should be kept as uncapped funding streams. Some reform proposals we 
have seen would place new restrictions on the growth of certain 
portions of Title IV-E, ranging from services to administration and 
training. Without strong assurances that funding will grow as needed 
rather than diminish over time, CWDA cannot endorse any proposal to cap 
or restrict funding for any aspect of the child welfare program, 
administration included.
    We support the continuation of separate entitlement funding for the 
States Automated Child Welfare Information Systems (SACWIS), and 
appreciate that Representative Herger's draft bill does keep SACWIS 
funding open ended. Measuring the improved outcomes over time will 
continue to be an important element in reforming the child welfare 
system.
    At a time when all states, including California, are entering into 
plans with the federal government to improve their child welfare 
outcomes, funding must be available to implement these plans. However, 
our mutual goals cannot be realized unless Title IV-E--in its 
entirety--is continued as a stable, dependable funding source. 
Eliminating the guaranteed federal funding for services and social work 
activities would make states reluctant to invest in the very programs 
that the Child and Family Services Reviews encourage them to create and 
expand, and that child welfare experts say are needed to prevent abuse 
and neglect, intervene appropriately in families where abuse and 
neglect are occurring, and achieve timely, permanent solutions for 
children.
    CWDA's concerns about funding caps, block grants, or other limits 
on growth of funds is based on the following factors, which we urge the 
committee to consider in developing legislation to help states and 
counties improve the child welfare system:

Administration is the Cornerstone of Services to Children
    Capping the Title IV-E administration entitlement is a short-
sighted approach to the issue of improving outcomes for children and 
families. ``Administration'' is not an expendable set of office 
supplies; rather, it is the basic building block of services to 
children and families--the social workers. Federal, state and county 
(in California) administrative funds pay for the social work staff who 
respond to abuse and neglect reports, make recommendations to the court 
system, put together case plans for children and families, find foster 
parents or relative caregivers, ensure that individuals can access 
needed services, and work with parents and children to restore the 
family or develop a permanency option. Contact between trained social 
workers and the families and children involved in the child welfare 
system is the key element that all else in our system follows. If these 
most basic services and the primary staff resources were reduced 
through a cap or other limits on funding growth, the children we are 
charged with protecting would be in harm's way.
    First, the social workers that states hire using Title IV-E 
administrative funds are the cornerstone of our child welfare system; 
if they continue to be overworked to the point of breaking, outcomes 
for children and families will suffer. Second, California counties are 
experiencing workload and funding shortages that would only be 
exacerbated by a cap on funding growth. Finally, many states are 
already under court order to enhance the services they provide to 
children and families and to reduce staff workload. It is conceivable 
that other states will be placed in similar situations in the future, 
which would be extremely difficult to predict in the funding growth 
formulas contemplated in the recent reform proposals.
    While the word ``administration'' may connote expendable items like 
photocopiers and desks, in the case of the child welfare program, the 
primary element funded by the administration stream is the staff of 
social workers, who are the very essence of services to children and 
families. Case management--which includes comprehensive family and 
child assessments; family involvement in case planning; regular visits 
with children and families; referral, coordination, and monitoring of 
service delivery; trips to court to discuss the progress of each 
individual case; and other activities--is a critical part of how states 
fund the social work activities that are the backbone of child welfare. 
The federal outcomes being measured in the Child and Family Services 
Review depend in large part on the ability of social workers to meet 
with children and families, accurately assess their strengths and 
needs, and ensure that they receive necessary services to achieve 
safety, permanence, and well-being.
    We note the inconsistency of organizations that oppose a cap on the 
placement services entitlement, yet recommend a cap in administrative 
funding, as the Pew Commission report does. In our view, to support 
reduction of administrative funds signals a patent misunderstanding of 
how the child welfare program operates, and how fundamentally 
intertwined the two funding streams are.

Caseload Growth and Funding Needs Are Not Predictable
    In social services programs in which costs are linked to caseloads, 
growth in demand can be unpredictable and difficult to contain. In the 
1980s, child welfare caseloads grew rapidly and unexpectedly due to a 
sharp rise in the use of crack. We are now experiencing increased 
service demand for children impacted by methamphetamine abuse. 
Caseloads also fluctuate with the public's perception of child safety 
needs, which swing between greater out-of-home placement and more 
family maintenance services. While we believe that increased prevention 
activities will help to reduce demand for foster care placement, we do 
not know how long it will take to reap the benefits of increased 
spending on upfront prevention. As your subcommittee heard from the 
state of Ohio at last year's hearing on the Bush Administration's child 
welfare proposal, even a five-year time horizon appears too short to 
realize the full benefits of greater flexibility in the use of federal 
funds.
    While your bill would allow states to access the $2 billion 
Temporary Assistance to Needy Families program contingency fund under 
certain circumstances, the criteria that must be met in order to access 
the fund are so narrow that a state may not be able to receive funding 
even when it is dire need. An individual state would need to experience 
a caseload growth of at least 15 percent--in California, this would 
require an increase of well over 10,000 children in foster care--at the 
same time that the nation as a whole experience a 10 percent growth 
rate.
    Further, caseload growth is not the only driver of increased 
funding needs. Court action may also drive funding needs in the future 
for many states. Though it has not yet occurred in California, many 
other states have been compelled by the courts to increase their 
staffing levels and expenditures for child welfare, after they were 
found to be severely inadequate. Given this precedent, other states are 
certainly at risk of similar action in the absence of increased funding 
for staff and services. We fear that it would be nearly impossible to 
predict future court action, thus making it extremely difficult to 
build this type of increase into any formula for growth in programs 
that do not already have such court orders.

Workforce Improvement Needs Must Be Met
    Training funds should not be capped or included in a block grant to 
states. These funds are used to prepare social workers for the rigorous 
jobs of responding to abuse and neglect reports; working with the 
courts and other social service providers to create treatment plans for 
children and families; and achieving permanent solutions for children, 
ranging from reunification to guardianship to adoption. Including 
training funds in a block grant would ultimately force states to choose 
between services to children and training of staff--a choice that 
states should not have to make.
    California, like other states, is experiencing a severe workload 
crisis. We face a shortage of trained social workers, inadequate 
funding to hire enough workers, and increasing caseloads for those 
workers who are on board. A comprehensive study of child welfare 
workload in California counties released in 2000 confirmed what many 
had long believed: Our child welfare workers carry caseloads that are 
twice the recommended levels, making it difficult, if not impossible, 
for them to provide services beyond the basic protections to children 
and families.\1\ Since that time, expectations and requirements have 
increased along with heightened public scrutiny of the system, while 
funding and staffing levels have fallen further behind. Quality social 
work is the stepping stone to good results for children and families. 
Now is not the time to limit federal funding for child welfare services 
in any way, especially in the administration of the program.
---------------------------------------------------------------------------
    \1\ California Department of Social Services (April 2000). SB 2030 
Child Welfare Services Workload Study: Final Report. Sacramento, 
California.
---------------------------------------------------------------------------
    For all of these reasons, it is essential for the federal 
government to maintain its commitment to funding the most basic and 
vital support for children and families in our system, the social work 
staff who provide day-to-day services and case management.
2. Provide Flexibility to Use Title IV-E for Broader Services, Not Just 
        Foster Care Placement
    Past efforts to increase and improve services for children and 
families have been hampered by the ongoing lack of flexibility in the 
federal child welfare financing structure. Services to children and 
families in the child welfare system are funded through a patchwork of 
program dollars from numerous sources; the substance abuse, mental 
health, education, and medical care systems are major contributors. 
Counties couple these resources with funding received through federal 
Title IV-B, an allocation that is much smaller but more flexible than 
Title IV-E. Title IV-B funding can be used for a wide range of 
activities to protect and reunify families, but it is an insufficient 
allocation that most California counties exhaust in the first three 
months of each fiscal year. Counties are then left scrambling to piece 
together needed services for the remainder of the year.
    The limited funding for preventive services and family supports 
continues despite the federal focus on outcomes that require the 
provision of these very services. The Child and Family Services Reviews 
are measuring states' ability to provide safe, permanent homes for 
children; provide preventative services to avoid the recurrence of 
maltreatment; provide proper physical and mental health services for 
foster children; and ensure appropriate educational services for 
children in their care. Title IV-E funds cannot be used for the vast 
majority of the services and supports that are necessary in order for 
states to perform well on these outcome measures.
    Enabling states and counties to use Title IV-E funds in a more 
flexible manner would definitely lead to system improvements. If we 
could use Title IV-E funding to pay for mental health services and 
substance abuse treatment, for example, we could ensure faster access 
to these oft-needed services. It is estimated that parental substance 
abuse is a factor in two-thirds of the cases with children in foster 
care.\2\ Similarly, as many as 85 percent of children in foster care 
have significant mental health problems. The incidence of emotional, 
behavioral, and developmental problems among foster children is three 
to six times greater than among non-foster children.\3\ However, there 
are not enough programs and services to ensure timely access to 
services for children and their parents. When children and parents wait 
for mental health services or substance abuse treatment, their 
conditions worsen and become even more difficult to treat, making 
reunification less likely.
---------------------------------------------------------------------------
    \2\ U.S. Department of Health and Human Services (April 1999). 
Blending perspectives and building common ground: A report to Congress 
on substance abuse and child protection. Washington, DC. Retrieved from 
http://aspe.hhs.gov/hsp/subabuse99/subabuse.htm
    \3\ Marsenich, L. (2002). Evidence-based practices in mental health 
services for foster youth. Sacramento, CA: California Institute for 
Mental Health.
---------------------------------------------------------------------------
3. Increase Access to Title IV-B Funds
    Increasing access to the more flexible Title IV-B funds would 
assist counties and states in providing the types of services allowable 
under the existing rules for this funding source. As an example, the 
Title IV-B allocation could be expanded for individual states by a 
maximum percentage each year, for a prescribed number of years. States 
opting into the increased mandatory allocations would agree to raise 
their matching rate from the current 25 percent to 50 percent for the 
additional federal funding. The result would be an expansion of the 
investments of both the state and the federal government in providing 
prevention, reunification and family support services. Each state would 
describe in its federally approved Child Welfare Services Plan how the 
additional IV-B funds would be spent. Participating states would be 
able to flexibly spend the additional funds to address their most 
pressing needs for family-based services.
    From the federal perspective, an expanded IV-B program would 
dramatically increase the leverage and impact of each additional 
federal dollar expended on family and adoption support services, with 
states matching the federal allocation dollar for dollar, rather than 
providing one state/local dollar for each three federal dollars. From 
the state and local perspectives, public child welfare agencies would 
have increased flexibility to expand the delivery of family-centered 
services, as long as they are willing to make a substantial additional 
investment of non-federal funds. For California in particular, the IV-B 
expansion would play a critical role in supporting its ongoing child 
welfare system reform initiatives and facilitate implementation of the 
state's Program Improvement Plan (PIP). Within California and across 
the country, the IV-B expansion would be a win-win for state, local, 
and federal governments dedicated to improving outcomes for children 
and families.
4. Bring Title IV-E Eligibility Rules into the New Century
    Currently, states receive federal financial participation only for 
children who are removed from income-eligible homes, a calculation that 
uses arcane and outdated eligibility rules from a program that no 
longer exists. The cost of care and services for children whose parents 
are poor yet don't meet the outdated criteria are the sole 
responsibility of the states and, in California, the counties. Yet we 
are federally required to provide the same services to these children 
and meet the same outcomes, without any federal assistance. It is 
widely believed that the receipt of federal funds should not be subject 
to a means test, and that the federal government should share in the 
cost of care for every child regardless of their parents' income. We 
recommend eliminating the AFDC look-back requirement, which wastes 
precious resources on the processing of unnecessary paperwork, so that 
our limited funding and social worker time can be focused on direct 
services to children and families.
    To determine which children are eligible for federal Title IV-E 
funding, county staff must evaluate every child who enters foster care, 
using rules from the former Aid to Families with Dependent Children 
(AFDC) program that was discontinued in 1996. Because the foster care 
income eligibility rules have not been updated in almost a decade, the 
number of eligible California children has dropped over the past 
several years. Between 1999 and 2002, the number of foster children 
receiving Title IV-E funds in California dropped by 24.9 percent, and 
the proportion of the foster care caseload that was IV-E eligible was 
reduced by 7.85 percent.\4\ This decline is expected to continue if 
nothing is changed, with the state and counties paying 100 percent of 
the costs for ineligible children. Other states are in a similar 
situation.
---------------------------------------------------------------------------
    \4\ U.S. House of Representatives, Committee on Ways and Means, 
2004 Green Book.
---------------------------------------------------------------------------
    Federal funding should be available to children in need of 
protection regardless of their parents' income. The federal government 
should share in all of the services that states and counties are 
required to provide to abused and neglected children, not just children 
from the poorest families. If counties could use Title IV-E funding 
without ``looking back'' to outdated eligibility rules we would save 
administrative costs and direct those funds toward a broader group of 
families.
    Proposals to eliminate the AFDC look-back in exchange for a lower 
federal matching rate have some merit, but their state-by-state impact 
must be fully analyzed. For example, each state has a different 
percentage of children eligible for Title IV-E, due to demographic 
factors that vary by state. Therefore, Congress should consider 
calculating the FMAP reduction for each state that opts in, rather than 
enacting one reduction for the entire nation. Additionally, we believe 
that the FMAP should not be reduced for administrative services under 
any circumstances. Given the significant financial crisis facing 
California and many other states, reducing the FMAP for administrative 
services would have the effect of eliminating social worker positions, 
rather than allowing those positions to be redirected into direct 
services for children and families. Depleting our underfunded and 
overtaxed workforce would surely weaken our efforts to improve outcomes 
in achieving required safety, permanence, and well-being for children.
5. Provide Federal Funding for Guardianships to Enhance Permanency 
        Options
    CWDA recommends that children for whom guardianship is the 
permanency plan retain Title IV-E eligibility, with maintenance subsidy 
payable to the guardian.
    Many foster parents, both relatives and non-relatives, are hesitant 
to adopt because it requires the birth parent's rights to be 
terminated. To encourage relatives to enter into permanent 
guardianships for children as an alternative to adoption, the 
California Legislature created the Kinship Guardianship Assistance 
Payment Program, Kin-GAP, in 1998. Through Kin-GAP, juvenile dependency 
can be dismissed with legal guardianship granted to the relative, and 
the government no longer needs to intervene in the family's normal 
life. Participants receive monthly subsidies equal to the amount they 
would have received as foster parents, with a sliding scale based on 
regional costs and the age of the child.
    Kin-GAP has successfully achieved permanence for thousands of 
California children who would have otherwise remained in foster care. 
When a family enters Kin-GAP, however, they become ineligible for 
federal funding under Title IV-E. This is inconsistent with the federal 
Adoption and Safe Families Act of 1997 (ASFA), which contained a number 
of provisions aimed at promoting adoption and permanent placement for 
children removed from their homes due to abuse or neglect. Because the 
federal TANF block grant has not received inflationary adjustments, the 
overall purchasing power of these dollars has been substantially 
eroded, and states like California will be re-evaluating their use of 
TANF funds for programs like Kin-GAP, potentially jeopardizing their 
continued success. Kin-GAP also cannot assist with non-relatives who 
assume guardianship of children, because of TANF funding rules.
    While ASFA and its implementing regulations made substantial 
changes in state and local practices, the Act did not go far enough in 
recognizing that permanent placement with a relative is the most 
desirable outcome for many children, and that legal guardianship is a 
legitimate--and often preferred--means of achieving this permanency.
    The subcommittee draft released at the hearing would permit 
subsidized guardianship as a waiver option for states. Our recommended 
solution, to allow children placed into guardianships to retain IV-E 
funding eligibility, is consistent with the recommendations of other 
organizations, and we urge you to include federal Title IV-E 
maintenance funding for guardianships in the committee legislation.

Conclusion
    In summary, the County Welfare Directors Association of California 
urges Congress to maintain the uncapped funding of services provided to 
families and children through Title IV-E. In particular, we support the 
preservation of administrative activities as an uncapped entitlement. 
This funding stream is the basic building block of our child welfare 
system, as it funds the social workers who meet with children and 
families on a day-to-day basis, coordinate services among a patchwork 
of systems, and work with the courts to ensure that children find 
permanent homes in a timely manner. Training activities, automation, 
and foster care maintenance funds should also be kept as uncapped 
entitlement funding streams.
    In order to meet the outcomes for children and families that we all 
desire to achieve, the use of existing service dollars should be made 
more flexible. This can be accomplished by opening the existing Title 
IV-E funds to broader uses and making the allowable uses of Title IV-E 
conform to the types of services and supports that states must fund in 
order to achieve the Child and Family Services Reviews outcomes for 
children and families. Another approach to provide flexibility is to 
increase funding provided through Title IV-B, the more flexible but 
more limited funding stream currently utilized for a range of needed 
services for families and children. On an optional basis, states could 
provide a higher matching rate, such as 50 percent instead of the 
current 25 percent state/75 percent federal matching rate, and, in 
turn, receive incremental funding increases.
    We continue to encourage Congress to end the practice of paying 
federal funds only for those children who are removed from poor 
households, by de-linking eligibility. Regrettably, children from all 
walks of life and all income brackets are abused and neglected every 
day. The federal requirements for protecting and serving these children 
do not change as the household's income grows. Nor should the federal 
government's responsibility to pay its share of the services provided 
be limited to only the poor families in the child welfare system.
    Finally, we strongly advocate for federal financing of 
guardianships, as we have seen the success of California's ground-
breaking Kin-GAP program. As it is financed with increasingly scarce 
TANF dollars, the program's continued existence may be in jeopardy in 
future years. Congress should enact legislation to include funding for 
guardianships in the Title IV-E maintenance funding stream, and allow 
children placed into guardianships to retain IV-E eligibility.
    Thank you again for the opportunity to weigh in on these important 
issues. The discussion of financing structures may seem arcane at 
times, but thoughtful and well-structured reforms are vital to children 
and families. States and counties need your help to improve the safety, 
permanence, and well-being of those we serve on a daily basis. We 
appreciate your continued attention to these matters and hope to work 
with you to structure a reform package that we can support.

                                 <F-dash>

         Statement of Paula Duranceau, Benton City, Washington
    I would like to see some major changes in the Child Welfare system 
of the United States! The system is destroying Families across America. 
We need to see accountability for corrupt caseworkers, commissioners, 
attorney generals, Gal=s Judges, etc. . . .
    These people ``build a case'' based on LIES, and deception!!
    We have been fighting for custody of our two nieces and nephew who 
are stuck in the ``system'' We have spent over $53,000 fighting since 
October of 2003. We had a VERY strong case and everything pointed to us 
getting our nieces and nephew, yet the state chose to give them to a 
foster family where the children have NOT done well!! My husband and I 
are licensed foster parents with a STATE approved pre-adopt home study 
that we had done to adopt these children. We proved we are willing, 
ready and capable of caring for these children of who we are VERY 
attached to. What more does it take???
    Please take serious action, as our children and families are being 
destroyed daily by the system.
    Thank you.

                                 <F-dash>

      Statement of Cynthia Huckelberry, Redlands, California, and
                  Sushanna Khamis, Yucaipa, California

    OVERVIEW OF NEGATIVE IMPACT RELATED TO THE CURRENT CHILD PROTECTIVE 
SERVICE PROGRAM/REVISED:

    Child Protective Services was designed to protect children and aid 
families that are in need of assistance in order to maintain the family 
unit. Unfortunately, today we are finding that C.P.S is targeting 
specific families with limited set budgets, where child removal is 
commonly practiced for personal financial gain. The lack of compassion 
exhibited by C.P.S caseworkers towards the impoverished children that 
they serve, further devalues their lives in the eyes of these 
caseworkers. Thus indicating, that a lack of understanding and caring 
related to the circumstances of these financially challenged families, 
creates further dissention, prejudicing these C.P.S workers from the 
very people they serve.
    Within this document, the information provided will serve as an 
insight into the true source of the problems that plagues C.P.S today. 
Also, it will provide possible solutions that may be utilized to best 
serve a new restructured Child Protective Service Agency.

HOW C.P.S LEGALLY REMOVES CHILDREN FROM PARENTAL CUSTODY

    C.P.S systematically removes children from their families, whom do 
not meet the criteria for removal, through vague and ambiguous 
interpretation of their own codes and policy and procedures. They are 
able to operate in this manner by selecting specific target groups.
    The target groups that C.P.S has tagged are the poor, disabled, 
elderly, and the undereducated. Parents/guardians unfamiliar with the 
law, with limited or no financial means to secure impartial unbiased 
legal representation, blindly trust the courts. Therefore Child 
Protective Service is able to manipulate the court system to secure 
foster care or adoption status of these children for profit.

Example: Each child placed in foster care has an annual value of 
        $30,000
    More monies are available, up to $150,000 dollars per child, for 
those that meet the special needs criteria. After 24 months--during the 
concurrent foster care /adoption process, placement becomes final, 
where upon an $8,000 dollar bonus is dispersed to the county from the 
State. This bonus money is then divided amongst individuals that 
enabled the adoption process to be completed. This is not necessarily a 
positive solution for these children, but a personal financial gain to 
workers. Thus, this leads us to believe that some of the decisions made 
by C.P.S officials serve only as a means to enhance their personal 
budgets.
    Upon removal, C.P.S creates a plan for reunification that is 
designed to promote the family's failure. These case plans do not allow 
the families the time needed to comply nor do they have the financial 
resources needed to meet the court assigned criteria. Unbeknownst to 
the families, the courts, lawyers, and C.P.S workers falsely interject 
foster care criteria when family criteria should be utilized. Workers 
may also place long-term program demands on the parents that purposely 
overrun the 24-month time period.
    This then allows the state to complete the adoption process to 
outside individuals.
    In other cases, failure to protect--WIC 300b was cited to obtain 
removal of the children, when the custodial parents acted protectively, 
in accordance to the law, after a crime was committed against one of 
their children. Currently all children from these cases remain in 
``protective custody'' under the authority of C.P.S.

FAMILY COURT CUSTODY REMOVAL--PARENT ALIENATION SYNDROME

    Let it be known, that Family Court officials regularly remove 
custody of children from one parent to another (usually mother to 
father), citing parent alienation syndrome. C.P.S agrees to serve as 
the tool to enable custody transfer, a corrupt process observed by the 
FBI. Where, in truth, caseworkers are never allowed to testify in 
family court under the cloak of C.P.S authority, due to possible misuse 
or conflict of interest related to the right to privacy laws. FBI 
Agent/Lawyer Brenda Atkinson--San Francisco can verify this information 
by calling her at (415) 553-7400.
    Child Protective Service also submits false documentation so as to 
provide a supportive basis necessary to substantiate their decisions. 
Thus the truth is purposely obstructed altered or omitted to justify 
case plans.
    In many cases, C.P.S has failed to investigate additional outside 
reports from various professionals and agencies such as children's 
physicians, police agencies, school system, etc.

WHY DOES CPS SYSTEMATICALLY REMOVE CHILDREN FROM THEIR FAMILIES AND 
        PLACE THEM IN FOSTER CARE?

    Since Clinton enacted the adoption and Safe Families act in 1997, 
this has lead to widespread corruption within the child Protective 
Services Agency and outlying neighboring agencies. By systematically 
removing children from predominantly poor families, C.P.S is able to 
secure foster care/ adoption status for these children with little or 
no parental encumbrance.
    Thus C.P.S victimizes those families that have no means available, 
to properly investigate C.P.S corrupt activities directed at their 
family.
    Since Federal and state matching funds generate the budget for 
C.P.S, the single means utilized to elevate the budget is to increase 
foster care and adoption caseloads.
    Bonus incentives for adoptions are currently $8,000 per child. 
$4,000 is given to the foster parents and another $4,000 is placed in a 
general fund, to reward workers for completing their job duties. 
Workers in this county, state that they do not personally financially 
benefit from this fund. Thus it leads us to believe, that other 
neighboring agencies are benefiting form this fund, in return for 
deceptive practices that support C.P.S decisions.

BABY TRAFFICKING

    False Allegations of drug abuse have been logged against mothers 
and their newborn infants as a means to place these infants into 
protective custody. The hospital staff has allowed C.P.S to remove 
infants (a hospital violation) prior to verification of blood and urine 
drug screen tests. C.P.S is mandated to secure verification of drug 
allegations via blood and urine results, prior to removing the newborn 
infant from the hospital. All cases known to us resulted negative for 
the mother and the newborn, but these infants were never returned, and 
were adopted outside of kinship.
    In the past year, the FBI has arrested and imprisoned C.P.S workers 
who were actively involved in baby trafficking for profit. These C.P.S 
workers knowingly abducted infants from the hospital where they in turn 
networked them into legal adoption agencies. Augustus Fennerty, FBI 
director for Crimes against Children (Washington D.C) can verify this 
information. (202) 324-3000

CHILD SEX TRADE INDUSTRY

    Southern California FBI District has videotape recorded CPS workers 
placing foster care children onto planes via LAX, destination Europe 
for child sex trade industry. This can be verified through Ted 
Gunderson, (retired) FBI Director Southern California (310) 477-6565.

SEXUAL VICTIMIZATION IN FOSTER CARE

    For the families in relation to our group in San BernardinoCounty, 
it has come to our attention while comparing similarities, that 
approximately half the children in foster care have been molested.
    These children were not sexually abused by their parents, but by 
the foster fathers or others in the foster home. It was also noted that 
these foster homes are still operating in the same capacity prior to 
complaints, without any investigation into these allegations. C.P.S 
officials were made aware of these accusations by the children, but 
failed to follow through with a criminal investigation.
    In conclusion, Child Protective Service is nothing more than an 
``oasis'' for child molesters, to make a profit, while at the same time 
committing a crime, only to be protected by a malignant system that 
delivers a never ending supply of victims

SYSTEMATIC FRAUDULENT MANEUVERS UTILIZED TO ENHANCE C.P.S BUDGET
    <bullet>  C.P.S manufactures multiple nonexistent /fictitious abuse 
case scenarios to offset true statistical abuse case information.
    <bullet>  C.P.S concurrently processes these children from foster 
care to adoption, in order to obtain perverse monetary incentives in 
the form of bonuses.
    <bullet>  C.P.S provides a market to neighboring agencies and the 
courts (commissioners, psychologists, monitors, court mandated 
behavioral class instructors, court appointed legal counsel), in order 
for them to financially benefit from the foster care/adoption system.
    <bullet>  C.P.S victimizes innocent impoverished families, draws 
them into a corrupt system to utilize their children as pawns for 
commerce.

MALICIOUS OPERATIVE TECHNIQUES
    <bullet>  C.P.S is utilized by family court officials, as an 
adverse tool to extricate children from one parent to the other, with 
reference to ``parent alienation syndrome''.
    <bullet>  Where, in truth, caseworkers are never allowed to testify 
in family court under the cloak of C.P.S authority, due to possible 
misuse or conflict of interest related to the right to privacy laws.
    <bullet>  C.P.S utilizes coercive measures to persuade parents to 
submit to statements of prior alleged abuse, when these actions were 
nonexistent. In other words, forcing desperate parents to ``plea 
bargain'' to a C.P.S fabricated crime, for the return of their children 
from foster care.
    <bullet>  C.P.S fabricates portions of investigations, where such 
duties have never been physically performed, to purposely mislead or 
direct a case.
    <bullet>  C.P.S knowingly abandons children into foster care, 
conscious of the fact that some foster care parents and or individuals 
in the home physically and sexually abuse the children in their 
protective custody.
    <bullet>  C.P.S intentionally fails to prosecute parents accused of 
child abuse, since in the majority of cases, no initial crime has been 
committed.
    <bullet>  C.P.S represents themselves in positive personas, by 
omitting, altering, and falsifying documents, so as to mislead the 
public and or government of their true actions as listed above. Thereby 
publicly grandstanding, displaying an inaccurate social martyrdom for 
the well being of children.
    <bullet>  C.P.S ignores crimes committed in foster care, such as 
the atrocious acts of unexplained deaths.
    <bullet>  C.P.S fails to question these individuals for their 
abusive conduct, whereby, if it were not a foster care parent, these 
individuals would be prosecuted to the fullest extent of the law.

SHOULD CHILD PROTECTIVE SERVICE BE RESTRUCTURED?
    The police should determine if a child has a true need for 
protection from his parents, since child abuse is a criminal offence. 
Thus, C.P.S should be incorporated with Crimes against Children Units 
that are currently located within police, sheriffs and FBI agencies.
    The merging of the two would reduce the amount of false allegations 
reported, since complaints made to a police unit is a criminal offence. 
Also, the police have the training and resources needed to conduct a 
thorough investigation. This allows them to determine that if a crime 
has been committed that warrants the need for foster care.
    A parent/guardian under the suspicion of the crime ``Child Abuse'' 
would meet the criteria for removal. This would activate the foster 
care system. Only then would the foster care system be utilized as a 
response to a possible or suspected crime.
    Thus in turn, this would eliminate the unnecessary utilization of 
the foster care system that has been grossly misused in the past. 
Unwarranted victimization of children and their families would be 
greatly reduced and soaring costs would be contained. This would 
minimize the number of future cases that fall through the cracks and 
get lost in the system.

WHAT ROLE SHOULD THE SOCIAL WORKERS PLAY IN THE NEW CHILD PROTECTIVE 
        SERVICE?
    <bullet>  All caseworkers must have a bachelor's degree in social 
work from an accredited college.
    <bullet>  All states must create bachelor level licensing for 
social workers.
    <bullet>  All workers must have a current license to work within 
any state or county in the United States with reciprocity.
    <bullet>  All social workers must have a preceptor for at least 
three months prior to individual casework.

WHO SHOULD BE A MEMBER OF THE CHILD PROTECTIVE SERVICE TEAM WITHIN THE 
        CRIMES AGAINST CHILDREN UNITS?
    Other members from various agencies should be inclusive to this 
unit, since they bring their specific expertise to complete a proper 
investigation. It is our opinion that the following individuals who 
should comprise this team are as stated: Registered Nurse, School 
Principal, Detective, and Social Worker.

SHOULD AN OUTSIDE AGENCY SYSTEMATICALLY REVIEW THE CHILD PROTECTIVE 
        SERVICE TEAM'S PERFORMANCE?
    All agencies must have an outside quality control board that 
monitors case investigations on a random basis and when requested by 
the public. This Board must include members similar to the Child 
Protective Service team, with the addition of an individual from the 
public. No member may be employed more than three years, to maintain 
the integrity of the boards' unbiased decisions.

SHOULD WE MAINTAIN A CHILD ABUSE INDEX LIST?
    The child abuse index list shall be maintained only when an 
individual has been prosecuted and convicted by a court of law for a 
crime against a child. Today's said list shall be destroyed, so as to 
prevent harm to those currently listed who have been accused of a crime 
against a child, but that have never been prosecuted or convicted. And, 
children should never be placed on any list that would categorize them 
in an adverse manner, such as this.

SHOULD THERE BE NEW RULES AND REGULATIONS RELATED TO FOSTER CARE?
    There should be a limited number of children allowed to be placed 
in any single home under foster care, including adoption. No single 
family shall be allowed to adopt or provide foster care to more than 
two children at any time. The only exception shall be when siblings 
number more than two and are placed in the same single dwelling. This 
will eliminate the financial incentive for monetary gain related to 
housing foster children and adoptions.
                                 ______
                                 
                                         Redlands, California 92373
                                          Yucaipa, California 92399
                                                      July 12, 2004
U.S. House of Representatives
Washington, DC 20515-0542

    To our Honorable U.S. House of Representatives,

    It is unfortunate that Child Protective Service officials have 
mislead the government into believing, that increased funding is 
necessary to solve the multitude of problems that encompass C.P.S. This 
agency is utilizing the funding issue as the scapegoat for their 
problems, when in actuality the workers themselves, the lack of their 
personal accountability, are the source of the problem. Further funding 
will not solve C.P.S'S current crisis, only the restructuring of this 
agency will provide a solution.
            Sincerely,
                                                Cynthia Huckelberry
                                                    Sushanna Khamis

                                 <F-dash>

  Statement of Tracey Feild, Institute for Human Services Management, 
                          Baltimore, Maryland

                  Reforming Child Welfare Financing\1\
---------------------------------------------------------------------------

    \1\ This statement is excerpted from: Tracey Feild, ``Medicaid: The 
Real Problem with Child Welfare Funding,'' Baltimore, MD: Institute for 
Human Services Management, April 2004.
---------------------------------------------------------------------------
Introduction
    The current debate on what is wrong with child welfare funding is 
focused primarily on the lack of flexibility in the federal Title IV-E 
program. State policy makers complain that Title IV-E reimburses states 
for a portion of the cost of keeping a child in out-of-home care, while 
excluding reimbursement for the cost of services to prevent removal 
from the home or to expedite reunification. The interim report from the 
Pew Commission on Foster Care stated that:
    The vast majority of dedicated federal child welfare funds--Title 
IV-E--can only be accessed by states once children have been removed 
from their families of origin. . . . As a result, states' ability to 
invest in prevention or in alternatives to foster care is limited.\2\
---------------------------------------------------------------------------
    \2\ G. Hochman, A. Hochman, J. Miller, Foster Care: Voices from the 
Inside, Washington, D.C.: The Pew Commission on Children in Foster 
Care, March 2004, p. 26.
---------------------------------------------------------------------------
    This criticism of the Title IV-E program, however, is misguided. 
The real problem with child welfare funding is the Medicaid program, or 
to put it more precisely, state implementation of the Medicaid program. 
This paper will argue that the real culprits in the child welfare 
funding dilemma are state budget directors, and Medicaid and behavioral 
health administrators and policies. The paper offers recommendations 
for statutory change that could address the child welfare funding 
problem within the context of both Title IV-E and the Medicaid program.
Federal Assistance for Child Welfare Costs
    The Adoption Assistance and Foster Care Act of 1980, Title IV-E of 
the Social Security Act, offers federal matching reimbursement for 
foster care and adoption subsidy costs to assure that children from 
low-income families, who must be removed from their homes, will have 
federal support for board and care costs and case management services. 
Other federal programs address the need for other services. These 
programs include:

    <bullet>  Medicaid: for health care and therapeutic services;
    <bullet>  Social Services Block Grant (SSBG): for social services 
to children and families;
    <bullet>  Title IV-B: for a full range of child welfare services;
    <bullet>  Temporary Assistance to Needy Families (TANF): used in 
child welfare for emergency services, relative support, other family 
stability services as defined by each state.

    These four programs are the primary sources of federal funds used 
by states to pay for services to abused and neglected children. Given 
this range of federal programs, and the flexibility offered through the 
Social Services Block Grant and Title IV-B, the question becomes: Why 
would more flexibility be needed or desired? The simple answer is that 
while Title IV-E and Medicaid are entitlement programs, meaning the 
federal government guarantees it will share in the cost of allowable 
services for eligible children regardless of spending levels, the SSBG, 
Title IV-B, and TANF are not.
    The SSBG, Title IV-B, and TANF have fixed allocations. The SSBG was 
``capped'' in 1972, and Title IV-B has always had a fixed allocation. 
Federal funding for the SSBG was $2.4 billion in 1982; in 2004, the 
appropriation was $1.7 billion. Because it is a ``generic'' social 
services program, available for a wide range of services (e.g., child 
welfare services, services for the elderly, mental health services, 
services for the developmentally disabled, etc.), it has been 
particularly vulnerable to federal budget cuts.
    Title IV-B funding, available for a wide range of child welfare 
services, has had a three-fold increase over the same period, but the 
total allocation in 2004 was only about $700 million federal, making it 
a minor player in child welfare funding overall. Relative to Title IV-E 
spending, at close to $7 billion federal in 2004, Title IV-B is little 
more than a gap-filler.\3\
---------------------------------------------------------------------------
    \3\ Child Protection Report, Vol. 29, No. 25, December 18, 2003, 
page 197.
---------------------------------------------------------------------------
Flexibility and the Title IV-E Program
    Several years ago, the Title IV-E waiver program was instituted by 
Congress to allow states to experiment with using Title IV-E more 
flexibly in order to test innovative approaches to child welfare 
service delivery and financing. The states were allowed to design and 
demonstrate a wide range of approaches to ``reform'' child welfare and 
improve outcomes in the areas of safety, permanency and well-being. The 
reason these waivers were instituted was because of state child welfare 
administrators' concerns that Title IV-E was too categorical, and was 
simply too rigid to allow for innovation in improving child welfare 
outcomes. To date, some 25 demonstrations have been developed in 17 
states.
    Due to implementation problems, and problems with the various 
program and research design efforts intended to test the effectiveness 
of the innovations, results of these demonstrations have been somewhat 
inconclusive. However, the Illinois Department of Children and Family 
Services has successfully demonstrated through its Title IV-E waiver 
that using Title IV-E funds to pay caregivers (primarily relatives) 
monthly stipends to care for children as legal guardians in an 
``assisted guardianship'' program, rather than as foster or adoptive 
parents, has improved permanency beyond what would have been expected 
without the program.\4\ Interestingly, the assisted guardianship 
program uses Title IV-E funds to pay primarily for board and care, an 
already allowable IV-E expense, but to a caregiver who is not currently 
an allowable category of caregiver under the Title IV-E program. 
Without a doubt, if Congress amended Title IV-E to include this 
category of caregiver as an allowable expense within the program, 
overall permanency for children would improve.
---------------------------------------------------------------------------
    \4\ The evaluation found the permanency rate in the demonstration 
group was 77.9%, while the permanency rate in the control group was 
71.8%. a difference of 6.2%, which is significant at the 0.02 level. 
See Children's Bureau website: http://www.acf.dhhs.gov/programs/cb/
initiatives/cwwaiver/ill.htm for highlights of the evaluation findings.
---------------------------------------------------------------------------
    Other waiver demonstrations used waiver flexibility to provide and 
fund services that are currently not allowable through the traditional 
Title IV-E program, including demonstrations in California, Colorado, 
Connecticut, Delaware, Illinois, Indiana, North Carolina, Ohio, Oregon, 
New Hampshire, and Washington. Among these states, all have used Title 
IV-E waiver flexibility, in part, to provide and/or pay for services 
that would prevent placement in out-of-home care, or would expedite 
reunification. A portion of Title IV-E waiver funds has been used to 
purchase therapeutic services that are allowable through the federal 
Medicaid program for children who are Medicaid-eligible. State child 
welfare agencies have been using waivers in order to pay for services 
through the Title IV-E program that should be, but are not available 
through the Medicaid program.

Child Welfare's Unmet Needs
    Research undertaken in the last 20 years on the effect of abuse and 
neglect on brain development, mental health, socialization, and school 
performance demonstrates the negative impact of abuse and neglect on 
child development and mental health. There is a substantial body of 
evidence showing that children who have been abused or neglected are at 
risk for a range of psychopathological outcomes.\5\ The fact is that 
abused and neglected children, by virtue of being abused or neglected, 
have a medical need for therapeutic services that is different from the 
general population.
---------------------------------------------------------------------------
    \5\ Cohen, P., et. al., ``Child Abuse and Neglect and the 
Development of Mental Disorders in the General Population,'' 
Development and Psychopathology, 13, 2002, pp. 981-999.
---------------------------------------------------------------------------
    Additionally children who enter foster care are more likely than 
children in the general population to be in poor health. According to 
the AmericanAcademy of Pediatrics, ``Compared with children from the 
same socioeconomic background, [children in foster care] . . . suffer 
much higher rates of serious emotional and behavioral problems, chronic 
physical disabilities, birth defects, developmental delays, and poor 
school achievement.''\6\ The U.S. General Accounting Office found that, 
``Foster children are among the most vulnerable individuals in the 
welfare population. As a group, they are sicker than homeless children 
and children living in the poorest sections of inner cities.''\7\
---------------------------------------------------------------------------
    \6\ American Academy of Pediatrics Committee on Early Childhood, 
Adoption, and Dependent Care. ``Health Care for Children in Foster Care 
(Policy Statement RE9404),'' Pediatrics, Vol. 93, No. 2, 1994, pp. 335-
338.
    \7\ U.S. General Accounting Office, Foster Care: Health Needs of 
Many Young Children Are Unknown and Unmet. GAO/HES-95-114 (1995).
---------------------------------------------------------------------------
    A group of mental health researchers concluded that:
    The risk factors and high incidence rate of psychopathology among 
children in foster care placements necessitate concurrent attention to 
clinical needs and child welfare goals for permanency. This dual 
directive suggests that the mental health needs of children in care may 
be qualitatively and quantitatively different from the general 
population of children and necessitate specialized service delivery. 
(emphasis added)\8\
---------------------------------------------------------------------------
    \8\ Berson, I., et.al. Mental Health Care for Child Welfare 
Clients: Final Report, Tampa, FL: Louis de la Parte Florida Mental 
Health Institute, University of South Fl., 2002.
---------------------------------------------------------------------------
    Given the overwhelming mental health and rehabilitative needs of 
the foster care population, a population that is 95 percent Medicaid 
eligible, one would expect that Medicaid services, both behavioral 
health and rehabilitative services, would be readily available to meet 
the needs of children disadvantaged primarily by their parents' actions 
or inactions. Remarkably, the Medicaid behavioral health system has 
generally failed to meet the therapeutic needs of the child welfare 
population.

Federal Medicaid Requirements
    Federal Medicaid law supports, and even mandates the provision of 
services to children to address their primary and behavioral health 
care needs regardless of the preferences or constraints of the 
individual states. The failure of states to address the therapeutic 
needs of the child welfare population, in spite of federal law, is a 
function of a combination of the low priority given to the child 
welfare population and state Medicaid budget concerns.
    One of the general principles of the Medicaid program is 
``comparability'', meaning that all eligible clients must have equal 
access to services based on the medical necessity criteria established 
for each service. This principle is intended to insure that eligible 
clients have equal access to medical services across each state. Access 
to services can only be distinguished by a client's medical necessity 
for each service, which each state specifically defines within its 
Medicaid program. The concept of medical necessity is used to assure 
that only clients with a defined medical need for a service have access 
to that service. Unfortunately, the concept of medical necessity is 
also used to limit access to services, by making medical necessity 
standards for therapeutic services extremely narrow.
    Narrowly-defined medical necessity criteria for therapeutic 
services tend to disadvantage any high risk group. Typically services 
are not available for risk of emotional problems or for non-severe 
emotional problems. Even though the risk of poor outcomes for the child 
welfare population is far greater than for the general Medicaid 
population, states have generally kept all children needing services in 
a single group for determining medical necessity. Services become 
available when a child has finally met the criteria for severe 
emotional disturbance. Even when services are available to a less 
severe population, waiting lists delay access to services or even 
access to evaluations needed to determine the level of need. 
Furthermore, available services are often limited to traditional 
office-based services that poorly suit the needs of the child welfare 
population.
    Historically, special access to Medicaid services for abused and 
neglected children, or even the smaller subset of foster children, has 
been impossible to obtain through state Medicaid systems based on the 
inability of the child welfare system to produce any evidence that 
abuse or neglect itself, or the need to place children in out-of-home 
care, places children in a unique health risk category. Empirical 
evidence, however, now exists as discussed briefly above.
    The federal Medicaid program was designed to meet the health care 
needs of low income individuals, and since 1989, was intended to meet 
the specialized needs of children regardless of limitations imposed by 
the individual states. Fifteen years ago, the Congress added language 
to the provisions of the Early and Periodic Screening, Diagnosis and 
Treatment (EPSDT) Program to assure that children with health needs, 
including mental health needs, receive treatment for those needs, even 
if a state's Medicaid program did not cover those specific needs. The 
Omnibus Budget and Reconciliation Act of 1989 (OBRA'89) amended 
Sections 1902(a)(43) and 1905(a)(4)(B) and created Section 1905(r) of 
the Social Security Act setting forth the basic requirements of the 
program. Under EPSDT:
    The Act requires that any service which [states] are permitted to 
cover under Medicaid that is necessary to treat or ameliorate a defect, 
physical and mental illness, or a condition identified by a screen, 
must be provided to EPSDT participants regardless of whether the 
service or item is otherwise included in [a state's] Medicaid plan.\9\ 
(Emphasis added.)
---------------------------------------------------------------------------
    \9\ From the State Medicaid Manual, Center for Medicare and 
Medicaid Services, April 1990, page 5-5.
---------------------------------------------------------------------------
    This section of the Social Security Act make it clear that costly 
therapeutic and rehabilitative services needed by Medicaid-eligible 
children in the child welfare system should be available and provided 
and federally reimbursed through the Medicaid program. But they are 
not, in spite of the provisions of EPSDT and in spite of the federal 
reimbursement available for those services.

State Medicaid Response to Child Welfare Needs
    In any state, access to federal Medicaid funds is controlled 
primarily by the availability of non-federal matching funds. Matching 
funds can be comprised of state and/or local public revenue funds. 
Because of the spiraling growth of state Medicaid budgets, access to 
federal Medicaid funds, in spite of federal statutory language 
guaranteeing access to needed services for children, is often limited 
by the availability of matching funds.
    State budget directors, at the very least, typically view all 
expansion of Medicaid services as cost increasing. Hence in some 
states, the implementation of the EPSDT provisions beyond basic health 
screening, immunizations, and primary health care has been perfunctory 
at best. Screening processes that could identify the need for 
therapeutic services have not been widely implemented. A recent study 
found that ``23 states have no specialized behavioral health screening 
tools and no behavioral health questions or prompts in their [EPSDT] 
comprehensive screening tools.''\10\ Without specific behavioral health 
screening tools, it is likely that most mental health problems, 
particularly in young children, would not be identified in an EPSDT 
screen.
---------------------------------------------------------------------------
    \10\ R. Semansky, et.al. ``Behavioral Health Screening Policies in 
Medicaid Programs Nationwide,'' Psychiatric Services, Vol. 54, No. 5, 
May 2003, p. 737.
---------------------------------------------------------------------------
    The lack of specific mental health screening tools seems to 
represent an assumption that mental health problems not identified will 
not have to be treated, and therefore, will not incur costs. The cost 
saving nature of failing to install specific mental health screening 
tools in order to identify mental health problems, however, ultimately 
seems short-sighted and perhaps short-lived, since untreated mental 
health problems may simply worsen until they become obvious and more 
costly to treat.
    State Medicaid administrators, like it or not, are often put in the 
no-win position of trying to control spending, at the expense of 
meeting eligible children's federally mandated behavioral health care 
needs. For the general population, denying access to Medicaid for 
needed behavioral health services means that eligible children likely 
will not get the service. Some children will improve without the 
service, some will get worse. Again, the untested assumption is that 
waiting to serve just those clients who get worse would be less costly 
than serving all clients with needs identified early. While this 
assumption may or may not be true in general, it does not work for the 
child welfare population.
    The child welfare system has an obligation to provide needed 
services for the child welfare population, particularly the custody 
population, regardless of federal funding availability. If a child 
needs costly residential treatment, the child welfare system is 
obligated to provide it regardless of whether or not Medicaid 
reimburses the cost. Therefore, preventing access to Medicaid for the 
child welfare population means that the service will be paid from 
capped federal funds, or state/local funds only.
    What state elected officials and policy makers consistently fail to 
recognize is that preventing child welfare access to federal Medicaid 
reimbursement for services the system will pay for anyway, as part of 
the custodial obligation, only serves to save federal dollars--the 
state actually spends more general revenue funds by spending state or 
local funds without benefit of federal reimbursement, or by spending 
capped flexible federal funds that could be used for less costly 
family-based social services. If the therapeutic services will be 
provided to children in the child welfare caseload anyway, it makes 
more sense to access federal Medicaid reimbursement for a portion of 
the cost than to rely solely on state, local or limited flexible 
federal funds.

Fundamental Differences between State Behavioral Health Goals and the 
        Child Welfare Mandate\11\
---------------------------------------------------------------------------
    \11\ The term ``behavioral health'' is meant to include both mental 
health and substance abuse services, which, depending on the state, can 
be together in a single agency, or in separate agencies--one for mental 
health and one for substance abuse.
---------------------------------------------------------------------------
    Access to behavioral health services is typically routed through a 
state's behavioral health system. The goal of most state behavioral 
health systems is to provide a level of services that can achieve an 
acceptable standard of care for the most people, while keeping within 
the agency's budget. And with this approach comes the trade-off between 
access to services and limits on services. This goal, while reasonable 
for the general population, is in direct opposition to the mandate of 
the child welfare system, which is simply to meet the mental health 
needs of the child welfare population. The child welfare system, 
particularly when acting as parents to children in custody, cannot pick 
and choose who will get therapeutic services and when, based on 
diagnoses, based on the likelihood of treatment success, or based on 
funding levels.
    Behavioral health administrators, while recognizing that Medicaid 
is a fundamental part of their statewide behavioral health program, 
typically see their mission as serving those with behavioral health 
needs regardless of Medicaid eligibility. Therefore the system is 
automatically limited not only by availability of non-federal matching 
funds for Medicaid-eligible clients, but by what the state/ local 
government can afford without benefit of any federal reimbursement for 
those who are not Medicaid-eligible.\12\ The behavioral health service 
array and access to services are highly controlled by these funding 
constraints. Programs are designed that include inpatient care and 
outpatient counseling, with varying levels of service in between, 
depending on available funds. Definition of medical necessity for each 
service is carefully controlled, allowing limited access to basic 
services for all with some level of need, but allowing access to 
intensive services to only those most in need. Many child welfare 
clients fall just short of the criteria that would allow them access to 
intensive services, and are therefore left with the same limited access 
to basic services, including long wait lists, as the general 
population.
---------------------------------------------------------------------------
    \12\ State behavioral health agencies have federal Community Mental 
Health Block Grant funds that total less than $500 million nationally, 
may have access to federal SSBG funds, and have state and/or local 
funds.
---------------------------------------------------------------------------
    Often, for mental health services, intensive services are limited 
to seriously mentally ill adults and severely emotionally disturbed 
children; while those with lesser needs may only have access to 
outpatient counseling. Services require Medicaid match for eligible 
recipients, and use funds without benefit of federal reimbursement for 
those who are not eligible for Medicaid. Moreover, some states have 
passed on the obligation to provide and control behavioral health 
services and costs to managed care contracting entities, which may give 
limited attention to the contractors' performance in the area of at-
risk children.\13\ Finally, since the system is designed to meet the 
behavioral health needs of all of the state's citizens, and because of 
funding limitations, the systems typically are limited in how well they 
can meet the needs of any one client. The result is that behavioral 
health administrators are often forced to choose between adults and 
children, and/or between the high need population, which includes the 
child welfare population, and the general population.
---------------------------------------------------------------------------
    \13\ For more discussion of managed care impact on mental health 
services for children and youth and the child welfare population, see: 
I.R. Berson, et. al., Mental Health Care for Child Welfare Clients: 
Final Report, Louis de la Parte, Florida Mental Health Institute, 
University of South Florida, July 2002, and J. McCarthy and C. 
Valentine, Tracking State Managed Care Reforms As They Affect Children 
and Adolescents with Behavioral Health Disorders and Their Families, 
National Technical Assistance Center for Children's Mental Health, 
Center for Child Health and Mental Health Policy, Georgetown University 
Child Development Center, December 2000.
---------------------------------------------------------------------------
    While OBRA'89 established an entitlement for services for Medicaid-
eligible children, most states are not willing to create separate 
benefit packages for Medicaid-eligible and non-Medicaid-eligible 
children. Therefore, behavioral health administrators create a single 
array of services, with a single set of medical necessity standards. 
Because many children needing behavioral health services are not 
Medicaid-eligible, and may in fact, have inadequate private health 
insurance, the state often cannot afford more than a very basic 
behavioral health program. But this strategy makes sense from a 
behavioral health system point of view: At least some behavioral health 
services are available to all in need.
    In order to address funding limitations, state and local behavioral 
health agencies are forced to implement strategies that limit access to 
services. Through these mechanisms, all children, both Medicaid-
eligible and non-Medicaid--eligible children are prevented from 
accessing adequate and appropriate therapeutic services in a timely 
way. The effect of limiting access to these services for the child 
welfare population is that either Medicaid-eligible children do not get 
the services they need (or do not get them timely), and/ or the child 
welfare system is forced to pay for these Medicaid-allowable services 
out of 100 percent state or local funds, or from their limited, capped, 
flexible federal funds.
    While some behavioral health administrators have embraced the child 
welfare population, there are many who view the child welfare 
population as an unwanted drain on their limited resources, rather than 
the most needy and ``at risk'' target for their resources. Behavioral 
health administrators encounter the same fiscal roadblocks to expanding 
access to services as other agencies, and rarely find their needs are a 
priority for Medicaid or other budgetary increases. When there is 
support for increases in behavioral health budgets, community support 
for such increases is often focused on the more visible, de-
institutionalized, seriously mentally ill adults, rather than children. 
When there is pressure to increase services for children, behavioral 
health administrators tend to rationalize a choice for serving the 
general population of children rather than the child welfare 
population, based on their understanding that the child welfare system 
is obligated to meet the therapeutic needs of the child welfare 
population. Therefore, the reasoning goes, behavioral health resources 
can be spent on children who are not a part of the child welfare 
system. Unfortunately, this choice can result in the elimination of 
federal Medicaid reimbursement for at least a portion of the 
substantial level of therapeutic services that is provided (or should 
be provided) to the child welfare population.
    Medicaid and behavioral health administrators tend to assume that 
growth in behavioral health service utilization among child welfare 
clients represents over-utilization of services rather than: (1) 
increased need for therapeutic services, (2) increased recognition of 
need for therapeutic services, or (3) increased understanding by child 
welfare administrators and providers of how to access Medicaid 
reimbursement for therapeutic services that previously had been 
provided without benefit of Medicaid reimbursement. This erroneous 
belief results in extra efforts to limit services to the child welfare 
population. Examples of discriminatory attitudes toward the child 
welfare population, and high need populations in general, are too 
numerous to describe here. But all are effective strategies for 
curtailing behavioral health and Medicaid costs (both federal and non-
federal). However, they also serve to restrict access to services 
altogether. While these strategies may be a politically acceptable way 
to ration scarce resources for the general population, a substantial 
body of research documents that children in the child welfare system, 
particularly those in custody, are at very high risk of poor mental 
health and developmental outcomes. These cost containment strategies 
only serve to exacerbate their already high risk of poor outcomes. 
Particularly for children in custody, each state has an affirmative 
obligation to meet children's therapeutic and rehabilitative needs. 
Allowing these needs to go unmet because resources are scarce 
represents a failure to fulfill the custodial obligation.
    The federal government's Child and Family Service Reviews document 
the failure of state behavioral health systems to meet the therapeutic 
needs of the child welfare population. Of the 40 completed state 
reviews, only two states (5%) met the federal standard of 90 percent of 
children with mental health needs being adequately assessed and 
provided needed mental health services.\14\
---------------------------------------------------------------------------
    \14\ For an indepth analysis of the states' performance through 
2002, see J. McCarthy, A. Marshall, M. Irvine and B. Jay, An Analysis 
of Mental Health Issues in States' Child and Family Service Reviews and 
Program Improvement Plans, Washington, D.C.: National Technical 
Assistance Center for Children's Mental Health, Georgetown University 
Center for Child and Human Development, April 2004.
---------------------------------------------------------------------------
    Had the reviews measured only access to, and receipt of Medicaid-
reimbursed behavioral health services for Medicaid-eligible children, 
it is likely that a smaller percentage of cases would have achieved 
``substantial compliance'' in many jurisdictions. Because of problems 
accessing quality or timely services through Medicaid, many 
jurisdictions use block grant funds, capped federal funds, all state 
funds, local funds, or child welfare provider donations to cover the 
cost of the therapeutic services. Medicaid-allowable therapeutic 
services provided to Medicaid-eligible children funded with other than 
Medicaid funds helped states achieve the compliance levels they did 
achieve in the federal reviews.

Fixing the ``Child Welfare Funding Problem
    Child welfare administrators, clamoring for more flexibility in 
Title IV-E, do not understand that the Medicaid program, by federal 
law, should be addressing the service needs they cannot figure out how 
to meet within their existing fund sources. And because of their own 
pressures, both state Medicaid and state behavioral health 
administrators have not been helping them address their unmet needs.
    To a state's behavioral health system, Medicaid is a service 
program; to a state's child welfare system, Medicaid is a fund source. 
The goal of the state child welfare system should be to maximize 
federal revenues for services it will provide anyway because of the 
custodial obligation; while the goal of the behavioral health system is 
to scale the service system to its budget. As long as the behavioral 
health system successfully achieves its goal, the child welfare 
system's goal can never be met, because there will always be Medicaid-
allowable services for Medicaid-eligible clients that fall outside of 
the program defined by the state behavioral health system's budget. The 
only viable solution, given state budgetary limitations, is to separate 
the child welfare therapeutic services program from the state 
behavioral health service system. Separating therapeutic services in 
the two systems would allow child welfare:

    <bullet>  To maximize federal revenues for needed services, and
    <bullet>  To use its non-federal funds to match either Medicaid for 
therapeutic services or Title IV-E for board and care, or both as 
needed.

    The narrow vision of state child welfare administrators in 
identifying the ``problem'' as a Title IV-E problem is understandable. 
Title IV-E, along with its required non-federal match, is the most 
significant fund source in the system. It is ``their'' program. 
Medicaid is not their program; not a program in which their input is 
sought or desired. Relative to nursing homes, hospitals, pharmaceutical 
companies, and the like, child welfare is little more than Cinderella 
asking permission to attend the ball. With few exceptions, the needs of 
the child welfare population carry little weight or priority with state 
Medicaid directors.
    The solution to the ``child welfare funding problem'' involves two 
minor corrections in the Title IV-E program, increases in the Title IV-
B program, and the creation of a new Medicaid program. Regarding Title 
IV-E, two corrections should be made:

    1.  Federal reimbursement should be allowed for children placed 
with legal guardians (assisted guardianships); and
    2.  Eligibility for Title IV-E should be de-linked from 1996 AFDC 
eligibility standards, and shifted to annually-determined federal 
poverty standards, or other related measure for each state.

    The two recommended changes would update eligibility standards and 
add a proven-successful permanency option, while maintaining the 
categorical, and more importantly, the entitlement nature of the Title 
IV-E program.
    Of more significance to the overall well-being of children and 
families served through the child welfare system are changes in the 
federal Medicaid program. A separate sub-program of therapeutic and 
rehabilitative services specific to the states' custody population, or 
those at risk of custody due to abuse, neglect, dependency, or 
delinquency should be created within each state. Given the unique 
medical necessity of the children in this category, based on their 
uniquely poor chances of having positive long-term developmental, 
emotional and educational outcomes, this service program could be 
created within Medicaid under current federal law. However, because of 
child welfare's limited access/clout/priority with state Medicaid 
systems, because of child welfare administrators' limited understanding 
of federal Medicaid law, and because of state policy makers' overall 
attitude toward any growth in the Medicaid budget (even if growth in 
Medicaid saves state funds elsewhere), this has happened in only a few 
states.
    Under this proposal, the federal government would mandate that a 
child welfare therapeutic and rehabilitative services program be 
designed and defined by the Title IV-E single state agency, with input 
from the state Medicaid and behavioral health administrators. Public 
input from clients, providers, and advocates should be required and 
documented as well. The service array, the medical necessity criteria 
for each service, the provider qualifications for each service, the 
units of service, the rate setting process, the payment levels for each 
service, and the quality assurance and audit procedures would be 
determined and undertaken by the Title IV-E single state agency. All of 
these details would be submitted in an amendment to each state's 
Medicaid plan, and would become part of the each state's Title IV-B 
plan as well.
    Under this plan, child welfare administrators could be assured 
that:

    <bullet>  The Medicaid service array met the needs of their 
population, and included community-based, culturally-relevant, in-home 
therapeutic and rehabilitative services for children and families;
    <bullet>  Services were delivered by clinicians with expertise in 
abuse/neglect issues;
    <bullet>  Services would be reimbursed at levels adequate to 
attract qualified providers;
    <bullet>  Units of service were reasonable to require only 
appropriate levels of documentation;
    <bullet>  Audit procedures were designed to address problems and 
control fraud, rather than simply to reduce utilization through 
intimidation.

    For those who believe that the cost of such a program would be 
prohibitive, remember that non-federal matching funds in child welfare 
systems are always limited. In fact, there are a number of states in 
the south that do not fund all Title IV-E allowable services through 
Title IV-E because they do not have enough matching funds available, 
but the requirement for match is critical to their budget processes. 
Each state's child welfare therapeutic program would be geared toward 
its individual service needs. But growth in the non-federal match 
included in each agency's budget could be funneled into board and care 
(Title IV-E) or therapeutic services (Medicaid), both with federal 
reimbursement, depending on the need. The intent of this program is to 
allow states to use their non-federal matching funds to match either 
Medicaid or Title IV-E, thus providing federal reimbursement for 
therapeutic services to prevent placement, to expedite reunification, 
or to reduce the level of substitute care to a more homelike setting.
    Rather than use Title IV-E waiver funds to pay for Medicaid-
allowable services for Medicaid-eligible children, states would use 
Medicaid funds to pay for these services, and use non-federal match 
funds to match Medicaid rather than match Title IV-E. This step would 
free flexible federal funds and state/local funds to pay the cost of 
social services, and to pay for the cost of services for clients who 
are ineligible for Title IV-E or Medicaid.
    Title IV-B is the program intended to reimburse the cost of home-
based child welfare social services, and could be used to pay for 
services to prevent placement and expedite reunification for children 
and parents who are not eligible for Medicaid. But it cannot make a 
dent in meeting these needs at current funding levels and should be 
increase

Conclusions
    Title IV-E is not the problem with child welfare funding; lack of 
access to Medicaid services is the problem. If all of the federally 
Medicaid-allowable services for Medicaid-eligible clients currently 
funded by flexible but limited federal funds, or by 100 percent state/
local funds were shifted to Medicaid, flexible federal and state/local 
funds would become available within child welfare budgets to pay for 
the cost of social services, and for the cost of services for 
federally-ineligible clients. Furthermore, increases in federal 
spending in Medicaid due to this change would be controlled by the 
availability of non-federal matching funds. While states would increase 
their federal Medicaid revenues for the new child welfare services, 
they would decrease their federal Title IV-E revenues for the 
concomitant reduction in board and care costs. The overall bottom line 
spending for child welfare would only increase through the usual state/
local budget processes. Child welfare systems would be able to leverage 
federal funds to gain local match for badly-needed therapeutic and 
rehabilitative services, which, because of limited access to Medicaid 
services, are currently being supplemented through flexible federal and 
all-state/local funds.

                                 <F-dash>

       Statement of William Grimm, National Center for Youth Law,
                          Oakland, California

    Chairman Herger and other Distinguished Members of the Subcommittee 
on Human Resources: Thank you for consideration of our written 
testimony on Mental Health Services for the printed record of the 
Hearing to Examine Child Welfare Reform Proposals.
    Founded in 1970, The National Center for Youth Law (NCYL) is a non-
profit law center that through enforcement of federal and state laws 
seeks to improve the lives of low-income children. NCYL attorneys and 
support staff focus their work in four areas: safety and protection of 
abused and neglected children, economic security, health and mental 
health care, and juvenile justice. The Center has played a key role in 
expanding access to federally funded health care services and other 
public benefits for low-income children and families, addressing 
deficiencies in the foster care system, improving child support 
enforcement, and helping teenagers in the juvenile justice system. We 
also have extensive experience in conducting trainings, providing 
technical assistance, and publishing useful materials for foster 
parents, Court Appointed Special Advocates (CASAs), legal services and 
pro bono attorneys, and other child advocates.
    I am currently counsel in Braam v. State of Washington, a case 
challenging conditions for children and youth in foster care in the 
State of Washington. Multiple placements of children in foster care, 
the failure to provide mental health care to those children, and the 
failure to provide foster parents with adequate support services are 
some of the issues in Braam.
    During the last year we have analyzed many of the Final Reports and 
Program Improvement Plans completed as part of the federal Child and 
Family Services Reviews (CFSRs). Our published articles on the Reviews 
have included a critique of the process itself and detailed 
examinations of the findings on placement stability, preservation of 
sibling relationships, foster parent training, and foster parents' 
right to notice and opportunity to be heard.\1\ Our most recent article 
on the CFSRs examines findings on the provision of mental health 
services to child abuse victims and foster children by child welfare 
agencies.
---------------------------------------------------------------------------
    \1\ Bill Grimm & Isabelle Hurtubise, Child and Family Services 
Reviews: An Ongoing Series, Part I: A Background to the Review Process, 
Youth Law News, Jan.-Mar. 2003, at 1-11; Bill Grimm & Isabelle 
Hurtubise, Child and Family Services Reviews: An Ongoing Series, Part 
II: An Examination of Placement and Visitation, Youth Law News, Jan.-
Mar. 2003, at 14-30; Bill Grimm, Child & Family Services Reviews: Part 
III in a Series, Foster Parent Training: What the CFS Reviews Do and 
Don't Tell Us, Youth Law News, Apr.-Jun. 2003. For copies of our 
quarterly journal Youth Law News, please contact the National Center 
for Youth Law at 510-835-8098 or visit our website at www.youthlaw.org.
---------------------------------------------------------------------------
    The data provided by the Final Reports of the CFSRs lays bare the 
abysmal performance of state agencies in ensuring that children who are 
at risk of being removed from their homes and children placed out-of-
home receive appropriate mental health care to address the exceptional 
psychological and behavioral problems these children experience. The 
severe scarcity of mental health services results in turbulence and 
uncertainty that has lasting consequences, for which children and 
families pay the price.

      Deficient Mental Health Services: A Long Documented Concern

    For the most part, the information provided by the CFSRs is not new 
or unprecedented. Problems highlighted by the Final Reports echo 
concerns long documented in research literature and other published 
materials. Without exception, studies of the health status of children 
in care identify the pervasive presence of emotional disorders as the 
most serious unmet health problem.\2\ Several studies indicate that 
between 50 and 80 percent of children in foster care suffer from 
moderate to severe mental health problems, including socio-emotional, 
behavioral, and psychiatric problems warranting treatment.\3\ The 
National Survey of Child and Adolescent Well-Being (NSCAW) recently 
indicated that nearly half of foster children have a clinical level of 
behavioral and emotional problems: 47 percent of children ages 6 to 11, 
and 40 percent of children ages 12 to 14.\4\
---------------------------------------------------------------------------
    \2\ Child Welfare League of America, Standards For Health Care 
Service for Children in Out-of-Home Care, Child Welfare League of 
America, Washington DC (1988). at 2.
    \3\ DosReis, Zito, Safer, & Soeken, Mental Health Services for 
Youths in Foster Care and Disabled Youths. American Journal of Public 
Health. 91(7): 1094-99 (2001).
    \4\ The National Survey of Child and Adolescent Well-Being (NSCAW) 
is a longitudinal survey that collected information about a large 
number of children under age 15 who have had contact with child welfare 
services, including 1,279 children living in foster care homes in 2000.
---------------------------------------------------------------------------
    The higher prevalence of mental health problems among children in 
the child welfare system is the result of experiences and trauma 
associated with high-risk and often dysfunctional family settings, 
acute reactions to the trauma of being placed in foster care, and 
separation from the biological parent. While many of these problems 
likely have their roots in the underlying abuse or neglect that led a 
child into foster care in the first place, long and uncertain periods 
in foster care exacerbate poor outcomes.\5\ Emotional problems may 
endanger successful placements, contribute to multiple placements, and 
place demands on the mental health system for services that are often 
not available.\6\
---------------------------------------------------------------------------
    \5\ Barbell & Freundlich, Foster Care Today. Casey Family Programs: 
Washington DC, 2001.
    \6\ CWLA Standards of Excellence for Health Care Services for 
Children in Out-of-Home Care (1998) at 2.
---------------------------------------------------------------------------
    Nevertheless, even with documented high rates of mental health 
problems, it has been estimated that only about 25 percent of children 
in foster care are receiving mental health services at any given 
time.\7\ The use of evidence-based treatments for foster children is 
very low, and the dominant focus of treatment is on sexual abuse and 
somewhat on physical abuse.\8\ In spite of the clear evidence that the 
long-term effects of neglect are equally damaging, there is very little 
attention given to this issue. Data show that children with a history 
of sexual abuse are three times more likely to receive mental health 
services, while children with a history of neglect are only half as 
likely to receive treatment.\9\ African-American and Hispanic children 
are least likely to receive services, and they typically need to 
display more pathology to be referred to mental health services.\10\
---------------------------------------------------------------------------
    \7\ Halfon N, Berkowitz G, Klee L, Mental Health Service 
Utilization by Children in Foster Care in California. Pediatrics. 89 (6 
Pt 2): 1238-44 (1992).
    \8\ John Landsverk, Ph.D., Children's Hospital San Diego, 
Proceedings based on the Surgeon General's Conference on Children's 
Mental Health: Developing a National Action Agenda (September 18-19, 
2000).
    \9\ Id.
    \10\ Id.
---------------------------------------------------------------------------
    In many cases, the lack of appropriate community mental health care 
leads to high use of emergency and hospital care or unnecessary costs 
to other systems. Children who need mental health treatment are not 
getting it early enough to prevent a host of adverse outcomes. When a 
child's behavioral and psychological problems go untreated, his/her 
prospects of attaining a safe, stable, and permanent home progressively 
diminish.

       Children Receiving In-Home Services Least Likely to Obtain

                        Mental Health Treatment

    Failure of state and county child welfare agencies to meet the 
psychological and behavioral treatment needs of child abuse and neglect 
victims was a recurrent conclusion of the CFSRs. Through on-site case 
reviews, comprised of reading case files and interviewing children and 
families engaged in services, reviewers were to determine whether the 
mental health needs of children had been met. A meager four out of the 
48 states for which final reports are publicly available achieved an 
overall rating of strength in addressing mental health of the 
child.\11\ For the majority of states, representing a staggering 91% of 
child welfare agencies, mental health services were rated as an area 
needing improvement.\12\
---------------------------------------------------------------------------
    \11\ Delaware Final Report at 45, Iowa Final Report at 51, Kansas 
Final Report at 38, Utah Final Report at 42. Final Reports are 
available at http://www.acf.hhs.gov/programs/cb/cwrp/index.htm (last 
visited July 23, 2004).
    \12\ Id.
---------------------------------------------------------------------------
    In examining whether a child's mental health needs were met, 
reviewers analyzed whether (1) mental health needs had been 
appropriately addressed, and (2) appropriate services to address those 
needs had been offered or provided. Reviewers rated mental health a 
strength when they determined that the child's mental health needs were 
significantly or partially assessed and mental health needs were 
significantly addressed. When the agency failed to assess or address 
the child's psychological or behavioral needs, mental health was rated 
as an area needing improvement.
    Our analysis of the CFSRs revealed that children at risk of removal 
who are receiving in-home services are considerably less likely than 
foster children to receive adequate psychological and behavioral 
treatment for their mental health needs. Taking the state reports 
together as a whole, mental health was rated a strength in 77.6 percent 
of foster care cases compared to 62.8 percent of in-home service 
cases.\13\ In many states, the discrepancy between foster care and in-
home cases is even more striking than this figure suggests. In New 
Jersey, for example, federal reviewers determined that the agency met 
the mental health needs of the child in 76 percent of foster care cases 
compared to 26 percent of in-home cases.\14\ Similarly, California's 
Final Report included a ``key finding'' that the agency ``did not pay 
sufficient attention to mental health needs of children in in-home 
cases.''\15\ Numerous Final Reports included comments from stakeholders 
voicing concern over critical deficiencies or barriers in accessing 
appropriate treatment for mentally ill children who were residing at 
home with their biological families.\16\
---------------------------------------------------------------------------
    \13\ These figures are calculated from data on the 48 states for 
which final reports are publicly available as of July 23, 2004. 15 
states do not provide information by case-type, preventing comparison 
between in-home and foster care cases, including those for Arkansas, 
Delaware, District of Columbia, Florida, Indiana, Kansas, 
Massachusetts, Minnesota, New Mexico, New York, North Carolina, North 
Dakota, Oregon, Texas, and Vermont.
    \14\ New Jersey Final Report at 73. See also Utah Final Report at 
43 (``The item was rated as a strength in 97 percent of foster care 
cases compared to 60 percent of in-home cases''); Washington Final 
Report at 46 (``The item was rated as a strength in 82 percent of the 
foster care cases compared to 45 percent of the in-home service 
cases.).
    \15\ California Final Report at 58.
    \16\ Alaska Final Report at 71-2; Arkansas Final Report at 39-41; 
District of Columbia Final Report at 55; Georgia Final Report at 33; 
Hawaii Final Report at 55-7; Louisiana Final Report at 59; North 
Carolina Final Report at 30; Oklahoma Final Report at 73; South 
Carolina Report at 58; South Dakota Final Report at 3; Washington Final 
Report at 46; Wyoming Final Report at 52.
---------------------------------------------------------------------------
    In other hearings before this subcommittee witnesses have expressed 
concerns about the amount of federal funds available for foster care in 
comparison to the much smaller amount for preventive services to 
families. When children who remain at home do not receive needed mental 
health services, their risk of entering the child welfare, mental 
health or juvenile justice systems increases substantially. A child 
welfare caseworker may encourage a family to voluntarily give up 
custody of their child in order to obtain state-funded services that 
are not available without the parent surrendering custody to a 
government agency. Services to treat severe mental health disorders are 
extremely expensive and private insurance tends to run out after a few 
months. Affected children are often ineligible for Medicaid because 
income or assets keep them ineligible. The US General Accounting Office 
(GAO) documented that in the fiscal year 2001 alone, approximately 
3,700 children were placed into child welfare systems so they could 
access mental health services.\17\ Moreover, this estimate is 
considered low because 31 states did not respond to the survey. 
Increasing numbers of children with mental or emotional disorders are 
unnecessarily and inappropriately dumped into the child welfare system. 
This system is not well suited or equipped to deliver the kinds of 
services these children need.
---------------------------------------------------------------------------
    \17\ General Accounting Office Report, Child Welfare and Juvenile 
Justice: Federal Agencies Could Play a Stronger Role in Helping States 
Reduce the Number of Children Placed Solely to Obtain Mental Health 
Services, GAO-03-397, April 2003.
---------------------------------------------------------------------------
    Nevertheless, the custody relinquishment tragedy is a symptom of a 
much broader problem. The separation of children from their families, 
whether voluntary or involuntary, that occurs when we fail to provide 
mental health services almost always carries with it a host of negative 
outcomes. What is more, entering the foster care system does not ensure 
that appropriate mental health services will be provided to a child in 
need.

    Foster Children with Mental Health Needs Face Community Neglect

    Once children are placed in foster care, the trauma of separation 
from their families and the experience of multiple moves can increase 
their vulnerability and compound their mental health problems. As 
demonstrated by the CFSR findings in mental health, children in out-of-
home care frequently do not receive appropriate and individualized 
mental health treatment. Mental health was rated as an area needing 
improvement in 22.4 % of foster care cases.\18\ This figure suggests 
that approximately one in four foster children are never assessed for 
mental health needs and/or never provided with appropriate mental 
health services to address their needs. When this statistic is 
considered alongside information on state policies and practices, 
caseworker anecdotes, and stakeholders' concerns over service gaps 
discussed in the final reports, a dismal picture of the provision of 
mental health services to children in foster care emerges.
---------------------------------------------------------------------------
    \18\ See supra, note 13.
---------------------------------------------------------------------------
    Furthermore, our discovery in Braam v. State of Washington 
uncovered that child welfare agencies often purchase mental health 
services for which there is little evidence of effectiveness. Much 
money, including federal Medicaid and Title IV-E dollars, is spent on 
these services. Meanwhile, many states fail to provide services that 
have a proven success addressing mental health and behavior needs of 
children. A recent report of the Washington State Institute for Public 
Policy provides an overview of many such services.\19\
---------------------------------------------------------------------------
    \19\ Steve Aos, Roxanne Lieb, Jim Mayfield, Marna Miller, Annie 
Pennucci. Benefits and Costs of Prevention and Early Intervention 
Programs for Youth (July. 2004)
---------------------------------------------------------------------------
    While all children are dependent on others for their care and well-
being, children who are taken into the custody of the state are 
uniquely dependant upon government agencies. More than 15 years ago, 
the Child Welfare League of America (CWLA) issued standards for the 
provision of mental health services for children in foster care.\20\ 
These were followed by similar standards put forward by the American 
Academy of Pediatrics (AAP) in 1994 that were re-affirmed in 2002.\21\ 
Similar recommendations on the delivery of mental health services for 
children in foster care were made by the American Academy of Child and 
Adolescent Psychiatry (AACAP).\22\ The CWLA, AAP, and AACAP recommend 
that all children should receive a mental health screening when placed 
in foster care and receive a comprehensive mental health assessment by 
a mental health professional as part of a comprehensive evaluation 
within a month of being placed in foster care. The standards also 
emphasize the need for a systematic, coordinated approach to the 
delivery of services to meet children's ongoing mental health needs. A 
report of the Surgeon General's Conference on Children's Mental Health 
corroborates these recommendations by suggesting that all children 
entering care should receive comprehensive mental health assessments 
and that public funding streams should be expanded to improve the use 
of evidence-based treatment.\23\
---------------------------------------------------------------------------
    \20\ Child Welfare League of America, Standards For Health Care 
Service for Children in Out-of-Home Care, Child Welfare League of 
America, Washington DC (1988).
    \21\ American Academy of Pediatrics (AAP) Committee on Early 
Childhood, Adoption and Dependent Care. Health Care of Children in 
Foster Care. Pediatrics 93:335-338 (1994); AAP Committee on Early 
Childhood, Adoption and Dependent Care. Health Care Needs of Young 
Children in Foster Care, Pediatrics 109:536-541 (2002).
    \22\ American Academy of Child and Adolescent Psychiatry (AACAP) 
Policy Statement Psychiatric Care of Children in the Foster Care 
System, available at http://www.aacap,org/publications/policy/ps445htm 
(2001).
    \23\ John Landsverk, Ph.D, Children's Hospital San Diego, 
Proceedings based on the Surgeon General's Conference on Children's 
Mental Health: Developing a National Action Agenda (September 18-19, 
2000).
---------------------------------------------------------------------------
    The CFSR findings suggest that many states are falling far short of 
meeting these standards. For example, a few states appear to have no 
statewide policy for conducting any form of mental health screening for 
children entering out-of-home care.\24\ For example, while Iowa was one 
of the four states rated as achieving ``strength'' in meeting the 
mental health needs of the child, there are no guidelines for 
identifying mental health needs for children who may require mental 
health treatment.\25\ Instead, a caseworker ``may issue'' temporary 
orders for treatment or evaluation.\26\ Most state policies appear to 
rely on a child's caseworker to identify mental health problems 
warranting treatment.\27\ The widespread endorsement of this approach 
is troubling given that caseworkers are unlikely to have expertise in 
identifying children's mental health issues. The Colorado Final Report 
featured a child who entered foster care and received no mental health 
assessment because the caseworker indicated that there were no needs. 
However, reviewers who studied the case noted that the child had been 
exposed to domestic violence and substance abuse by the mother, had 
separation issues with the father and mother, and had, at one time, 
been kidnapped by relatives while walking home from school.\28\ This 
history suggests that a mental health evaluation by a professional is 
warranted. In some states, Alabama and California, for example, the 
agency provides specialized training for workers to enhance their 
ability to identify a child's underlying issues.\29\ Nevertheless, the 
reliance on a caseworker to pick up on a child's behavioral and 
emotional issues during short, infrequent meetings may explain why many 
foster children's mental health issues go undocumented or untreated.
---------------------------------------------------------------------------
    \24\ Idaho Final Report at 48 (``There is no requirement for a 
mental health assessment of children in foster care.''); Iowa Final 
Report at 51; Michigan Final Report at 59-60.
    \25\ Iowa Final Report at 51.
    \26\ Iowa Code Anon. 232.98: Physical & Mental Evaluations.
    \27\ See, e.g., Alabama Final Report at 54; Alaska Final Report at 
55; California Final Report at 57; Colorado Final Report at 48; 
Delaware Final Report; Massachusetts Final Report at 27; Montana Final 
Report at 55; Missouri Final Report; Missouri Child Welfare Manual, 
Section 4.4.3.1: Child Assessment Guideline; New Mexico Final Report at 
47; New Jersey Final Report at 74; Pennsylvania Final Report at 59.
    \28\ Colorado Final Report at 48.
    \29\ Alabama Final Report at 54; California Statewide Assessment at 
191 (June 18, 2002).
---------------------------------------------------------------------------
    Even if a child is properly identified as having behavioral or 
psychological issues warranting treatment, lack of follow-up appears to 
be a widespread and pervasive problem.\30\ For example, a case reviewed 
in the District of Columbia featured a child who was professionally 
diagnosed with post-traumatic stress syndrome, yet who received no 
mental health services or follow-up whatsoever.\31\ The root cause of 
this common problem may be that children with mental health issues are 
typically involved with both mental health and child welfare agencies. 
The roles and responsibilities of these agencies are rarely clearly 
defined, which makes it difficult for foster parents, caseworkers, and 
therapists to navigate the systems.
---------------------------------------------------------------------------
    \30\ See, e.g., Arizona Final Report at 41; Arkansas Final Report 
at 40; Georgia Final Report at 33; Illinois Final Report at 35.
    \31\ District of Columbia Final Report at 56.
---------------------------------------------------------------------------
    Another frequently mentioned problem was a lack of individualized 
mental health services. The treatment of children with behavioral or 
psychological issues appears to be frequently driven by what is readily 
available rather than what is appropriate. Numerous Final Reports 
described case plans as ``boiler plate,'' ``cookie cutter,'' or 
``generic.''\32\ The Final Reports revealed severe service gaps in the 
following areas: lack of therapeutic foster homes for children with 
serious emotional and behavioral issues, long waiting lists for mental 
health services that can take up to nine months, a need for more 
psychologists and psychiatrists, high turnover in Medicaid-funded 
therapists and counselors, lack of culturally appropriate services, 
absence of services in rural areas or prohibitively high transportation 
costs, lack of substance abuse services for adolescents, and a lack of 
high-end services for seriously emotionally disturbed children.
---------------------------------------------------------------------------
    \32\ See, e.g., Arkansas Final Report at 67; Hawaii Final Report at 
75; Iowa Final Report at 71.
---------------------------------------------------------------------------
    The Adoption and Safe Families Act (ASFA) of 1997\33\ established 
the goals of safety, permanency, and well-being for all children 
involved with child welfare agencies. This Act, and parallel child 
welfare reforms in many states and local communities, have increased 
the pressure on child welfare agencies to achieve permanency for 
children more quickly and to be held accountable for better outcomes 
for children and their families. But more remains to be done. Our 
analysis of the CFSR findings on mental health services provide some 
important lessons for Congress.
---------------------------------------------------------------------------
    \33\ Public Law 105-89.
---------------------------------------------------------------------------
1.  The Federal Child Welfare Reviews Should Guide Federal Child 
        Welfare Reform
    On May 13, 2004 the Subcommittee on Human Resources held its 
hearing on state efforts to comply with the CFSRs. Wade Horn, Assistant 
Secretary for Children and Families, Department of Health and Human 
Services, testified briefly, emphasizing the critical role the Federal 
Review process plays in engaging states in assessing the quality of 
their child welfare systems and in undertaking the process of 
improvement. While this Committee has heard from the Pew Commission and 
state child welfare administrators, we believe that the importance of 
the CFSR data has been largely overlooked in driving federal reform 
efforts.
    The CFSRs represent a huge undertaking with the potential to become 
one of the most important initiatives embarked upon to improve child 
welfare services across the nation. The Reviews contain a wealth of 
information on all areas of child welfare services, from child 
protection and family preservation, to foster care, family 
reunification and adoption services. The Reviews examine caseworker 
practice in the field, review the state agency's capacity to serve 
children and families effectively, and assess the relationships between 
state agencies serving the child welfare population.
    Congress should rigorously examine the CFSR findings and draw upon 
this information in order to create federal programs or reforms that 
will address the most widespread and pervasive problems facing our 
nation's most vulnerable population.
2.  Congress Should Create Incentives to Encourage Greater Coordination 
        Between Child Welfare and Mental Health Service Agencies
    Whether we focus our attention on the provision of in-home or out-
of-home services, obtaining mental health services frequently requires 
interaction with multiple state agencies, which results in the creation 
of unique challenges. Many of the programs and systems that serve 
families have their own eligibility criteria, regulations, and case 
tracking and management systems, including Medicaid, mental health, and 
substance abuse programs. This means that children and families 
involved in multiple systems typically have many caseworkers, 
therapists, and psychologists or psychiatrists who may not be in 
communication with one another.
    What's more, the roles and responsibilities of agencies are not 
clearly delineated, resulting in inter-agency disputes that can delay 
or deny services to children and families. Fiscal constraints can lead 
families to seek services from agencies that are not suited to meet 
their children's needs, but might have funding available. Many final 
reports included comments from stakeholders voicing concern over the 
lack of coordination between child welfare and mental health 
agencies.\34\ In describing the lack of integration and coordination 
between child welfare and mental health agencies, stakeholders 
frequently used such words as ``barriers,'' ``gate-keeping,'' 
``conflict,'' and ``logjam.''\35\
---------------------------------------------------------------------------
    \34\ See, e.g., Alabama Final Report at 74; Colorado Final Report 
at 65; District of Columbia Final Report at 73; Georgia Final Report at 
50; Florida Final Report at 60; Iowa Final Report at 71.
    \35\ Id.
---------------------------------------------------------------------------
    Assuring child well-being requires more coordination across 
publicly-financed systems. One way Congress could address this problem 
is to give priority to Title IV-E waiver demonstration projects that 
encourage or facilitate coordination between agencies. Collaboration 
between mental health and child welfare agencies at a system level can 
be done in a variety of ways, including co-location of staff, sharing 
of financial resources, cross-system training, designation of special 
liaisons, interagency collaboration teams, and interagency agreements.
3.  Congress Should Enact The Keeping Families Together Act to Improve 
        Access to Children's Mental Health Services
    Pending before Congress is the Keeping Families Together Act,\36\ 
which would address, in part, the scarcity of available in-home mental 
health services discussed above. This proposed legislation represents 
an important step toward meeting the needs of these children and 
promotes an alternative to the closed doors and fragmented systems that 
parents and caseworkers face when they seek help for children.
---------------------------------------------------------------------------
    \36\ H.R. 3242, 108th Cong. (2003); S. 1704, 108th Cong. (2003).
---------------------------------------------------------------------------
    The bill would increase the availability of home and community-
based services and give states an incentive to continue to support such 
services. New York, Vermont and Kansas, for example, have all improved 
outcomes and reduced costs in their child mental health systems since 
adopting a Medicaid waiver that helps fund home and community-based 
services for children with mental health needs. By promoting a 
coordinated system of care, this bill also recognizes the critical need 
to address fragmentation between the various agencies responsible for 
serving children, including education, mental health, juvenile justice, 
and child welfare. Collaboration between federal, state, and local 
agencies is absolutely essential to getting children the services they 
need. We encourage Congress to move towards enactment of this important 
legislation.
    We appreciate this opportunity to share our findings and 
recommendations with the Subcommittee.

                                 <F-dash>

Statement of Terry L. Cross, National Indian Child Welfare Association, 
                            Portland, Oregon

    The National Indian Child Welfare Association submits this 
statement on current proposals to reform federal child welfare 
financing and the potential impacts upon Indian children, families, and 
tribal governments. Attached is a brief description of our organization 
and our work.
    We are pleased that the subcommittee is studying ways to improve 
services and financing of child welfare services for this nation's 
children and families. Our constituency, American Indian and Alaska 
Native tribal governments and their children and families, have not 
always benefited from the federal government's programs in child 
welfare and we are glad that the subcommittee is taking steps to make 
sure any new proposals reach this very vulnerable population. Your 
proposal, as well as the Pew Commission's recommendations, acknowledges 
the great injustice done to Indian children by proposing that tribal 
governments be able to provide the services and protections of the 
Foster Care and Adoption Assistance Act to the children under their 
jurisdiction.
    Representative Frenzel, in his testimony before this subcommittee 
last week said that the Pew Commission began and ended every meeting by 
judging their work to see if it met the goal of every child having a 
safe, permanent home. Chairman Herger has asked the public to make 
recommendations on child welfare legislation that is premised on the 
goal of doing more to protect our children. If one truly takes these 
principles to heart, then you must make real efforts with regard to 
tribal governments and the children under their jurisdiction. 
Legislation to accomplish this must take into account the sovereign 
nature of tribal governments, the fact that they have not been able to 
access the Title IV-E Foster Care and Adoption Assistance programs (nor 
the Title XX Social Services Block Grant nor, until very recently, the 
Title IV-D child Support Enforcement program) and their economic and 
cultural circumstances.

Background
    The subcommittee's draft proposal would change the requirements and 
funding system for the Title IV-E and IV-B programs. We understand and 
support the need to make changes to improve services leading to 
improved outcomes for children. Indian children have been and continue 
to be disproportionately represented in state foster care systems. 
Where improvements have occurred, tribes were always critical players 
in providing services or identifying permanent placements. The primary 
barrier to Indian children receiving more timely and lasting 
permanency, in our view, has been the lack of funding and opportunities 
to serve their children and families living on tribal lands and provide 
resources and expertise to states that have Indian children and 
families in their jurisdiction. Where tribal governments have been 
empowered through funding and opportunities to serve their members, 
Indian children have faired better (Red Horse, Martinez, & Day, 2001). 
Below we have provided a brief description of tribal access to Title 
IV-E and Title IV-B.
    Title IV-E serves very few American Indian or Alaska Native 
children living on tribal lands, because of a statutory oversight that 
only allowed tribal governments to access the program if they could 
develop an agreement with the state they reside in. These tribal/state 
agreements are not mandated and both states and tribes have experienced 
difficulty in trying to develop agreements (U.S. Department of Health 
and Human Services, Office of Inspector General, 1994 and Brown, Limb, 
Munoz, R., and Clifford, 2000). This has resulted in American Indian 
and Alaska Native children being ineligible for a federal entitlement 
that all other children are guaranteed. Currently, there are only about 
70 tribes that have agreements with states on Title IV-E, and some of 
these agreements do not provide access to all program components 
(administration, training, and maintenance funds).
    Under Title IV-B, tribal governments are eligible for direct 
funding. However, the amounts and number of tribes eligible to apply 
are very small. Title IV-B, Subpart 1, Child Welfare Services is 
formula driven based upon the number of children under age 21. This 
formula is expected to allocate $5.2 million in FY 2004 for tribal 
governments, with 477 of the 560 eligible tribal governments receiving 
less than a $10,000 grant. Half of the 477 tribal grantees will receive 
a grant of less than $5,000. Under Title IV-B, Subpart 2, Promoting 
Safe and Stable Families, the statute contains a formula that 
determines tribal allocations and eligibility. To be eligible to 
receive funding a tribal government must receive a grant of $10,000 or 
more under the formula. In FY 2004, this provides eligibility to 
approximately 66 tribes to share in $5.05 million (1% of the mandatory 
funding = $3.05 million and 2% of the discretionary funding = $2.0 
million).
    While tribal child welfare funding from federal and state sources 
has been limited in most cases, tribal governments have made 
exceptional strides in developing services that are responsive to their 
communities and reforming service delivery systems when needed. The use 
of volunteers, leveraging multiple funding sources, and developing 
partnerships with other private and public entities are nothing new to 
tribal governments and share a common thread with the values that we 
see forming the foundation of reforms now being considered. Other 
supporting services for children, such as mental health, are also being 
reviewed and new approaches are being developed to serve American 
Indian and Alaska Native children. These efforts are increasing 
coordination between service providers in many child related service 
arenas and utilizing the strengths of families and community more 
effectively to deliver treatment in less restrictive settings and with 
greater impact (Cross, Earle, Echo-Hawk Solie, and Manness, 2000).

Financing Child Welfare
    As we indicated earlier, we view the subcommittee's efforts to 
reform federal child welfare financing as an important goal. How 
American Indian and Alaska Native children and the tribal governments 
that serve them fit into these efforts is a discussion that is 
important to continue and is acknowledged in the subcommittee's draft 
proposal by making tribal governments eligible. In addition, 
Congressman Camp has demonstrated his support for helping tribal 
governments secure Title IV-E funding by co-sponsoring H.R. 443, 
legislation under the subcommittee's jurisdiction that makes tribal 
governments eligible to apply for and administer the existing Title IV-
E foster care and adoption assistance program. The President's flexible 
funding proposal also acknowledges the need to include tribal 
governments in any funding reform too, as does the Pew Commission 
Report. Some of these proposals need improvement, and we have shared 
our comments to that end with the subcommittee both in writing and in 
meetings with staff.
    Given that tribal governments have not been afforded the 
opportunity to operate the Title IV-E program and therefore have not 
been able to establish historical data on their needs or trends in 
relation to foster care and adoption assistance, our first choice would 
be the enactment of H.R. 443. Providing tribes with an opportunity to 
operate the current foster care entitlement program, which by a 
Congressional Budget Office score reaches only $54 million at it's 
peak, will ensure that future reform efforts will have data and are 
well informed and that American Indian and Alaska Native children are 
not unintentionally left without foster care support in the immediate 
future, as is now the case. We are heartened that the subcommittee did 
review H.R. 443 and incorporated some of its provisions in their draft 
proposal.
    Should Congress decide to cap the appropriations for the foster 
care program and/or make changes similar to the subcommittee's 
proposal, we have the following comments, recommendations, and 
questions.
    Adoption Assistance. We appreciate that the subcommittee's draft 
proposal keeps the Title IV-E Adoption Assistance program as an open-
ended entitlement and that tribes will be eligible to administer those 
funds. Adoption practice in Indian Country has been evolving, even 
without federal funds, to incorporate support for customary adoption 
practices and policies. The National Indian Child Welfare Association 
has been at the forefront of promoting this evolving practice and now 
has a manual with a model code that is being used in many tribal 
communities. Customary adoption is helping improve support for adoption 
in Indian Country and increasing the number of permanent placement 
options for American Indian and Alaska Native children.
    Foster Care Maintenance. We are supportive of the provisions under 
the proposal that would make tribal governments eligible to receive 
funding under this program, including tribal consortium and the 
development of agreements with states. As stated above, however, we 
feel strongly that the best policy is to keep the foster care 
maintenance program as an open-ended entitlement, especially in light 
of the bill eliminating the income requirement for the program. We also 
support the waiver authority for the Secretary of DHHS with regards to 
program requirements and data reporting. These provisions acknowledge 
the unique circumstances of tribal communities and service delivery 
systems while still protecting children and yielding important data. We 
also see that the proposal provides that a tribe that elects to operate 
this program must do so in the same manner as a state. Our 
understanding of this draft is that tribes will be developing their own 
codes and standards consistent with Title IV-E and IV-B. We agree with 
this approach, and many tribes have already developed codes, program 
policies, and foster care standards of this nature, which makes us 
confident that other tribes will also be able to do this. This approach 
will ensure that tribal codes and standards reflect tribal realities 
and help improve protections and outcomes for Indian children.
    The subcommittee proposes that tribes would be eligible to receive 
0.9% of the overall appropriation, which starts in year one at 
approximately $16.2 million. As stated earlier, the Congressional 
Budget Office score for H.R. 443 reaches $54 million at its peak after 
ten years. This considers full implementation of the program 
(maintenance, administration, and training) with an increase in the 
number of tribes coming into the program over several years. The 
subcommittee proposal only includes foster care maintenance funding, 
which currently makes up about 50% of the federal Title IV-E foster 
care dollar. Using these numbers and the available data that show 
Indian children are over-represented in the foster care system, it 
makes sense to increase the reserved amount to 2% of the overall 
appropriation for tribes. This would ease fears that the tribal 
children in different tribal areas would be left without any foster 
care support and that tribes would have to drain off other child 
welfare funds that could be used to prevent children from entering the 
foster care system in the first place.
    The rollover provision in the Foster Care Maintenance section is 
another important provision for tribal governments, especially 
considering their lack of access to foster care funding historically. 
Being able to roll over funding would be very helpful as tribes work to 
fine tune their services and establish a foundation in foster care 
services.
    Subsidized Guardianship and Child Welfare Waivers. The subcommittee 
has addressed subsidized guardianships by expanding the state waivers 
program. Tribes view guardianship as an important permanency option, as 
do many states that are currently supporting guardianship through state 
funds or have waivers targeting this permanency option. Unfortunately, 
tribes do not have funding to support guardianship and are not eligible 
to apply for waivers. Efforts to include tribes in state waiver 
projects have been very difficult and unsuccessful in most cases. We 
recommend that you consider support for guardianships in a manner 
similar to how the Pew Commission has recommended. If this is not 
possible, we would recommend that you make tribal governments eligible 
for the federal waiver program.
    Match Requirements. With regard to the federal match requirements, 
we are in support of the subcommittee's proposal to develop tribal 
medical assistant rates used in calculating the federal and tribal 
match rates for the foster care maintenance and adoption assistance 
programs. H.R. 443 included additional language that would have 
provided the Secretary of DHHS with authority to modify match rates for 
IV-E administration and training to take into consideration the extreme 
poverty that exists for most tribes and contributes to an inability to 
generate significant general revenues. Language in H.R. 443 would also 
allow tribes to utilize other related federal and state funding to 
satisfy their match, which is commonly done with other federal 
programs. This provision also considers the economic conditions of most 
tribes by recognizing that the only tribal income they may have comes 
from federal or state sources. Allowing federal and state sources for 
tribal match can also be done without supplanting funds. The 
subcommittee's proposal reduces the federal match for the Foster Care 
Maintenance, Adoption Assistance, Safe Children, Strong Families 
program and Foster Care Crisis program under their proposal, which 
could have the effect of dramatically reducing the number of tribal 
applicants. Our recommendation would be to include the provisions under 
H.R. 443, mentioned above, and not to subject tribes to the reductions 
in federal match in the programs related to this in the proposal.
    Safe Children, Strong Families Program. We are pleased that you 
included tribes as eligible for this program in the subcommittee's 
proposal. As you know, tribal governments have been eligible for both 
of the Title IV-B programs (see description of tribal access in 
Background section). We like the flexibility that states and tribal 
governments are given to use this funding and the purposes for the 
grant program. We also like the waiver authority you have provided the 
Secretary of DHHS to examine plan requirements and determine if they 
are appropriate for tribal application and the ability of the Secretary 
to use a broader source of data to calculate the number of children in 
a tribe for determining funding allocations.
    The subcommittee proposal would reserve for tribes up to 0.45% of 
the overall appropriation from the mandatory funding and 0.5% of the 
discretionary funding. In year one this would amount to approximately 
$17.5 million in mandatory funding and $2.6 million in discretionary 
funding. Under the current Title IV-B, Subpart 1 program, tribes 
receive approximately 1.75% of the overall appropriation. Under the 
current Title IV-B, Subpart 2 program, tribes receive 1% of the 
mandatory funding and 2% of the discretionary funding. To bring tribal 
programs up to the same level in service capacity that states are, we 
would recommend that the Safe Children, Strong Families grant program 
increase the amounts reserved for tribes to 1.5% for both the mandatory 
and discretionary programs. This would also be consistent with the need 
of tribal children for these services based upon the disproportionate 
number of these children in care and the minimal level of access tribal 
governments have had to these programs.
    We are, however, very concerned about the bill's required 32% match 
rate for tribes and know it would effectively eliminate many, many 
tribes from applying for this program. The 2000 Census reports a 25.7% 
poverty rate nationally for Indians and Alaska Natives, and, of course, 
in some reservation areas, the poverty rate is much higher than that.
    Foster Care Crisis and Challenge Grants. We support the concept of 
providing a contingency fund for states that have unexpected and 
unpreventable increases in foster care placements. Because of the 
variability of factors that can contribute to a spike in foster care 
placements, it is essential that there is a protective net to help 
vulnerable children. We noticed that tribes are not included in the 
Foster Care Crisis funding program and would recommend that you also 
make them eligible. We would also recommend making tribes eligible for 
the Challenge Grants authorized in this proposal. The draft bill should 
be amended to allow tribal governments to share in the rewards and 
incentives for improving outcomes for Indian children in the child 
welfare system in the same way that states are.
    Regulations. H.R. 443 includes a provision that would ensure that 
DHHS consults with tribes and tribal organizations in the development 
of regulations. We did not see this language in the subcommittee's 
draft but think it would be a valuable addition.
    Definition of Tribe, Tribal Organization, and Reservation. The 
definition of tribes in the subcommittee's proposal only includes 
tribes with a reservation and Alaska Native tribes. This should be 
modified, because tribes can exercise authority over non-reservation 
children, particularly through transfers from state court under current 
federal law and because tribes without a land base sometimes can join 
in consortia with tribes with a land base to provide services to their 
children. In addition, tribes without a land base have entered into 
agreements with states to define services and jurisdiction that have 
served Indian children, tribes, and states very well and this 
definition would create conflicts for those states and tribes. The best 
way to address this issue is to use the application process where a 
tribe includes information about its service area (federally 
designated) and not by excluding them from the definition itself.
    If a reservation requirement is to be included, we recommend doing 
it outside the definition of tribe and defining reservation using the 
standardized definition within the Indian Child Welfare Act. The ICWA 
definition is:
    Reservation is defined in ICWA as Indian Country as defined in 18 
U.S.C. 1151 (that definition defines Indian Country as ``(a) all land 
within the limits of any Indian reservation under the jurisdiction of 
the United States government, notwithstanding the issuance of any 
patent, and including rights-of-way running through the reservation, 
(b) all dependent Indian communities within the borders of the United 
States whether within the original or subsequently acquired territory 
thereof, and whether within or without the limits of a state, and (c) 
all Indian allotments, the Indian titles of which have not been 
extinguished, including rights-of-way running through the same) and any 
lands, not covered under such section, title to which is either held by 
the United States in trust for the benefit of any Indian tribe or 
individual or held by any Indian tribe or individual subject to a 
restriction by the United States against alienation.
    If this approach is taken, however, we would recommend including 
the former reservations' in Oklahoma language currently in the draft 
bill in addition to the Indian Child Welfare Act definition.

Court Oversight
    We are glad that you acknowledge the critical role of court systems 
in ensuring permanency for children. In Indian Country, tribal juvenile 
courts also have an important role and are constantly working to 
improve their processes and outcomes even with little federal support. 
The court improvement projects that have been supported by Title IV-B 
funds have been very beneficial to states improving their outcomes for 
children in the child welfare system; however, tribes have not been 
eligible to receive these funds in the past. Improving tribal program 
support is very important, but tribal courts are integral partners in 
this effort too. We recommend that you make tribal courts eligible to 
share in the court enhancement funding under the subcommittee's 
proposal.

Conclusion
    We are very appreciative of the subcommittee's efforts to include 
tribal governments in its proposal. Your support for increasing tribal 
capacity in child welfare is what is needed if we are to improve child 
welfare outcomes for American Indian and Alaska Native Children in this 
country. We understand that this is a draft proposal and that there 
will be more discussion, and welcome the opportunity to be part of this 
discussion. Indeed, the draft bill does need improvements with regard 
to its tribal provisions. The National Indian Child Welfare Association 
works closely with tribal governments across the country and national 
organizations, including the National Congress of American Indians, so 
we have the ability to be able to bring the issues in Indian Country to 
the subcommittee process. Thank you for your effort, and we look 
forward to working with you soon.

REFERENCES
    Brown, E., Whitaker, L.S., Clifford, C., Limb, G., and Munoz, R. 
(2000). Tribal/state Title IV-E intergrovernmental agreements: 
Facilitating tribal access to federal resources. Seattle: Casey Family 
Programs.
    Cross, T., Earle, K., Echo-Hawk Solie, H., & Manness, K. (2000). 
Cultural strengths and challenges in implementing a system of care 
model in American Indian communities. Systems of Care: Promising 
Practices in Children's Mental Health, 2000 Series, Volume I. 
Washington, DC: Center for Effective Collaboration and Practice, 
American Institutes for Research.
    Red Horse, J. G., Martinez, C., & Day, P. (2001). Family 
Preservation: A case study of Indian tribal policy. Seattle, WA: Casey 
Family Programs.
    U.S. Department of Health and Human Services, Office of Inspector 
General. (1994). OEI-01-93-00110, Opportunities for ACF to improve 
child welfare services and protections for Native American children. 
August, 1994. Washington, DC: United States Government Printing Office.

The National Indian Child Welfare Association
    The National Indian Child Welfare Association (NICWA) is a 
national, private non-profit organization dedicated to the well-being 
of American Indian children and families. We are the most comprehensive 
source of information on American Indian child welfare and work on 
behalf of Indian children and families. NICWA services include (1) 
professional training for tribal and urban Indian child welfare and 
mental health professionals; (2) consultation on child welfare and 
mental health program development; (3) facilitation of child abuse 
prevention efforts in tribal communities; (4) analysis and 
dissemination of public policy information that impacts Indian children 
and families; (5) development and dissemination of contemporary 
research specific to Native populations; and (6) assisting state, 
federal, and private agencies to improve the effectiveness of their 
services to Indian children and families.
    In order to provide the best services possible to Indian children 
and families, NICWA has established mutually beneficial partnerships 
with agencies that promote effective child welfare and mental health 
services for children (e.g., Substance Abuse and Mental Health Services 
Administration, Indian Health Services, Administration for Children, 
Youth and Families, National Congress of American Indians, Federation 
of Families for Children's Mental Health, and the Child Welfare League 
of America).

                                 <F-dash>

  Statement of John A. Johnson, New York State Office of Children and 
                 Family Services, Rensselaer, New York

    The nation's investment in services to its abused and neglected 
children has long served as fodder for national discussion and debate. 
Yet, in the swirl of concern about the safety, permanency and well 
being, little substantive change in federal funding has occurred in 
more than two decades. Uncapped federal funding remains available for 
care and maintenance of the poorest children entering care--and then 
only when compliance has been achieved with a myriad of rules that only 
marginally relate to achieving pivotal outcomes. Federal spending on 
services to prevent out-of-home placements or to reunite children with 
their families remains a negligible proportion of the federal child 
welfare spending.
    In short, federal funding appears to reward separation of 
vulnerable children from their families, rather than exhaustion of 
services to maintain them safely at home or to return them home if they 
are already in placement. This investment strategy would be suspect 
under any circumstances, and judges faced with ordering separation of 
families have expressed wariness about expectations placed upon them 
given the federal focus on foster care in funding and in publication of 
rules and guidelines.
    The renewed discussion of instituting a federal block grant for 
foster care seems well timed for New York State. The number of children 
in foster care has decreased steadily for almost a decade. Governor 
Pataki and the Legislature have demonstrated a commitment to supporting 
a continuation of this decrease by investing in services to prevent 
placements and, where unavoidable, to shortening lengths of stay by 
funding an array of services. The guarantee of continued funding at 
current level, would allow New York State to serve vulnerable children 
in the context of their families, and their families in the context of 
their communities.
    In considering an alternative to foster care financing, New York 
has advocated the following:

    <bullet>  De-Link from 1996 AFDC standards. All children in foster 
care would be eligible for title IV-E assistance and presumed eligible 
for Adoption Assistance. Child welfare relies on an eight-year-old 
means test to determine financial eligibility for services provided by 
all states regardless of income. Elimination of this means test for 
foster care and adoption services is both sensible and cost efficient. 
The amount of federal participation in setting a block grant for foster 
care would, as noted above, be based on historical spending. Adoption 
services could be reimbursed based on either: (1) the percent of 
federal expenditures in relation to state spending going forward in 
time towards future claims and continuing reimbursement at that level 
or (2) the use of the current rates of eligibility for Title IV-E 
Adoption Subsidies in establishing federal participation for future 
year claims. This is consistent with the recommendations made to this 
committee by the Pew Commission, the American Public Human Services 
Association (APHSA), and the Child Welfare League of America (CWLA).
    <bullet>  Make participation optional and provide states sufficient 
time to opt-in. Lead time will be important to states to allow for 
calculations to determine the benefits of participating, to make any 
needed regulatory, statutory and systems changes, to involve 
stakeholders in improving services and to instruct the field of 
practice changes. Two years following enactment seems to be the minimum 
time required to structure funding changes to succeed.

        <bullet>  Make sure the states' baseline for establishing 
        spending levels remains certain, as it is in TANF. To set the 
        level of annual federal funding for a state on anything other 
        than spending for a recent year seems disingenuous and would 
        obviate most the incentives for participation in the program. 
        While the number of foster care days used by New York State has 
        declined, the children and youth entering care present unique 
        challenges to mental health, educational and other special 
        needs. To successfully meet these needs has proven costly in 
        two arenas. The cost of care days has risen and the cost of 
        establishing and of maintaining a comprehensive mix of 
        community-based services also has grown.

    Finally, this baseline must remain at a constant level once set, 
not be impacted by audits for at least five years with no retroactive 
audits, and must provide for growth over the duration of the capped 
entitlement to permit states confidence in budgeting over the life of 
the financing.

    <bullet>  Equitably calculate states' baseline. For purposes of 
implementing a child welfare finance alternative, calculate the 
baseline as the sum of a State's Title IV-B allotment and its title IV-
E administrative and training expenditures.
    <bullet>  Declare all foster children in a class for the purpose of 
Medicaid eligibility determination in all facilities. New York State 
recommends that children in a foster care facility continue to receive 
funding for medical care should they, for example, be transferred to a 
hospital. This investment has a short and long term pay-off to the 
child, state and federal governments. In other words, Medicaid 
eligibility cannot be tied to a facility, but must be tied exclusively 
to the foster child, regardless of setting.

        <bullet>  Eliminate federal title IV-E Reviews and other 
        administrative requirements. These reviews have been viewed as 
        ``paper reviews'' to establish case eligibility for federal 
        funding. A capped entitlement would obviate the need for such a 
        case-by-case review and allow for increased focus and use of 
        funds for outcomes.
        <bullet>  Prohibit the creation of new data reporting 
        requirements for child welfare services. States have struggled 
        with meeting the evolving federal data requirements, at a high 
        cost to accomplish required changes. New YorkState has found 
        requirements that differ from federally specified data to 
        provide more information for accountability, planning and 
        research. To ignore state-specific data designs retards 
        meaningful use of data in making sorely needed program 
        improvements.
        <bullet>  Prohibit the unfair treatment of kinship foster care. 
        Subsidized guardianships, including placements with 
        grandparents and other relatives, are an important permanency 
        option for many children. Currently, the federal government 
        does not provide specific funding to support that option. The 
        draft legislation permits subsidized guardianship only as a 
        waiver option for a state rather than automatically including 
        it in maintenance. It is critical that subsidized guardianship 
        and kinship programs be an option for all state and local child 
        welfare systems if our goal is to increase the rate of 
        permanency for these children.
        <bullet>  Encourage the engagement of families by adequately 
        funding preventive service dollars. The safety and permanence 
        of children in foster care depends upon funding for services 
        and supports to avoid and/or reduce the length of stay in out-
        of-home placements. Engaging families in casework involves a 
        heavy financial burden and the states are encouraged to support 
        this practice through the recommendations of the Pew Report and 
        CFSR PIP approved plans. Federal participation should 
        substantiate these federal findings.
        <bullet>  Provide for true transferability of funding. Both the 
        Pew Commission and the subcommittee's draft legislation 
        recommend states be allowed to transfer ``excess'' federal 
        foster care maintenance funds into the services block grant for 
        reinvestment into other child welfare services. These 
        ``excess'' funds would come from a state reducing its foster 
        care expenditures below a certain baseline. Based on states' 
        current struggle to adequately cover the cost of care for its 
        children, the likelihood of excess funds seems remote. 
        ``Unused'' transferred foster care funds should not be relied 
        on as a primary source of new funding for prevention and other 
        services. I support rewarding states for improving performance. 
        However, any opportunity for transfer must be constructed in a 
        way that does not provide a disincentive to provide the care 
        that children in foster care need.
        <bullet>  Incentive dollars should be a reward for good 
        practice. Providing ongoing funding as a reward for programs 
        that demonstrate elements of success is a positive step in 
        developing best practice standards. Instead, federal dollars 
        for planning and preventive care are capped and distributed in 
        a competitive manner on demonstration programs.
        <bullet>  Support the national priority of adoption. Adoption 
        assistance should neither be capped nor support reductions in 
        funding or FMAP.
        <bullet>  Prohibit the establishment of national standards as 
        part of this finance option mandate. The CFSR is still a work 
        in progress. Many states have yet to have the Program 
        Implementation Plans (PIPs) approved. The Administration for 
        Children and Families has yet to make decisions concerning the 
        next round of the CFSR. Because of this, it would be 
        precipitous to legislate any national standards.
        <bullet>  Directly relate Maintenance of Effort Requirements 
        (MOE) to states title IV-E match for title IV-E and allow for 
        flexible use of the matching funds. Flexibility would enable 
        states to adapt evidence-based practices from child welfare and 
        other fields to help children remain safely in their own homes 
        and communities.
        <bullet>  Make available contingency funds to states that 
        experience significant increases in foster care. As New York 
        discovered with the crack epidemic in the 80's, states may 
        experience unique circumstances that result in caseload growth. 
        For states with a caseload growth of, for example 10% or more 
        over a two-year period, a provision for a 50% state match of 
        federal contingency funds would provide some relief from 
        unanticipated costs while discouraging state abuse of funding. 
        Because caseload shifts seem related directly to unique state 
        circumstances, New York recommends that any growth be measured 
        within the state and not against national trends.
        <bullet>  Allow for an inflationary increase in funding. As 
        recommended by The Pew Commission, APHSA and CWLA, the annual 
        appropriation for title IV-E should be increased by the CPI 
        plus 2%.

          <bullet>  Do not complicate the issue of child welfare 
        financing by adding legislation that affects the Interstate 
        Compact on the Placement of Children (ICPC). The proposals made 
        by the White House and the Subcommittee pertain to federal 
        funding mandates. ICPC is a procedural issue that concerns 
        children placed beyond a state's border. ICPC legislation 
        should remain separate from this funding process.
          <bullet>  Allow for states to use federal funding to reward 
        court performance that enhances outcomes for foster children. 
        Currently, federal rules limit federal child welfare funding to 
        the courts to federal court improvement funds. Courts have 
        little incentive to join with child welfare services 
        administrators and providers as partners in achieving safety 
        and permanency of children.

    By allowing states to establish outcome indicators for courts and 
to provide funding to courts that work to achieve such indicators, 
partnerships would be fostered. Family treatment courts in New York 
provide a model for collaboration For example-family treatment courts 
hold biweekly hearings with substance abusing parents, the child 
welfare agency, substance abuse treatment provider, and legal 
representatives for the parties to review progress in treatment and 
activities toward effecting reuniting foster children with their 
parents. Despite the increased court costs and the success of the 
model, no federal child welfare funding may be invested in offsetting 
court costs. Assigning state child welfare administrators some voice in 
the use of federal court improvement funding and federal title IV-E to 
advance child welfare-court collaborative promises continued 
improvements in outcomes for vulnerable children and their families.
    In addition, the bill language should permit certain court expenses 
such as monitoring orders, judicial training, mediation as well as 
other identifiable court activities related to permanency and better 
outcomes for foster care children to be allowable as Title IV-E costs.
    Naturally, because families who come to the attention of the child 
welfare system typically face the challenge of substance abuse, 
domestic violence, poverty, overcrowded housing and unstable 
relationships between parents, continued funding to meet these multiple 
and complex needs remains critical to improving permanency, safety and 
well-being of the nations' most vulnerable children. In the face of 
current economic conditions, federal leadership and funding underpins 
the success of states' efforts to achieve shared outcomes for our 
children and their families.
    As Commissioner of New York's agency that oversees child welfare, I 
am encouraged by the serious attention given to the critical issues 
arising from child welfare by Congress and this committee. I thank the 
Members for their attention and look forward to the full committee's 
proposal as well as positive progress in this arena.

                                 <F-dash>

           Statement of John R. Seita, Battle Creek, Michigan

    The foster care system is broken and needs substantial overhaul. 
That much is evident. It's also clear that most of the recommendations 
over the years about how to improve that system have failed.
    Which brings us to the latest effort, from the Pew Commission on 
Children in Foster Care.
    The commission released a report last month recommending 
significant changes in foster care financing and ways to strengthen 
courts in order to better help foster children. As a former foster 
child, my concern is not about how many of the recommendations will 
become policy or if they would work--both impossible to predict.
    What disturbs me is the composition of the commission.
    I agree that improving foster care must be a priority. I lived in 
more than 15 foster homes. I understand the misery of feeling alone, 
unwanted and unloved. I've experienced the difficulties of life both in 
and after foster care.
    The 15-member commission includes one foster care alumna. In the 
old days, people of color called this kind of representation 
``tokenism.''
    The commission lacks the alumni participation to be credible. The 
participation of alumni at the table of power is essential to the 
design of foster care policy, practice and resource allocation. Yet the 
views of foster care alumni are barely included, if at all.
    Instead, a cartel of the usual suspects has commandeered the 
process, which will result in the same old sorry ``reforms'' being 
rained upon foster kids--without the input of those in care or formerly 
in care, who are the real experts.
    Few of us would endorse the findings of a civil rights commission 
comprised of 14 Caucasians and one person of color. Few would embrace 
the conclusions of a women's commission comprised of 14 men and one 
woman. Why would anyone embrace the views of a foster care commission 
that systemically denies the importance of a representative alumni role 
and partnership?
    In my communications with the Pew Commission over a year ago, I 
urged that more alumni be included on the commission. The commission 
staff informed me that ``focus groups'' would gather the input of 
alumni and that views from those currently and formerly in care would 
be collected through the Internet. Therefore, there was no need for 
increased alumni participation on the commission.
    The commission apparently doesn't realize that for many alumni, 
this patronizing approach renders its findings suspect. The composition 
of the commission cannot reflect the views of the population it 
purports to represent. Rather, its elitism and exclusion continue a 
pattern of stifling participation, denying empowerment and 
marginalizing its consumers.
    If the Pew Commission were a business, millions of former foster 
kids would boycott it.
    While consumer inclusion might seem radical to the Pew Commission, 
the involvement of consumers on boards and commissions is not uncommon 
in other fields. The United States Commission on Civil Rights, for 
instance, is a diverse and balanced group of eight people comprised of 
Caucasians, African-Americans, a Native American and a person with a 
disability. The Michigan Council on Developmental Disabilities includes 
people with developmental disabilities, family members of people with 
such disabilities, and professionals from agencies charged improving 
opportunities for developmentally disabled people.
    Similarly, former foster children must be an integral part of the 
decision-making process for improving foster care policy and practice. 
Clearly, those in charge of foster care have not done a good job on 
their own. One thousand ``blue ribbon'' panels made up of non-consumers 
on their own cannot fully know how to improve the foster care system.
    I urge Congress to take no action on the Pew recommendations until 
a commission of foster care alumni reviews the report and issues its 
own findings. We cannot continue to harm foster children through 
ignorance and arrogance. Otherwise, we risk following the adage, ``If 
you want more of the same, keep doing what you're doing.''

            Strength-Based Approaches Expand into Leadership

    A Michigan study of children's agencies found that very few had any 
former youth in care either in leadership or board roles. The author, 
himself a product of the child welfare system, suggests that quality 
services will require perspectives of these former consumers of care.

The Strength-Based Revolution
    Exciting new practices have emerged in the field of youth 
development and have been widely documented and practiced. Positive 
youth development, positive psychology (Larson, 2000; Seligman & 
Csikszentmihalyi, 2000), asset building, and the strength-based 
approach are slowly replacing the historical practices of deficit 
reduction, labeling, and ``fault fixing.'' This swing of the pendulum 
away from looking for deficits, diseases, disorders, and dysfunctions 
not only feels good and seems intuitively proper, but also is supported 
by recent research on resilience (Werner & Smith, 1992; Werner & Smith, 
1977; Garmezy,1981; Rutter, Giller, & Hagell, 1998; Wolin & Wolin, 
1993), asset building (Benson, 1997), positive youth development 
(Pittman & Irby, 1996), and seminal ideas, such as the Circle of 
Courage (Brendtro, Brokenleg, & Van Bockern, 2002) and family privilege 
(Seita & Brendtro, 2002). A logical extension of the strengths movement 
is to involve ``former consumers of children's services in the 
leadership and governance of these organizations.
    Youth are the best experts on themselves. Young people who are in 
care and in other alternative settings have a variety of strengths that 
can be identified, tapped, shaped, strengthened, and utilized to create 
and support powerful caring environments that can reclaim all young 
people and that represent the best of positive youth development (Seita 
& Brendtro, 2002; Brendtro, Ness, & Mitchell, 2001).
    These same youth who age out of the system and into adulthood may 
possess leadership skills and personal insight that could contribute to 
the leadership and governance of the child welfare system. Perspectives 
from former youth in care strongly suggest that child welfare often 
fails those whom it is designed to serve (Raychaba, 1992).

System Failures
    At any given point there are over 600,000 children within the child 
welfare system who are placed in out-of-home status; most survive to 
adulthood, although a few die at the hands of caregivers and abusive 
parents. Over 25,000 children transition out of foster care and other 
dependent settings every year as young adults. Children in foster care 
constitute less than.003% of the nation's population. However, 17% of 
state prisoners are former foster-care children, 40% of foster children 
leave the system to go on the nation's welfare rolls, and 39% of the 
homeless youth in Los AngelesCounty are former foster-care children 
(Connolly & McKenzie, 1999). In an evaluation of foster care 
independent living programs, Cook (1990, 1992) found:

    <bullet>  66% of 18 year olds had not completed high school or 
obtained a GED;
    <bullet>  61% had no job experience;
    <bullet>  38% had been diagnosed as emotionally disturbed;
    <bullet>  7% had a drug abuse problem;
    <bullet>  90% had a health problem;
    <bullet>  17% of the females were pregnant;
    <bullet>  40% had held a job for at least one year;
    <bullet>  among the females, 60% had given birth;
    <bullet>  25% had been homeless for at least one night, and fewer 
than 1 in 5 were completely self-supporting.

    In a 1998 study of Wisconsin youths 12-18 months after they 
emancipated from foster care in 1995, Courtney and Piliavin (1995, 
1998) found that 37% had still not completed high school, and 18% of 
the youths had been incarcerated at some point since their discharge.
    Nevada KIDS COUNT (2001) interviewed 100 youth who had aged out of 
foster care at least six months previously. While 63% were employed at 
the time of the interviews, 55% had lost at least one job since leaving 
care. About two-thirds had earned less than $10,000 annually, and 41% 
did not have enough money to cover basic living expenses. Nearly a 
quarter of them had supported themselves at some time by dealing drugs, 
and 11% had had sexual intercourse in exchange for money.
    The outcomes of the child welfare system are appalling; yet, there 
seem to be few remedies and even fewer effective and concrete 
strategies to fix what we have unleashed in the child welfare system. 
The number of children being placed in out-of-home placements, such as 
foster care homes and other settings, has shown a steady increase over 
the last two decades, according to statistics provided by the 
Administration for Children and Families, a division of the U.S. 
Department of Health and Human Services (1999).
    Efforts such as family preservation programs--programs that provide 
intensive in-home support services--have emerged as one attempt to keep 
families together and to keep children out of the child welfare system. 
Typically, family preservation provides counseling, transportation 
support, and occasional tangible support, such as washers and dryers--
all in the name of keeping a family intact and reducing out-of-home 
placements.Wrap-around is another attempt to reform child welfare, 
functioning in a manner similar to family preservation, and provides 
intensive family support. Wrap-around programs work with families to 
establish family goals. A wrap-around worker is often assigned to work 
with the family to help the family reach its goals. In the spirit of 
maintaining families, other efforts include kinship care, where a child 
at risk is placed with extended family. Related efforts include the 
Community Action Agency and its foster grandparent programs for youth 
who have limited extended family. In spite of these efforts, the child 
welfare system continues to limp along at best. Perhaps it is time to 
consider two new approaches: applying the strength-based practices 
represented by positive youth development and including those who have 
actually experienced the system as youth to advise and lead the system.

Overview
    Clearly, common practice across America demonstrates that it is 
appropriate, and even desirable, for constituents to play a leadership 
role in the agencies and organizations that are designed to serve them. 
A recent example of constituency-led activism occurred when students at 
GallaudetUniversity for the hearing impaired demanded that one of their 
own, I. King Jordan, become the next president of the university, 
overruling the Gallaudet Board of Directors' original choice of a 
person of hearing.
    Formal leadership access for disenfranchised persons is important 
since those who are in formal leadership positions have access to 
decision makers, influence on budget disbursement, policy, and 
practice, and the power and the respect to make decisions influencing 
direction for its constituency. However, there seems to be little 
institutional will to integrate child welfare alumni into leadership 
roles. A first study conducted in Michigan by the author, a child 
welfare alumnus, paints a dismal picture of the participation levels of 
child welfare in any formal leadership roles in child welfare agencies.

The Michigan Study
    The purpose of this research was to conduct a status study of how 
many child welfare alumni are in leadership positions in child welfare 
agencies across the state of Michigan. The study sought to determine 
how many board members of Michigan child welfare agencies are child 
welfare alumni. Related interests include the number of child welfare 
alumni in leadership roles, such as chief executive officer, chief 
operating officer, or another executive level within Michigan child 
welfare agencies.
    The School of Social Work at Michigan State University conducted 
this study in partnership with the Michigan Federation for Children and 
Families. The Michigan Federation is a statewide membership 
organization comprised of private, nonprofit child and family serving 
agencies, regional and local child and family advocacy organizations, 
and individuals who are interested in protecting children, building 
families, and strengthening families.
    The population for this study included the 104 child welfare 
agencies within the database of the Michigan Federation of Children and 
Families. Since the entire database was surveyed, there was no use of 
inferential statistics, and simple descriptive statistics were 
reported.
    The final return rate after several contacts was 59%. Only six 
agencies, or about one out of ten, reported having board members who 
were child welfare alumni. No agencies reported having either a chief 
executive officer or any executive staff who were a child welfare 
alumnus.

New Leadership Roles
    The Michigan survey suggests that perhaps 90% of child-serving 
organizations have no policy input from former youth who were consumers 
of such services. Ideally, child welfare alumni should be a part of 
policy and legislative change and integral in the leadership and 
governance of child welfare services going forward. Considering the 
documented outcomes of the child welfare system, the terrible price 
paid by child welfare alumni, and the lack of formal participation in 
child welfare system leadership by child welfare alumni, it seems 
reasonable to enact policy, legislative, and practice changes in the 
child welfare system to repair the wrongs that have been perpetrated by 
the system.
    Part of the problem with the child welfare system may be that few 
of those administering and leading the system have experienced the 
system as a consumer of services or have formally partnered with those 
who have experienced the system as consumers.
    You're an orphan, right? Do you think I'd know the first thing 
about how hard your life has been, how you feel, who you are because I 
read Oliver Twist? Does that encapsulate you? (Damon, Affleck, & Van 
Sant, 1997).
    The foregoing quote from the movie Good Will Hunting was part of a 
conversation between a therapist and a bitter child welfare alumnus. 
This exchange poignantly captures the difference between living as an 
orphan and merely studying the experience. Both scholarship and 
experience are necessary to form a new child welfare partnership. Based 
upon anecdotal evidence, there is no reason to suspect that results 
from across the nation will be much different.
    A national study is planned to determine if the results from 
Michigan reflect national trends. The dismal outcomes demonstrated by 
the child welfare system as presently operated suggest that using 
alumni in board and leadership roles could provide fresh perspective to 
improve outcomes.
    It is perhaps a vestige of the deficit perspective of ``youth at 
risk'' that we fail to involve them in the very mission of serving such 
youth. Would it even be thinkable that white persons were leading the 
National Association for the Advancement of Colored People or the Urban 
League? Men do not lead the National Organization for Women, 
heterosexuals do not lead the Gay and Lesbian Alliance, and young 20-
something-year-olds do not lead the American Association of Retired 
Persons. Is it any more appropriate for the child welfare system to be 
led solely by the same people who initially caused the child welfare 
debacle?
    ``Uncle'' Floyd Starr founded StarrCommonwealth, a home for boys at 
Albion, Michigan, in 1913. Starr, as we called it, was my last stop 
along the child-welfare trail. Mr. Starr was regarded as a visionary 
with unusual wisdom and energy. One of ``Uncle's'' dreams was to 
someday have one of his boys become the president of StarrCommonwealth. 
That dream was nearly realized when one of his boys, Gordon Langley, 
directed Starr's Ohio campus in the 1950s. Sadly, Mr. Langley died 
before he was able to assume the leadership of Starr Commonwealth.
    Were we to follow Mr. Starr's dream today with an integration of 
child welfare alumni as agency and policy leaders, we would create an 
innovative new partnership necessary to reform the child welfare 
system. Any new partnership should be collaborative and must not 
exclude all existing parties within the child welfare system. Rather, 
this should be a partnership that empowers child welfare alumni to 
guide, direct, change, and evaluate the child welfare system.
    We will never develop quality systems and organizations of care if 
we ignore the perspectives of consumers. This has been widely 
recognized concerning families of disabled and troubled children. While 
young people in care must also be given a voice, it seems appropriate 
that with greater maturity they could provide unique expertise in 
guiding program and policy of youth-serving organizations. The evidence 
to date suggests that, in all likelihood, unless child welfare alumni 
are included in genuine decision-making, advising, and leading child 
welfare agencies, a crucial body of expertise is being ignored.

Letter to Pew Commission Members
    This letter is to express our concerns about the Pew Commission on 
Foster Care, of which you are a member. Let us note, however, that 
while we appreciate your efforts on this very important issue, the 
composition of the commission is inappropriate.
    Enclosed is an editorial entitled The Fatal Flaw in Pew's Foster 
Panel published in Youth Today that explains our point of view. Also 
enclosed is a recent journal article published in 2004 on foster care 
leadership entitled Strength Based Approaches Expand into Leadership 
from the journal Reclaiming Youth. Finally there is an article from the 
Lansing State Journal entitled Ex-Foster Kids Needed in Leadership 
Positions.
    There are many foster care alumni who combine the experience of 
growing up in foster care placements with the professional expertise of 
working in the field. For some reason, however, those formerly in care 
are seldom included in the process of determining policy, practice, 
setting funding priorities and fund distribution. This systemic 
exclusion is what we call ``Pew's Fatal Flaw.''
    Excluding the insights of those formerly in care is tantamount to 
1) minimizing the value of insight gained through their experiences and 
2) denying them a voice in shaping policy and practice. This exclusion 
thereby limits, indeed, damages the potential of foster care 
commissions to accurately shape policy regarding the foster care 
system. Therefore, we seek to work with those who serve foster care 
youth in a manner that will allow our insights to promote positive 
changes in the foster care system.
    Let us note that there is a proud history in our nation with 
respect to the fight for civil rights and access to power and 
opportunity. People of color, women, those with disabilities, gays and 
lesbians, and other disenfranchised groups have fought hard for 
recognition, acceptance and representation. There are many foster care 
alumni across this country that lack access and recognition. The 
composition of the Pew Commission on Foster Care perpetuates denial of 
access and opportunity. Thus, excluding foster care alumni from the 
commission and like processes is not unlike the barriers historically 
faced by other, disadvantaged groups.
    Like other historically disadvantaged groups, foster care alumni 
are not being afforded the systematic opportunity to use their voices, 
experiences and knowledge to shape policy and practice. Therefore, our 
mission is to create opportunities for foster care alumni to be a part 
of system improvement and advocacy through formal channels.
    Recently, we convened a summit at the Michigan State University 
School of Social Work to explore ways to create pathways in child 
welfare leadership for foster care alumni. Nine of the eighteen 
attendees were those formerly in care, most of who have earned advanced 
degrees, and are committed to improving the foster care system.
    We ask you to ponder two questions. Have you experienced the 
loneliness, fear, confusion, sense of abandonment and futility of 
living in and surviving the foster care system? If you were a foster 
child, who would you want to represent your needs and viewpoints?
    We hope that you will think about these questions and help us to 
have our voices heard. We believe that another commission on foster 
care should be convened which would be populated by foster care alumni, 
in order to address the same questions and issues addressed by the Pew 
Commission and to review the Pew report.
    This would set an example for future foster care commissions, 
provide a unique perspective of how to improve the delivery of services 
to foster kids and promote more positive outcomes of the foster care 
system.
    We welcome the opportunity to have a dialogue with you on our views 
and hope that you will share our views with Carol Emig and others with 
the Pew Commission staff. Thank you for your commitment to the many 
children in the foster care system.
                                 ______
                                 
Ex-Foster kids needed in leadership positions
By Tim Martin
Lansing State Journal
    John Seita couldn't imagine the NAACP with white leadership. Or the 
National Organization for Women with a male president. Or the AARP led 
by a 25-year-old. So why, the Michigan State University professor asks, 
is the state's foster care system virtually devoid of alumni in its 
leadership positions?
    ``The system is a mess, and it won't be fixed until people most 
experienced with it are involved,'' Seita said. Seita's credentials 
include bachelors, master's and doctorate degrees from Western Michigan 
University in topics ranging from sociology to education. But his 
street credibility comes from living in at least 15 different foster, 
group and detention homes after being removed from his abusive 
biological home.
    His anger started with his mother. But he shared it by fighting 
with caseworkers, teachers or anyone else who crossed his path while 
growing up in Ohio. It eventually landed him at Starr Commonwealth, a 
home for troubled children in Albion, about 50 miles south of Lansing.
    Seita harnessed his rage into a productive career. He's counseled 
kids, directed programs at Battle Creek's W.K. Kellogg Foundation and 
is now an assistant professor of social work at MSU He's helped 
research private Michigan child welfare agencies and found that none of 
the more than 100 responding agencies had foster care alumni in 
leadership roles. Now he's backing legislation that would establish 
focus groups of foster care youth to help shape Michigan's child 
welfare strategy. ``It would be very valuable to get input from foster 
care alumni,'' said Bill Long, executive director of the Michigan 
Federation for Children and Families. ``Their voices should be heard.''

                                 <F-dash>

        Statement of Volunteers of America, Alexandria, Virginia

    Volunteers of America appreciates the opportunity to provide 
written testimony on the subject of child welfare reform. We commend 
the subcommittee for taking such interest in improving the system 
serving our nation's most vulnerable children and youth. Volunteers of 
America, a national nonprofit, faith-based human service organization, 
is driven by our mission to provide services to promote healthy 
development of children, adolescents and their families through a 
continuum of services from early prevention to intensive intervention 
approaches. Bonded by a commitment to faith, human dignity, and social 
justice, we have served children and families for over 100 years. Our 
experience has taught us that the faith community and federal and state 
governments are inseparable partners in this mission.
    As a complete overhaul of the child welfare financing system is 
considered, Volunteers of America recommends the following:

    1.  Maintain foster care maintenance and adoption assistance as an 
open-ended entitlement, and expand support to all children in foster 
care.

    All children and youth that come to the attention of the child 
welfare system are equally deserving of federal support. The current 
method of providing federal reimbursement only for children who meet 
restrictive income qualifications is no longer acceptable. Capping the 
IV-E entitlement may put states at risk of not being able to serve all 
children equally that have to be removed from their homes.
    Children should have the same access to services regardless of the 
income of their birth family and regardless of the financial 
circumstances of their state. State systems must have the funding 
flexibility of an open entitlement in order to respond to increases in 
need for services that may come unexpectedly, such as the crack cocaine 
epidemic of the early 1990s.

    2.  Allow the Title VI-E entitlement to fund family strengthening 
services.

    Family strengthening services promote the optimum functioning and 
maintenance of the family to best support the well being of the 
children within the family. Prevention and family strengthening 
services need to be incentivized within the child welfare financing 
system. We have found through our experience in serving families that 
children are better served when we can work with them in the context of 
their family, rather than once they have been removed. Families can 
often stay intact when intensive supports are placed around them at the 
first signs of trouble.
    The Nurse Home Visitation model is a well evaluated and time tested 
example of an effective family strengthening program. Nurse Home 
Visitation strives to improve the health and social functioning of low-
income first-time mothers and their babies by having nurses work to 
improve environmental contexts by enhancing informal support and by 
linking families with needed health and human services. The 
quantifiable results of this model are impressive: 80% reduction in 
rates of child maltreatment among at-risk families from birth through 
the child's second year; 56% reduction in the rates of children's 
health-care encounters for injuries and ingestions from birth through 
child's second birthday; 43% reduction in subsequent pregnancy among 
low-income, unmarried women by child's first birthday; and an 83% 
increase in the rates of labor force participation by first child's 
fourth birthday (Kempe Prevention Research Ctr. for Family & Child 
Health).
    Other services that strengthen families and should be allowable 
uses if Title IV-E include:

    <bullet>  Identification and treatment of mental health problems
    <bullet>  Identification and treatment of substance abuse
    <bullet>  Identification of domestic violence and appropriate 
services
    <bullet>  Parenting education
    <bullet>  Parent support groups
    <bullet>  Respite services

    3.  Open Title IV-E subsidies to allow for guardianship and kinship 
placements, and allow eligibility for all services available for 
traditional foster families.

    More than six million children--approximately one in 12--are living 
in households headed by grandparents or other relatives. In many of 
these homes, grandparents and other relatives have become the primary 
caregivers, or kinship caregivers, for children whose parents cannot or 
will not care for them due to substance abuse, illness, child abuse and 
neglect, economic hardship, incarceration, divorce, domestic violence, 
or other serious problems. New 2000 U.S. Census Data indicates that 2.4 
million grandparents are taking on primary responsibility for their 
grandchildren's basic needs.
    The use of kinship placements is an invaluable permanency option 
for many children and youth who are in formal foster care, as well as 
those in informal care. Kinship placements allow a child to stay within 
the context of their family network, even if their immediate family is 
not an appropriate placement. This is a particularly important option 
for older youth who are not likely to be adopted or fair well in a 
traditional foster family situation.
    In addition, kinship families are in particular need of family 
strengthening and support programs available to traditional foster 
families when the primary care giver is a grandparent or older 
relative. Respite services and support groups are important to helping 
a grandparent, who may be dealing with their own health and other 
challenges, maintain a stable home.

    4.  Increase support for youth ``aging out'' of the foster care 
system.

    It is estimated that each year 20,000 young people leave the foster 
care system at age 18 without being reunified with their families or 
adopted. These youth are at enormous risk of not transitioning into 
adulthood successfully. The Annie E. Casey Foundation reports that two 
to four years after aging out of foster care: 25 percent of the youth 
had experienced homelessness, nearly 50 percent had been arrested, more 
than 50 percent of the young women had given birth, only 50 percent of 
the youth were regularly employed, and a significant number were 
dependent on welfare.
    Increased resources need to be focused on this segment of foster 
care youth to ensure that when they leave the foster care system they 
enter into a stable housing situation, have an education or employment 
plan, financial literacy skills, and a support system. Few youth who 
live in families are fully self-sufficient at age 18; it is 
unreasonable to expect that foster youth will be able to succeed 
without intensive services and supports.

                                  <all>

</pre></body></html>
